<html>
<title> - INTEROPERABILITY IN THE NEXT ADMINISTRATION: ASSESSING THE DERAILED 700 MHz D BLOCK PUBLIC SAFETY SPECTRUM AUCTION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
INTEROPERABILITY IN THE NEXT ADMINISTRATION: ASSESSING THE DERAILED 700 
               MHz D BLOCK PUBLIC SAFETY SPECTRUM AUCTION

=======================================================================



                                HEARING

                               before the

               SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS,
                       PREPAREDNESS, AND RESPONSE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 16, 2008

                               __________

                           Serial No. 110-137

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 


                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
47-669                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman

Loretta Sanchez, California          Peter T. King, New York
Edward J. Markey, Massachusetts      Lamar Smith, Texas
Norman D. Dicks, Washington          Christopher Shays, Connecticut
Jane Harman, California              Mark E. Souder, Indiana
Peter A. DeFazio, Oregon             Tom Davis, Virginia
Nita M. Lowey, New York              Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
Columbia                             David G. Reichert, Washington
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Donna M. Christensen, U.S. Virgin    Ginny Brown-Waite, Florida
Islands                              Gus M. Bilirakis, Florida
Bob Etheridge, North Carolina        David Davis, Tennessee
James R. Langevin, Rhode Island      Paul C. Broun, Georgia
Henry Cuellar, Texas                 Candice S. Miller, Michigan
Christopher P. Carney, Pennsylvania
Yvette D. Clarke, New York
Al Green, Texas
Ed Perlmutter, Colorado
Bill Pascrell, Jr., New Jersey

                    I. Lanier Lavant, Staff Director

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

  SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS, PREPAREDNESS, AND RESPONSE

                     HENRY CUELLAR, Texas, Chairman

Loretta Sanchez, California          Charles W. Dent, Pennsylvania
Norman D. Dicks, Washington          Mark E. Souder, Indiana
Nita M. Lowey, New York              David Davis, Tennessee
Eleanor Holmes Norton, District of   Tom Davis, Virginia
Columbia                             Candice S. Miller, Michigan
Donna M. Christensen, U.S. Virgin    Peter T. King, New York (Ex 
Islands                              Officio)
Bob Etheridge, North Carolina
Bennie G. Thompson, Mississippi (Ex 
Officio)

                  Veronique Pluviose-Fenton, Director

                        Nichole Francis, Counsel

                         Daniel Wilkins, Clerk

        Heather Hogg, Minority Senior Professional Staff Member

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Henry Cuellar, a Representative in Congress From 
  the State of Texas, and Chairman, Subcommittee on Emergency 
  Communications, Preparedness, and Response.....................     1
The Honorable Charles W. Dent, a Representative in Congress From 
  the State of Pennsylvania, and Ranking Member, Subcommittee on 
  Emergency Communications, Preparedness, and Response...........     5

                               Witnesses

Mr. Derek K. Poarch, Chief, Public Safety and Homeland Security 
  Bureau, Federal Communications Commission:
  Oral Statement.................................................     5
  Prepared Statement.............................................     8
Mr. Chris Essid, Director, Office of Emergency Communications, 
  Department of Homeland Security:
  Oral Statement.................................................    10
  Prepared Statement.............................................    11
Dr. David Boyd, Director, Command, Control, and Interoperability 
  Division, Science and Technology Directorate, Department of 
  Homeland Security:
  Oral Statement.................................................    14
  Prepared Statement.............................................    11
Mr. Richard Mirgon, First Vice President, Association of Public-
  Safety Communications Organization (APCO) International:
  Oral Statement.................................................    29
  Prepared Statement.............................................    31
Mr. John M. Contestabile, Board Member, Public Safety Spectrum 
  Trust:
  Oral Statement.................................................    34
  Prepared Statement.............................................    36
Mr. LeRoy T. Carlson, Jr., Chairman of the Board, U.S. Cellular:
  Oral Statement.................................................    40
  Prepared Statement.............................................    41
Mr. Robert LeGrande, II, Former Chief Technology Officer, 
  District of Columbia:
  Oral Statement.................................................    44
  Prepared Statement.............................................    47
Mr. Charles F. Dowd, Deputy Chief, City of New York, Police 
  Department:
  Oral Statement.................................................    52
  Prepared Statement.............................................    53

                                Appendix

Questions From Chairman Henry Cuellar for Mr. Derek K. Poarch, 
  Chief, Public Safety and Homeland Security Bureau, Federal 
  Communications Commission......................................    63
Questions From Ranking Member Charles W. Dent for Mr. Derek K. 
  Poarch, Chief, Public Safety and Homeland Security Bureau, 
  Federal Communications Commission..............................    80
Questions From Chairman Henry Cuellar for Mr. Chris Essid, 
  Director, Office of Emergency Communications, Department of 
  Homeland Security..............................................    82
Questions From Ranking Member Charles W. Dent for Mr. Chris 
  Essid, Director, Office of Emergency Communications, Department 
  of Homeland Security...........................................    83
Questions From Chairman Henry Cuellar for Dr. David Boyd, 
  Director, Command, Control, and Interoperability Division, 
  Science and Technology Directorate, Department of Homeland 
  Security.......................................................    83
Questions From Ranking Member Charles W. Dent for Dr. David Boyd, 
  Director, Command, Control, and Interoperability Division, 
  Science and Technology Directorate, Department of Homeland 
  Security.......................................................    84
Questions From Chairman Henry Cuellar for Mr. Richard Mirgon, 
  First Vice President, Association of Public-Safety 
  Communications Organization (APCO) International...............    85
Questions From Ranking Member Charles W. Dent for Mr. Richard 
  Mirgon, First Vice President, Association of Public-Safety 
  Communications Organization (APCO) International...............    86
Questions From Chairman Henry Cuellar for Mr. John M. 
  Contestabile, Board Member, Public Safety Spectrum Trust.......    86
Questions From Ranking Member Charles W. Dent for Mr. John M. 
  Contestabile, Board Member, Public Safety Spectrum Trust.......    88
Questions From Chairman Henry Cuellar for Mr. LeRoy T. Carlson, 
  Jr., Chairman of the Board, U.S. Cellular......................    90
Questions From Chairman Henry Cuellar for Mr. Robert LeGrande, 
  II, Former Chief Technology Officer, District of Columbia......   102
Questions From Ranking Member Charles W. Dent for Mr. Robert 
  LeGrande, II, Former Chief Technology Officer, District of 
  Columbia.......................................................   102
Questions From Chairman Henry Cuellar for Mr. Charles F. Dowd, 
  Deputy Chief, City of New York, Police Department..............   103
Questions From Ranking Member Charles W. Dent for Mr. Charles F. 
  Dowd, Deputy Chief, City of New York, Police Department........   104


 INTEROPERABILITY IN THE NEXT ADMINISTRATION: HEARING ON ASSESSING THE 
        DERAILED 700 MHz D BLOCK PUBLIC SAFETY SPECTRUM AUCTION

                              ----------                              


                      Tuesday, September 16, 2008

             U.S. House of Representatives,
                    Committee on Homeland Security,
Subcommittee on Emergency Communications, Preparedness, and 
                                                  Response,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
Room 311, Cannon House Office Building, Hon. Henry Cuellar 
[Chairman of the subcommittee] presiding.
    Present: Representatives Cuellar, Dicks, Lowey, 
Christensen, Thompson (ex officio), and Dent.
    Mr. Cuellar. The House Committee on Homeland Security 
Subcommittee on Emergency Communications, Preparedness and 
Response will come to order. The subcommittee is meeting today 
to receive testimony regarding ``Interoperability in the Next 
Administration, Assessing the Detailed 700 MHz D Block Public 
Safety Spectrum Auction.''
    Again, good morning. On behalf of the Members of the 
subcommittee, let me welcome all the witnesses that we have 
from the Department of Homeland Security, the Federal 
Communications Commission, and representatives of the public 
safety community, the private sector and the State and local 
governments.
    The need for emergency communications is not new. 
Interoperability communications is the ability of emergency 
response providers in relevant Federal, State and local 
government agencies to communicate with each other as necessary 
through a dedicated public safety network, utilizing 
information technology systems and radio communications 
systems, and to exchange voice data and video with one another 
on demand in real time as necessary.
    By the way of history, the Communications Act of 1934, as 
enacted, recognized that the regulations of communications must 
promote the national defense and the safety of life and 
property. As we know, the spectrum is managed by the Federal 
Communications Commission, which provides a license to a 
private entity, local government or a public safety agency to 
use specific channels for communication purposes. But since the 
late 1960's the spectrum available has become increasingly 
crowded. That crowding has led to interference on the channels 
that first responders rely to talk on during times of 
emergency.
    In 1996, the Public Safety Wireless Advisory Committee, a 
blue ribbon committee created by Congress to examine the issues 
of emergency communications, concludes that public safety 
agencies did not have the sufficient radio spectrum to 
communicate with each other when they responded in emergencies. 
In fact, this blue ribbon panel released its report to Congress 
in 1996 and called for the congested spectrum to be cleared by 
September 11, 2001.
    In 2002, the 9/11 Commission called on Congress to support 
pending legislation, which provides for the expedited increased 
assignment of radio spectrum for public safety purposes.
    In 2006, Congress finally set up a firm date of February 
17, 2009, to set aside portions of the 700 MHz spectrum to 
public safety. However, the auction of the spectrum channels 
earlier this year fell far short than the expected $1.33 
billion reserved price set by the FCC. As a result, many are 
saying that the D Block on the 700 MHz is dead, done, delayed 
or derailed.
    The reality of the situation is that the Nation must clear 
the spectrum and promote a public safety communications 
network. Simply put, we must invest in the communications 
systems that have the substantial participation of public 
safety. That is why the public-private partnership of the D 
Block would truly reflect how the spectrum can be shared among 
commercial and public safety users on a network that meets the 
needs of the first responder communities. The bottom line is 
that we must have the commitment of all key players to make the 
public safety network build-out on the 700 MHz more than just a 
concept.
    So to move along with this hearing, I will look forward to 
hearing from Chief Derek Poarch of the Public Safety and 
Homeland Security Bureau of the FCC. Specifically, this 
subcommittee wants to better understand the FCC's concrete 
plans for making sure that all key players are faithfully 
participating in the development of a national system or at the 
very least a regional system that is built upon a national 
framework.
    Mr. Essid, this committee wants to know how the Office of 
Emergency Communications in the Department of Homeland Security 
through the emergency communications preparedness spectrum is 
coordinating efforts to facilitate the D Block auction as well 
as its impact on the national emergency communication plan.
    Dr. Boyd, the subcommittee would like to understand the 
technological challenges and opportunities that exist as it 
relates to the D Block.
    On the second panel, we will have Mr. Mirgon and Deputy 
Chief Dowd give us the public safety perspective on the status 
of and the future implications of the 700 MHz D Block. Mr. 
Contestabile and Mr. LeGrande will discuss the State and local 
governments' concern regarding the national or regional 
approach to building out the public safety network of the 700 
MHz. Finally, Mr. Carlson of U.S. Cellular will give us the 
private sector's perspective on the status of the D Block 
auction.
    With that, I thank the witnesses for coming. I look forward 
to our robust discussion about how we will recommit ourselves 
to ensure a public-private partnership plan that promotes 
public safety on the 700 MHz.
    The Chair now recognizes the Ranking Member of the 
subcommittee, the gentleman from Pennsylvania, Mr. Dent, for an 
opening statement.
    Mr. Dent. Well, thank you, Mr. Chairman. I am pleased that 
we are holding this hearing today to talk about the status of 
efforts to build a Nation-wide wireless network for public 
safety communications. All our witnesses today understand how 
critically important this issue is and understand the 
challenges it poses to the first responders and government 
officials at all levels.
    Since March of this year when the Federal Communications 
Commission, the FCC, began reconsidering how to proceed in 
auctioning the D Block, many public safety advocates, 
technology experts, and commercial providers have offered 
varying recommendations to structure the second auction. One of 
the key issues I would like to discuss today is whether the FCC 
should proceed with a national approach to developing the 
network through a public-private partnership or whether the 
license for the spectrum should be broken down and auctioned on 
a regional basis. I look forward to examining the benefits and 
challenges of both approaches with our panel of witnesses 
today.
    In particular, if the license is sold on a regional basis, 
I would like to discuss how the FCC can ensure that the 
communications systems put in place will facilitate 
interoperability and avoid the current patchwork of systems 
faced by our Nation's first responders.
    Another important issue is that of universal technology 
throughout the network. The deployment of common technology 
will be critically important to fully achieving interoperable 
communications. I look forward to hearing from Dr. Boyd on his 
office's efforts in this particular area.
    I also look forward to discussing with Mr. Essid, Director 
of the Office of Emergency Communications, how the development 
of the new 700 MHz network will impact other communications 
work underway, such as the implementation of State-wide 
communications interoperability plans.
    Also, areas such as the National Capital Region and New 
York City have invested millions of dollars on their own to 
improve the interoperability of voice and data networks. I 
would like to discuss with our witnesses how the work of areas 
such as these can be leveraged in the development of a new 
Nation-wide network.
    Again, I would like to thank our witnesses for joining us 
today, and I thank you, Mr. Chairman, for holding this 
important hearing. I yield back at this time.
    Mr. Cuellar. Thank you, Mr. Dent.
    The Chair now recognizes the Chairman of the House 
Committee on Homeland Security, the gentleman from Mississippi, 
Mr. Thompson, for his opening remarks. Mr. Chairman.
    Mr. Thompson. Thank you very much, Mr. Cuellar. Thank you 
for holding this hearing. Your leadership on this subcommittee 
is vitally needed for such an important issue as we hear today; 
namely, interoperability. Interoperability emergency 
communications challenges are not a new issue. As a former 
volunteer firefighter, I know first-hand how heavily reliant 
first responders are on sharing a network that allows them to 
relay life-saving information on the scene and in real time. In 
the 7 years that have passed since the terrible attacks on 9/
11, I remain very concerned about the slowness of progress made 
to provide first responders with the resources necessary to be 
fully operable and interoperable during a time of disaster.
    This committee has authorized billions of Federal dollars 
to improve our first responders' ability to protect, defend and 
secure the homeland. Congress has set aside the date of 
February 19, 2009, to provide first responders with the 
additional spectrum that they need to carry out their day-to-
day tasks. We are here today to work together and provide 
recommendations for the future of the 700 MHz D Block public 
safety spectrum.
    As Dr. Martin Luther King Jr. once said, we are confronted 
with the fierce urgency of now. Our first responders and 
American public cannot afford another delay in the process of 
the D Block auction.
    I am pleased that we have a panel of witnesses with broad 
representation from Federal, State and local public safety 
entities as well as industry stakeholders that will present 
future steps on how to implement a Nation-wide interoperable 
broadband network. I look forward to receiving your explanation 
on how a regional report or national licensing build-out will 
impact the public safety community.
    While the first auction of the D Block is commonly referred 
to as dead or derailed, this does not mean the D Block is 
doomed. As I have mentioned in the past, the public-private 
partnership is crucial in a successful reauction of the public 
safety spectrum. Congress expects that Government, public 
safety and commercial entities will cooperate fully to give 
first responders the additional spectrum that is needed to 
facilitate emergency communications.
    Thank you for joining us today. Mr. Chairman, I look 
forward to the testimony of these individuals and a successful 
reauction.
    Mr. Cuellar. Thank you, Mr. Chairman. Other Members of the 
subcommittee are reminded that under the committee rules 
opening statements may be submitted for the record. I now 
welcome today's panel of witnesses.
    Our first witness, Mr. Derek Poarch, is the Chief of 
Federal Communications Commission's Public Safety and Homeland 
Security Bureau. The bureau is responsible for the FCC 
activities pertaining to public safety, homeland security, 
emergency management and disaster preparedness and represents 
the Commission on these issues before Federal, State and 
industry organizations. Prior to his position at the FCC, Mr. 
Poarch served in various law enforcement capacities and as a 
Director of Public Safety and Chief of Police at the University 
of North Carolina at Chapel Hill. Welcome.
    Our second witness is Mr. Chris Essid. Mr. Essid is the 
Director of the Department of Homeland Security Office of 
Emergency Communications. Prior to this, he served as the first 
interoperability coordinator for the Commonwealth of Virginia. 
He aided in the development of the Nation's first State-wide 
communications interoperability plan. Prior to this noteworthy 
achievement, Mr. Essid served for 5 years in the U.S. Army 
followed by 4 years with the Virginia Department of 
Transportation and Taxation. Welcome, Mr. Essid.
    Our third witness is Dr. David Boyd, who currently serves 
as the Director of the Command, Control, and Interoperability 
Division of the Science and Technology Directorate within the 
Department of Homeland Security. Before joining DHS, Dr. Boyd 
served as the Director of Science and Technology for the 
National Institute of Justice, where he managed R&D programs 
affecting law enforcement. Dr. Boyd is also a retired Army 
officer. Dr. Boyd, welcome.
    Our second panel, if I can go ahead and just introduce them 
so we can move quickly to the second panel, that we will hear 
right after the first panel, the fourth witness is Mr. Richard 
Mirgon, President-Elect of the Association of Public-Safety 
Communications Officials. He has recently retired from the 
position of Director of Technology Services for Douglas County 
in Nevada. Mr. Mirgon served 4 years in the United States Air 
Force as an intelligence analyst. Can you wave so we can--there 
you are. Okay. Thanks.
    Our fifth witness is Mr. John Contestabile. Mr. 
Contestabile is currently the Director of the Office of 
Engineering and Emergency Services in the Secretary's office of 
Maryland's Department of Transportation, where he has served 
for nearly 30 years. He is a board member of the Public Safety 
Spectrum Trust, which holds the national license for the 
proposed 700 MHz broadband system. Thank you.
    Our sixth witness is Mr. LeRoy Carlson. He is the Chairman 
of the Board of U.S. Cellular. Mr. Carlson is President and CEO 
of the telephone and data system and has been with the company 
since 1974. Okay.
    Our seventh witness is Mr. Robert LeGrande, the former 
Chief Technology Officer for the District of Columbia, where he 
provided leadership for the city's wireless network operations, 
human services modernization program, the city-wide credential 
project and the National Capital Region's interoperability 
communications program. He is now the President and CEO of 
LeGrande Technical and Social Services, where he utilizes his 
experience with the District to provide similar high-quality 
technology solutions and services to the Government and 
commercial clients.
    Our final witness is Deputy Chief Charles Dowd, the 
commanding officer of the New York City Police Department 
Communications Divisions. Chief Dowd has a special appreciation 
of the importance of interoperability in that he has served 27 
years in the New York Police Department.
    We are pleased to have all of you present and greatly 
appreciate the testimony today. Without objection, the 
witnesses' full statements will be inserted in the record. I 
now ask each witness to summarize his statement for 5 minutes, 
beginning with Chief Poarch.

STATEMENT OF DEREK K. POARCH, CHIEF, PUBLIC SAFETY AND HOMELAND 
       SECURITY BUREAU, FEDERAL COMMUNICATIONS COMMISSION

    Mr. Poarch. Good morning, Chairman Cuellar, Ranking Member 
Dent, Chairman Thompson and Members of the subcommittee. My 
name is Derek Poarch, and I am Chief of the Public Safety and 
Homeland Security Bureau at the Federal Communications 
Commission. Thank you for inviting me to appear before you on 
behalf of the Commission to discuss on-going efforts to develop 
a Nation-wide interoperable broadband network in the 700 MHz 
band for the benefit of public safety throughout the country.
    As you may be aware, prior to joining the Commission I 
spent three decades in law enforcement in North Carolina. I 
retired as Chief of Police and Director of Public Safety at the 
University of North Carolina just prior to joining the 
Commission. I remain a sworn police officer in the State of 
North Carolina today. Because of this experience, I have first-
hand knowledge of the critical role that emergency 
communications play in the arena of public safety and homeland 
security.
    The 700 MHz proceeding addresses some of the most critical 
issues facing the Commission. Through this proceeding, we seek 
to foster development of a Nation-wide broadband network that 
can meet public safety requirements while also providing state-
of-the-art commercial technologies. We also seek to ensure that 
public safety will have access to broadband applications, 
including off-the-shelf radios and newly designed equipment at 
more affordable prices.
    Last year, the Commission adopted the second 700 MHz report 
and order which set forth the regulatory framework for the 
creation of such a network for public safety. The order 
provided for the Nation-wide licensing of 10 MHz of the 700 MHz 
public safety spectrum block to a single entity, the public 
safety broadband licensee, or PSBL, and established rules for a 
public-private partnership that would bring together the PSBL 
and the eventual winner of the commercial D Block spectrum. 
Subsequently, the Commission approved the Public Safety 
Spectrum Trust Corporation to serve as the PSBL.
    As you know, the D Block auction earlier this year did not 
result in the successful bidder to fulfill the commercial half 
of the partnership. Following the auction, the Commission 
issued a second further notice of proposed rulemaking in which 
the Commission sought comment on a variety of options for 
successfully reauctioning the D Block. The Commission 
emphasized that its aim was to identify ways to improve the 
existing public-private partnership while meeting the broadband 
needs of the public safety community in a commercially viable 
manner.
    The Commission also stated that it would issue a subsequent 
further notice that presented a detailed proposal for an 
additional round of comments from all interested parties. We 
received numerous comments in response to the second further 
notice. While the comments were wide-ranging, we found that 
most commenters expressed continued support for the public-
private partnership concept reauction of the D Block license 
and a network sharing agreement between the D Block licensee 
and the PSBL. Many commenters also noted the absence of any 
alternative funding source that could ensure access by public 
safety agencies to an interoperable public safety network.
    Based on the comments, the Commission staff has developed a 
draft third further notice which is scheduled to be considered 
and voted on by the Commission at its upcoming agenda meeting 
on September 25. Because the draft further notice is currently 
under consideration by the Commission, I cannot provide 
specific detail on its content. Indeed, because the Commission 
has not made any final decision on the draft notice, elements 
of the proposal as currently drafted could change. However, I 
would like to give you a broad overview of the current proposal 
under consideration.
    The current draft sets forth in detail a new proposal for 
reauction of the D Block and reconfiguring the public-private 
partnership. This would include offering at auction both a 
Nation-wide license and two sets of regional licenses, one 
using the LTE or Long-Term Evolution Standard and one using the 
WiMAX standard. The regional licenses would be auctioned on the 
basis of the 55 public safety regional planning areas with 
three additional areas auctioned for Guam and the Northern 
Mariana Islands, American Samoa and the Gulf of Mexico, for a 
total of 58 regional licenses. The auction itself will be 
utilized to determine which set of licenses will be awarded in 
this regard so long as there are bids on licenses that cover at 
least half of the U.S. population. The set of licenses yielding 
the highest population coverage would be the winning set.
    The current proposal would set the minimum opening bid for 
each set of licenses at $750 million, with the minimum bid for 
each individual region established according to the region's 
population density.
    The current proposal extends the license term from 10 to 15 
years and adjusts the build-out obligations for the commercial 
entity, including benchmarks at the 4-year, 10-year and 15-year 
marks. The final 15-year build-out benchmark would vary 
according to population density from the least densely 
populated areas required to reach 90 percent population 
coverage to the highest density areas required to reach 98 
percent population coverage.
    The proposal includes specific technical and operational 
parameters to ensure interoperability, quality of service and 
hardening. For example, public safety would be allowed to 
designate up to 35 percent of the network sites as critical, 
which would trigger enhanced backup power obligations, 
including 8 hours of battery backup and 48 hours of generator 
backup.
    With respect to the public safety broadband licensee, the 
proposal contains additional requirements that would increase 
transparency and eliminate conflicts of interest. This includes 
more clearly defining the role of the PSBL, prohibiting the 
PSBL from acting as a mobile virtual network operator and 
requiring certain structural safeguards related to the 
licensee's management and advisers. A minimum term sheet is 
also proposed that will be a mandatory part of the network 
sharing agreement between the PSBL and the commercial D Block 
license. This would include specific monthly pricing for public 
safety users and an annual $5 million cap on the lease payment 
that the D Block license would pay the public safety licensee 
for use of the spectrum.
    Finally, to provide further certainty, the draft further 
notice includes a full set of proposed rules as was requested 
by many in Congress, the public safety community and commercial 
industry. Following receipt of comments on the third further 
notice, the Commission will work as quickly as possible to 
reach a decision on final rules. Chairman Martin has stated his 
desire to have final rules adopted by the end of the year so 
that a reauction of the D Block could take place by the middle 
of next year.
    Thank you for the opportunity to appear before you today. I 
would be pleased to answer any questions you may have.
    [The statement of Mr. Poarch follows:]
                 Prepared Statement of Derek K. Poarch
                           September 16, 2008
    Good Morning Chairman Cuellar, Ranking Member Dent, and Members of 
the subcommittee. My name is Derek Poarch, and I am Chief of the Public 
Safety and Homeland Security Bureau at the Federal Communications 
Commission. Thank you for the opportunity to appear before you on 
behalf of the Commission to discuss our ongoing efforts to develop a 
Nation-wide interoperable broadband network in the 700 MHz band for the 
benefit of public safety agencies and first responders throughout the 
United States.
    As you may be aware, prior to joining the Commission, I spent three 
decades in law enforcement in North Carolina. I spent 21 years of my 
career in the Lenoir, North Carolina Police Department, after which I 
served for 9 years as Chief of Police and Director of Public Safety at 
the University of North Carolina at Chapel Hill. I remain a sworn 
police officer in the State of North Carolina. Because of this 
experience, I have first-hand knowledge of the critical role that 
emergency communications play in the arena of public safety and 
homeland security. After retiring from law enforcement, I accepted the 
position as Chief of the Public Safety and Homeland Security Bureau 
with a purpose and vision in mind--to help shape and advance 
initiatives that will provide the public safety community with the 
communications tools they need to do their jobs and save lives.
    The 700 MHz proceeding addresses some of the most critical issues 
facing the Commission and the Bureau. Through this proceeding, we seek 
to foster development of a Nation-wide broadband network that can meet 
public safety requirements while also keeping pace with state-of-the-
art commercial technologies. We also seek to ensure that public safety 
will have access to a number of applications including off-the-shelf 
radios and newly designed equipment at more affordable prices. 
Development of a Nation-wide broadband public safety network is 
essential to meeting the communications and information needs of first 
responders in the 21st century.
    Last year, the Commission adopted the Second Report and Order in 
the 700 MHz band rulemaking, which set forth the regulatory framework 
for the creation of a Nation-wide, interoperable, broadband 
communications network for public safety. The order provided for the 
Nation-wide licensing of 10 MHz of the 700 MHz public safety broadband 
spectrum block to a single entity, the Public Safety Broadband 
Licensee, and established rules for a public/private partnership that 
would bring together the Public Safety Broadband Licensee and the 
eventual winner of the commercial D Block spectrum in the upper 700 MHz 
Band. Subsequently, the Commission approved the Public Safety Spectrum 
Trust Corporation (PSST) to serve as the Public Safety Broadband 
Licensee.
    As you know, the D Block auction earlier this year did not result 
in a successful bidder to fulfill the commercial half of the 
partnership. Following the auction, the Commission issued a Second 
Further Notice of Proposed Rulemaking in May of this year, in which the 
Commission sought comment on a broad variety of options for 
reauctioning the D Block and potentially reconfiguring the public/
private partnership. The Commission emphasized that its aim was to 
identify ways to improve upon the existing public/private partnership 
concept while meeting the broadband communications needs of the public 
safety community in a commercially viable manner. The Commission also 
stated that before ultimately adopting final rules in response to the 
Second Further Notice, it would issue a subsequent Further Notice that 
presented a detailed proposal for an additional round of comments from 
all interested parties.
    We received numerous comments in response to the Second Further 
Notice from the public safety community, commercial wireless providers, 
equipment manufacturers, and many other interested parties. While the 
comments were wide-ranging, we found that most commenters expressed 
continued support for the public/private partnership concept, reauction 
of the D Block license, and a network sharing agreement between the D 
Block licensee and the Public Safety Broadband Licensee. Many 
commenters also noted the absence of any alternative funding mechanism 
that could ensure access by individual public safety agencies to an 
advanced, Nation-wide, interoperable broadband network over spectrum 
dedicated for public safety use. At the same time, we received many 
thoughtful and detailed comments suggesting ways in which the 
Commission could refine and improve the rules governing the prospective 
D Block licensee, the Public Safety Broadband Licensee, and the 
partnership relationship between them.
    Based on the comments we received, the Commission staff has 
developed a draft Third Further Notice of Proposed Rulemaking, which is 
scheduled to be considered and voted on by the Commission at its 
upcoming agenda meeting on September 25, 2008. Because the draft 
Further Notice is currently under consideration by the Commission, I 
cannot provide specific detail on its content. Indeed, because the 
Commission has not made any final decision on the draft notice, 
elements of the proposal as currently drafted could change. However, I 
would like to give you a broad overview of the current proposal under 
consideration.
    The current draft Third Further Notice sets forth in detail a new 
proposal for reauctioning the D Block and reconfiguring the public/
private partnership. This would include offering at auction both a 
Nation-wide license and two set of regional licenses, one using the LTE 
or Long Term Evolution standard, and one using the WiMAX standard. The 
regional licenses would be auctioned on the basis of the 55 public 
safety regional planning areas, with three additional areas auctioned 
for Guam, the Northern Marianas islands, and the Gulf of Mexico for a 
total of 58 regional licenses. The auction mechanism itself would be 
utilized to determine which set of licenses would be awarded. In this 
regard, so long as there are bids on licenses that cover at least half 
of the U.S. population, the set of licenses yielding the highest 
population coverage would be the winning set. The current proposal 
would also set the minimum opening bid for each set of licenses at $750 
million, with the minimum opening bid for each individual region 
established according to the population density of the region.
    The current proposal would also extend the license term from 10 to 
15 years, and adjust the build-out obligations for the commercial 
entity, including benchmarks at the 4-year, 10-year, and 15-year marks. 
The final 15-year build-out benchmark would vary according to 
population density, with the least densely populated areas required to 
reach 90 percent population coverage, the medium density areas required 
to reach 94 percent population coverage, and the highest density areas 
required to reach 98 percent population coverage.
    The proposal also includes specific technical and operational 
parameters that the network would be required to meet, such as 
mandatory roaming for regional licenses to ensure interoperability, 
minimum standards for throughput, quality of service and hardening. For 
example, public safety would be allowed to designate up to 35 percent 
of the network sites as ``critical,'' which would trigger enhanced back 
up power obligations including 8 hours of battery back up and 48 hours 
of generator back up.
    With respect to the Public Safety Broadband Licensee, the proposal 
contains additional requirements that would increase transparency and 
eliminate conflicts of interest. This includes more clearly defining 
the role of the Public Safety Broadband Licensee, prohibiting the 
Public Safety Broadband Licensee from acting as a mobile virtual 
network operator, and requiring certain structural safeguards related 
to the licensee's management and advisors. A minimum term sheet is also 
proposed that will be a mandatory part of the Network Sharing Agreement 
between the Public Safety Broadband Licensee and the commercial D Block 
licensee(s). This would include specific monthly pricing for public 
safety users and an annual $5 million cap on the lease payment that the 
D Block licensee would be obligated to pay the public safety licensee 
for use of the public safety spectrum.
    Finally, to provide further certainty, the draft Third Further 
Notice includes a full set of proposed rules, as was requested by many 
in Congress, the public safety community, and commercial industry. As I 
noted earlier, the purpose of the Third Further Notice is to solicit a 
final round of public comment on the Commission's detailed proposal 
before the Commission adopts final rules. Therefore, upon release of 
the Third Further Notice, interested parties will have the opportunity 
to review and comment on the proposal and proposed rules.
    Following receipt of comments on the Third Further Notice, the 
Commission will work as quickly as possible to reach a decision on 
final rules for the D Block, the public safety broadband spectrum, and 
the public/private partnership. Chairman Martin has stated his desire 
to have final rules adopted by the end of the year, so that a reauction 
of D Block could take place by the middle of next year. I can assure 
you that I and my staff will work tirelessly to help the Commission 
achieve this goal.
    Thank you for the opportunity to appear before you today. This 
concludes my testimony and I would be pleased to answer any questions 
you may have.

    Mr. Cuellar. Thank you for your testimony. I now recognize 
Mr. Essid to summarize his statement for 5 minutes.

    STATEMENT OF CHRIS ESSID, DIRECTOR, OFFICE OF EMERGENCY 
        COMMUNICATIONS, DEPARTMENT OF HOMELAND SECURITY

    Mr. Essid. Thank you, Chairman Cuellar, Congressman Dent, 
Chairman Thompson and Members of the subcommittee. I am pleased 
to appear today to discuss the importance of this Nation-wide 
public safety broadband interoperable network and how it stands 
to improve communications for emergency responders.
    In recent weeks we have all seen vivid reminders of the 
role emergency responders play in the safety and security of 
our Nation. Real life events such as Hurricanes Gustav, Hanna 
and Ike as well as the seventh anniversary of the September 11 
terrorist attacks underscore the need for a coordinated 
interoperable response during natural disasters and man-made 
incidents.
    Congress created the Office of Emergency Communications to 
ensure the Nation's emergency responders have the necessary 
capabilities to communicate during major disasters and their 
day-to-day operations. This is the focus of everything OEC does 
as an office from providing technical assistance to the 
development of Federal grant policies and strategic planning 
with State, Federal and local officials.
    A number of OEC's key initiatives have shaped our 
perspective on the FCC's 700 MHz proceeding. The most 
significant of these is the National Emergency Communications 
Plan, which we delivered to Congress in July. We worked with 
over 150 practitioners from all levels of government and the 
private sector to develop the strategies and solutions to drive 
operability and interoperability Nation-wide. In addition, the 
plan builds on the work of all 56 States and Territories, which 
now for the first time in history have State-wide 
communications interoperability plans. Our collective efforts 
have resulted in a Nation-wide strategic document that will 
guide decisionmaking, better target our resources for emergency 
communications and further coordinate Federal, State, local and 
private sector emergency communication efforts.
    The NECP emphasizes the benefits of getting advanced 
broadband services into the hands of our Nation's first 
responders and proposes solutions to spur the development of 
emerging communications technologies. Furthermore, it is clear 
from OEC's work with the emergency responders at all levels of 
government that it will be critical for responders to have 
access to advanced voice data video capabilities to perform 
their missions, and there is a recognition that the 700 MHz 
band offers an invaluable opportunity to deploy these 
capabilities on a Nation-wide basis.
    In conclusion, I appreciate the opportunity to appear today 
and I applaud the committee's on-going leadership in ensuring 
that our Nation's emergency communications are efficient and 
effective regardless of the nature of the scope of any given 
incident. OEC is committed to supporting our first responders 
and incident managers through a coordinated practitioner-driven 
national policy framework, and we offer our on-going support 
toward a successful conclusion to these critical rulemakings 
regarding the 700 MHz band.
    I will be happy to answer any questions you have.
    [The statement of Messrs. Essid and Boyd follows:]
         Joint Prepared Statement of David Boyd and Chris Essid
                           September 16, 2008
                              introduction
    Good afternoon Chairman Cuellar, Ranking Member Dent, and Members 
of the subcommittee. Thank you for inviting us to speak to you today.
    The Science and Technology (S&T) Directorate's Command, Control and 
Interoperability Division (CID), within the Department of Homeland 
Security (DHS), uses a practitioner-driven approach to create and 
deploy information resources that enable seamless and secure 
interactions among homeland security stakeholders. Our goal is to 
ensure that stakeholders have comprehensive, real-time, and relevant 
information to protect the Nation.
    The Office of Emergency Communications (OEC) was established by 
Congress to serve as the departmental focal point for emergency 
communications policy, planning, technical assistance, and 
coordination. On July 31, 2008, OEC completed the first-ever National 
Emergency Communications Plan (NECP), which provides a framework for 
emergency communications users across all levels of Government. The 
NECP was developed with significant stakeholder input from Federal 
partners, private sector stakeholders, and public safety officials at 
the State and local level. Moving forward, OEC will continue to assess 
the emergency communications landscape and to identify what is and what 
is not working; develop plans to reverse deficiencies in emergency 
responders' communications capabilities; collaborate on initiatives 
with our Federal, State, and local partners; and work with our partners 
to implement programs and activities that target gaps and make 
measurable improvements in emergency communications.
    As the Members of this subcommittee are well aware, the ability to 
communicate is essential to the success of any emergency response 
operation. Emergency responders need to share vital data and voice 
information across disciplines and jurisdictions to successfully 
respond to day-to-day incidents and large-scale emergencies. A key 
mission of CID's Office for Interoperability and Compatibility (OIC) is 
to strengthen interoperability by developing technologies and tools--
reports, best practices, frameworks, and methodologies--that emergency 
response agencies can use immediately. We are also developing data and 
voice messaging standards and testing communications equipment to those 
standards. Though testing proves useful, the key to improving 
interoperable communications requires a focus on user needs and 
requirements. As a result, we rely on both practitioners and 
policymakers across disciplines, jurisdictions, and levels of 
government to ensure that our work is aligned with responders' needs.
    Our focus on the practitioner level has done much to improve 
interoperability since the attacks of September 11, 2001. Also within 
DHS, OIC and OEC are working closely to ensure coordination and 
consistency among our programs, services, policies, and activities. A 
few examples of ways that DHS has improved and is working to improve 
interoperability include the following:
  <bullet> In 2004, OIC developed the Interoperability Continuum to 
        help policymakers understand what it takes to achieve 
        interoperability: effective and collaborative governance, well-
        designed standard operating procedures, well-implemented 
        technology solutions, meaningful training and exercises, and 
        the integration of all of these elements into day-to-day 
        operations.
  <bullet> In 2006, OIC conducted the landmark National 
        Interoperability Baseline Survey, which revealed that 
        approximately two-thirds of emergency response agencies use 
        interoperability to some degree in their operations.
  <bullet> In 2007, each of the Nation's major urban/metropolitan areas 
        developed a Tactical Interoperable Communications Plan.
  <bullet> In 2008, 56 States and territories developed Statewide 
        Communications Interoperability Plans (SCIPs); OEC's 
        Interoperable Communications Technical Assistance Program 
        (ICTAP) is working closely with the States to help them 
        implement the SCIPs and align them with the goals and 
        objectives of the NECP.
  <bullet> Later this year and continuing into 2009, OIC will complete 
        laboratory testing, demonstrate, and pilot a multi-band radio 
        that is capable of operating across different radio bands, 
        across different modes--including digital and analog--and with 
        radios developed by different manufacturers.
  <bullet> OEC is establishing the Emergency Communications 
        Preparedness Center (ECPC) to improve the coordination of 
        interoperability programs and activities across the Federal 
        Government; later this year, the ECPC plans to finalize its 
        operating charter and submit a strategic assessment to Congress 
        on progress to date and remaining challenges to 
        interoperability.
  <bullet> OEC is working with Federal Emergency Management Agency 
        (FEMA) to establish Regional Emergency Communications 
        Coordination Working Groups (RECCWG) to coordinate multi-State 
        efforts to improve the survivability and interoperability of 
        communication systems; beginning next year, OEC plans to hire 
        ten regional coordinators that will be collocated in the FEMA 
        regional offices to serve as senior points of contact for OEC 
        in that region.
                       system of systems approach
    With emergency response practitioner input, OIC developed a core 
strategy for improving interoperability for the Nation's emergency 
response community. This strategy promotes a ``system of systems'' 
approach using standards-based communications equipment. This approach 
grants emergency response agencies the flexibility to select equipment 
that best meets their unique technical requirements and budget 
constraints. It also allows systems operated by different emergency 
response agencies to communicate, regardless of their manufacturer. The 
long-term strategy aims at building a system of systems so that 
separate agencies can join together using interface standards, 
compatible procedures, and training exercises without having to discard 
major investments in their existing systems.
    Ultimately, emergency responders operating on a system of systems 
will be able to respond to an incident anywhere in the Nation, using 
their own equipment, on any communications system, and on dedicated 
public safety spectrum as needed and authorized. OIC is working on 
identifying solutions that advance the emergency response community 
toward a reliable system of systems--one that is not dependent on any 
single technology but instead allows for maximum flexibility within and 
among numerous technologies.
         research, development, testing, and evaluation efforts
    OIC is improving interoperable communications through multiple 
research, development, testing, and evaluation (RDT&E) efforts related 
to land mobile radio (LMR) communications, public safety grade 
communications networks, and interoperable applications. Access to the 
700 MHz (MHz) band will have a positive impact on the spectrum needs of 
the emergency response community which will continue to evolve beyond 
voice communications. Examples of OIC's ongoing efforts in this area 
include:
Multi-Band Radio
    The advent of two-way radio communications in the early 1930's 
generated a need for public safety radio channels, or spectrum. To 
support emergency response radio communications, the Federal 
Communications Commission reserved radio spectrum within several 
different frequency bands for public safety use. Until recently, 
emergency response radios were built to operate within a single radio 
band. As a result, local, tribal, State, and Federal emergency response 
agencies had to rely on the use of several single-band portable or 
mobile radios to maintain a level of interoperability with partner 
agencies. While some agencies swapped or shared radios, others employed 
time-consuming methods to exchange information, including relaying 
messages through dispatchers or using runners to hand-carry messages.
    To address these challenges, OIC worked with the emergency response 
community and its partners in the Federal Emergency Management Agency 
and OEC to identify requirements for a multi-band radio. OIC is in the 
process of further developing and testing a prototype multi-band, 
multi-mode portable radio capable of providing uninterrupted 
communications between local, tribal, State, and Federal emergency 
response agencies operating in the various public safety radio bands. 
The radio is capable of operating in the primary State and local public 
safety bands between 150-162 MHz and 470-512 MHz as well as in the 700 
MHz and 800 MHz bands. Additionally, when authorized, the multi-band 
radio will be capable of operating within the Federal public safety 
bands 162-174 MHz, 406.1-420 MHz; and in the 138-144 MHz, and 380-400 
MHz bands which are used primarily by the Department of Defense.
    This capability represents a significant step for Federal agencies 
that need to interoperate with their local, tribal, regional, and State 
counterparts. This multi-band radio is equal in form, factor, and cost 
to existing high-end portable radios. However, a significant difference 
is that this multi-band radio equips emergency responders with the 
unprecedented capability of operating across the entire range of public 
safety radio bands. To communicate with another agency, users simply 
select the assigned channel.
    OIC will test and evaluate this multi-band radio through pilots 
Nation-wide. These pilots will focus on testing the radio's operation 
across multiple systems--analog, conventional, digital, and Project 25 
(P25) trunked--and multiple agencies, including local, tribal, State, 
Federal, and military. During these field tests, the primary users of 
the new technology will likely be emergency responders in a command and 
control role or those involved in special operations that need to 
interoperate with multiple entities.
    OIC is in the pre-planning stages for an initial pilot in New York 
City. The pilot will involve emergency responders at the local, 
regional, and State levels. The pilot will thoroughly evaluate the 
radios and the results will provide vendor-agnostic best practices for 
integrating multi-band radio technology into agencies across the 
Nation.
    To successfully support emergency response communications and 
operations, it is essential that technologies align with user 
requirements. In keeping with its user-driven approach, OIC is working 
closely with DHS customers to ensure that the multi-band radio meets 
current and future operational requirements, such as personnel 
tracking, usage in locations where there is a danger of explosion, and 
responder health and well-being monitoring. OIC and S&T are encouraging 
private industry to continue developing similar technologies that meet 
emergency responders' diverse needs and requirements. The principal 
reason for OIC's undertaking of multi-band radios is to pressure 
industry to do what has always been technologically feasible. Results 
are already evident--multiple companies have entered the competition 
and others are likely to join in the near future.
Radio Over Wireless-Broadband
    As demonstrated recently on Capitol Hill, OIC--in partnership with 
the National Institute of Standards and Technology (NIST) and the 
Institute for Telecommunication Sciences (ITS)--is leading the Radio 
Over Wireless-Broadband (ROW-B) project to research how to connect 
existing LMR systems with advanced wireless broadband technologies, 
such as Push-To-Talk over Cellular, while also leveraging Geographic 
Information System (GIS) technology. Push-To-Talk over Cellular 
technology allows for walkie-talkie-type communication over a cellular 
phone network. This smart phone technology effectively allows a single 
user to reach multiple users through talk groups on the cellular 
network. By reducing the need to place several calls to coordinate a 
group, this technology saves critical response time.
    GIS technology refers to a host of applications that identify the 
location (based on a map) of other vehicles, equipment, and emergency 
responders. GIS databases display these locations on maps that include 
important information such as roads, buildings, and fire hydrants. This 
technology enables emergency responders to access the locations of 
critical resources--such as equipment and personnel--in real time and 
to form dynamic talk groups based on the proximity of resources.
    ROW-B will enable emergency responders and agencies working on 
interoperable communications to evaluate the benefits and limitations 
of providing interoperability between previously incompatible systems. 
By documenting lessons learned and best practices, ROW-B will assist 
localities Nation-wide in the integration of existing and emerging 
communications systems. The impact of the ROW-B project reaches beyond 
technology. Emergency response agencies will have an opportunity to 
create new standard operating procedures as well as new governance 
structures for managing incident communications.
Voice Over Internet Protocol
    OIC is also working to improve the bridging devices that emergency 
responders rely to connect radio systems creating networks. Computer 
networks are increasingly being used to transmit voice communications 
among radio systems. This is done using a technology known as Voice 
over Internet Protocol (VoIP). OIC is working with emergency 
responders, NIST, and ITS to define a common connection for bridging 
devices that use VoIP. This connection allows one vendor's bridge to 
pass a voice call to another vendor's bridge. In support of these 
efforts, OIC has held multiple VoIP PlugFests to test interoperability 
between different VoIP-based radio bridges.
700 MHz Statement of Requirements
    OIC continues to support efforts to fully define the emergency 
response community's communications requirements. In that regard, OIC--
through the National Public Safety Telecommunications Council--led the 
creation of the Public Safety 700 MHz Broadband Statement of 
Requirements that was published in November 2007. OIC brought together 
many of the stakeholders involved in developing this document, 
including emergency responders, equipment manufacturers, and service 
providers. Through a practitioner-led process, the emergency response 
community clearly and articulately provided their requirements for a 
broadband network.
Project 25 Compliance Assessment Program
    P25 is focused on developing standards that allow radios and other 
components to interoperate regardless of the manufacturer from which 
they are made. This Project's efforts enable emergency responders to 
exchange critical communications. The goal of P25 is to specify formal 
standards for interfaces between the various components of an LMR 
system.
    In order to better address the needs of emergency responders, 
Congress passed legislation calling for the creation of the P25 
Compliance Assessment Program (CAP). P25 CAP is a partnership of CID, 
NIST, ITS, industry, and the emergency response community. P25 CAP 
establishes a process for ensuring that equipment complies with P25 
standards and is capable of interoperating across manufacturers. P25 
CAP is providing manufacturers with a method for testing their 
equipment for compliance with P25 standards. With results publicly 
posted, P25 CAP is helping emergency response officials make more 
informed purchasing decisions.
Wireless Broadband Productization Project
    Starting in fiscal year 2009, this project plans to test and 
evaluate commercially available and emergent wireless broadband 
products. The overall goal of the project is to ensure that 
technologies developed in a laboratory work in a real-world 
environment. The testing and evaluation will reveal capability gaps, if 
they exist. Ultimately, emergency response agencies will be able to 
purchase solutions that meet their needs and maintain interoperability 
as future networks are deployed.
                               conclusion
    The emergency response community has long sought additional 
spectrum for mission-critical activities. The additional spectrum in 
the 700 MHz band is essential to the emergency response community's 
requirements and helps to satisfy this shortfall. The 700 MHz band can 
support functions that many existing bands cannot. In addition to voice 
communications, 700 MHz will allow emergency responders to exchange 
critical text, imagery, and other data. OIC will continue to work with 
local, tribal, State, and Federal emergency response agencies on these 
RDT&E efforts to strengthen interoperable communications across the 
various public safety bands.
    Ultimately, interoperability is not solely a technology problem 
that can be solved with just the ``right'' equipment or the ``right'' 
communications system. All of the critical factors for a successful 
interoperability solution--governance, standard operating procedures, 
training and exercises, and integration of systems into daily 
operations as well as technology--must be addressed.
    We appreciate the opportunity to testify before you today and would 
be pleased to answer any questions you may have.

    Mr. Cuellar. Thank you for your testimony. I now recognize 
Dr. Boyd to summarize his statement for 5 minutes.

   STATEMENT OF DAVID BOYD, DIRECTOR, COMMAND, CONTROL, AND 
INTEROPERABILITY DIVISION, SCIENCE AND TECHNOLOGY DIRECTORATE, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Boyd. Good morning, Chairman Cuellar, Ranking Member 
Dent, Chairman Thompson and Members of the subcommittee. As 
Chairman Thompson has already observed, effective wireless 
communications are essential to the success of any emergency 
response operation. For that reason a key mission of my office 
for operability and compatibility is to strengthen 
interoperability by developing technologies, tools and 
standards and by testing communications equipment to those 
standards. But any successful solution requires a focus of user 
needs and requirements. So we rely on both practitioners and 
policymakers across disciplines, jurisdictions, and all levels 
of government to ensure that our work is aligned with actual 
responder needs.
    To this end, we developed the interoperability continuum to 
outline for policymakers and response agencies what was 
required to ensure interoperability. House Homeland Security 
Committee staff have told us they have seen this continuum 
posted in every public safety communications center they 
visited. Canadian Public Safety has also adopted most of our 
tools, including the continuum, which they have also translated 
into French.
    We have completed the first national interoperability 
baseline on-line survey, which revealed that approximately two-
thirds of emergency response agencies are now capable of 
establishing command-level interoperability for emergency 
operations. We also published the first national statement of 
requirements for public safety wireless communications and 
interoperability to serve as a guide for agencies developing 
their own requirements and for industry to use in developing 
systems to respond to those requirements. Each major urban 
metropolitan area now has a tactical interoperable 
communications plan scored by the Department of Homeland 
Security, while all 56 States and territories now have State-
wide communications interoperability plans.
    The Department has released the first National Emergency 
Communications Plan, which is informed by national principles 
developed by practitioners at every level of government. Our 
core strategy aims at building a system of systems so that 
separate agencies can join together using interfaced standards, 
compatible procedures, and training exercises without having to 
discard major investments in their existing systems.
    Until recently, emergency response radios were built to 
operate within a single radio band. As a result local tribal, 
State and Federal emergency response agencies had to rely on 
the use of several single-band portable or mobile radios to 
maintain a level of interoperability with partner agencies. To 
address these challenges, we worked with the emergency response 
community to identify requirements for a multi-band radio 
capable of providing uninterrupted communications among local 
tribal, State and Federal emergency response agencies at a cost 
roughly equal to that of a current single-band radio. This 
multi-band radio equips emergency responders with an 
unprecedented ability to operate across the entire range of 
public safety radio bands. To communicate with another agency, 
users simply select the assigned channel. We are evaluating 
this radio through pilots Nation-wide to demonstrate 
communications across multiple agencies, including local, 
tribal, State, Federal, and military.
    We are also encouraging private industry to continue 
developing similar technologies and, quite frankly, a principal 
reason for undertaking the multi-band radio project was to 
pressure industry to deploy affordable multi-mode, multi-band 
radios, something that has been technologically feasible for 
several decades. The results are already evident. Multiple 
companies have entered the competition and others are likely to 
join in the near future.
    Since the multi-band radio addresses only part of the 
interoperability problem, we recently demonstrated with our 
District of Columbia partners the Radio Over Wireless-Broadband 
Project--we call it ROW-B. It was initiated with Rob LeGrande, 
who you will hear from later--to develop ways to connect 
existing land mobile radio systems with advanced wireless 
broadband technologies, such as push-to-talk over cellular 
while also leveraging geographic information system technology.
    The multi-band radio and ROW-B, however, represent only two 
of the initiatives we are undertaking with our emergency 
responder partners. Because your time is limited I have briefly 
described several others in my statement for the record.
    The emergency response community has long sought additional 
spectrum for mission-critical activities. The additional 
spectrum in the 700 MHz band is essential to the emergency 
response community's requirements and helps to satisfy this 
shortfall. The 700 MHz band can support functions that many 
existing bands cannot. In addition to voice communications, 700 
MHz will allow emergency responders to exchange critical text 
imagery and other data. The multi-band radio will bridge both 
existing bands and this new band and, most importantly, will be 
valuable in maintaining interoperability during the 
implementation of new systems on this new band.
    Ultimately, interoperability is not solely a technology 
problem that can be solved with just the right equipment or the 
right communications system. All of the critical factors for a 
successful interoperability solution, Government standard 
operating procedures, training and exercises and integration of 
systems into daily operations as well as technology must be 
addressed.
    I appreciate the opportunity to testify before you today, 
and I would be pleased to answer any questions you may have.
    Mr. Cuellar. Thank you for your testimony. I want to thank 
all the witnesses for being here with us. I will remind each 
Member that he or she will have 5 minutes to recognize the 
panel. I now recognize myself for questions.
    The first question to Chief Poarch. According to your 
testimony, the FCC will consider a new proposal for the 
reauctioning of the D Block at the meeting next week. At issue 
is whether the public safety networks will be built out 
nationally or within the 58 FCC public safety planning areas. 
As Hurricanes Ike, Gustav, Katrina and Rita demonstrated, 
emergency communications plans need to entail a local regional 
and sometimes a national component. As we all know, DHS, FEMA 
and regional offices play a critical role in assisting States 
during an emergency. My question is, has the FCC worked with 
DHS to examine how the 58 FCC regions tie to the existing 10 
FEMA regional offices?
    Mr. Poarch. Thank you, Mr. Chairman. I think it is 
important to note that we are not proposing that we change the 
Nation-wide public safety spectrum that is currently 10 MHz. As 
it was in the previous auction, it will remain issued as one 
single Nation-wide 10-block MHz to public safety assigned to 
the public safety broadband licensee or the PSST. So there is 
no change in the public safety spectrum from the previous 
auction. The only change that we are proposing is regarding the 
commercial spectrum. That is being done in an attempt to try to 
develop more interest in partnering with the public safety 
community. So while we collaborate regularly with DHS and OEC, 
we are proposing no changes whatsoever in how this operates 
from the public safety community standpoint that would impact 
DHS, those types of operations.
    Mr. Cuellar. Okay. Next question to Mr. Essid. As the 
Director of the Office of Emergency Communications, do you 
advocate a public safety network on a national or regional 
basis? What challenges do you see with either approach?
    Mr. Essid. Well, right now, sir, we are just waiting to see 
how the proceedings go. Our perspective is this issue is very 
important to public safety to have the capabilities that they 
need to use these advanced features. So you know we have got 
some things in the national plan about these advanced 
technologies and how critical they are to the future of our 
Nation's first responders' ability to have the capabilities 
necessary to do their job. So right now we are not advocating 
one or the other. We just know that public safety needs this 
capability.
    Mr. Cuellar. Okay. Dr. Boyd, in your capacity and given 
your many years of experience in the field, do you advocate a 
public safety network on a national or regional basis? Same 
thing, what challenges do you see with each approach?
    Mr. Boyd. We have always suggested that interoperable 
communications should be addressed on a system-to-system basis; 
that is, that you take existing infrastructure that exists and 
then figure out how you tie it in as you move upward to a 
regional and, if there is a national network, into a national 
network. But the most important thing to remember about public 
safety communications is that they are all local, that the 
emergency communications are predominantly local. That is where 
they normally will start. They will start with a local 
community, its surrounding communities and maybe some of the 
surrounding counties as well. They are going to have to start 
with the equipment that they have. No matter what we put in 
place, we will still have to make sure that we can interoperate 
with the systems that are in place right now because it will 
take some time to build out any system.
    Mr. Cuellar. Okay. I now recognize the Ranking Member of 
the subcommittee, the gentleman from Pennsylvania, Mr. Dent, 
for questions.
    Mr. Dent. Thank you, Mr. Chairman. Thank you, gentlemen. 
For Mr. Poarch and Mr. Essid, I have a question. As you know, 
this year all States and territories were required to submit 
Statewide Communication Interoperability Plans in order to 
receive homeland security grant funds. These plans chart a path 
toward achieving interoperable emergency communications State-
wide. Maybe States, including my own, the Commonwealth of 
Pennsylvania, are beginning to develop and implement their own 
interoperable communications networks State-wide. How do you 
see these networks being coordinated with the new 700 MHz 
network that will be developed across the country? Will any of 
the work that is being undertaken by these States be leveraged 
by the Nation-wide 700 MHz network?
    Mr. Essid. That is an excellent question, sir. These State-
wide plans, many of them have, as you can imagine, different 
technology investments. The Statewide Communications 
Interoperability Plans are all built upon the same criteria so 
each plan in every different State has the same criteria. That 
being said, a lot of the criteria deals with governance, 
training and exercises, SOPs. Then you look at the different 
technology projects. Some States are building State-wide 
systems. Some States have a lot of regional stuff. Many States 
have all of the above. It is in different frequency bands, you 
know, that these investments are being made.
    I think from what we have seen when we did an analysis of 
these State-wide plans, a lot of folks are waiting and seeing 
what happens with the auction before moving forward. This is 
advanced technology. But right now throughout the Nation we 
have billions and billions of dollars worth the land mobile 
radio investments that aren't going to be going anywhere that 
people are going to be using throughout their life cycle for 
the next 10 to 15 years.
    So it is kind of a balancing act for a lot of States and 
regional entities on how do you integrate this new capability, 
new technology with what is there and existing? We don't see it 
as hampering any planning efforts. But a lot of folks are 
waiting and seeing what happens with the rulemaking before 
moving forward with some of these projects.
    Mr. Dent. Mr. Poarch.
    Mr. Poarch. I would just say from the Commission's 
perspective, we certainly recognize the legacy systems that are 
in place today. Part of the third further notice that we are 
proposing talks about ways to integrate the legacy systems into 
the 700 system. We recognize that for many agencies there won't 
be immediate transformation over to 700. Some will go quick. 
Some will go over time. That is important. Certainly as a 
public safety officer, I recognize that many agencies will not 
immediately move.
    So part of the plan that we are proposing in putting 
forward would allow for the integration, as Dr. Boyd has 
referred to, of the legacy systems currently in place and to be 
able to use the 700 system.
    Mr. Dent. For all of you, I have a question too. I 
understand that some in the public safety community have 
concerns with sharing a communications network with commercial 
customers. Would you please address these concerns? Maybe Mr. 
Boyd.
    Mr. Boyd. Not surprisingly, public safety will tell you 
that their experience with commercially provided systems has 
not been very good. If you think about Katrina, if you think 
about any of the recent hurricanes, if you think about what 
happened here at the Pentagon, the reality is that most of--
both the public safety telephone network, the public switch 
telephone network, the wired network and the cellular networks 
have tended to collapse in the first few seconds of any 
emergency.
    So one of the things any system is going to have to do is 
to build that credibility with public safety. That is not going 
to happen over night because it is going to be essential to 
these people that they understand they have a system available. 
I also think it is important to remember, the function of the 
700 MHz spectrum we are talking about now, the national 
network, is not to replace all the public safety 
communications. It is to augment it with capabilities that they 
cannot currently place on their existing systems. So we 
shouldn't think of this as an either/or.
    Mr. Essid. I would like to just add to that, that we have 
looked at this issue. I did so in my former role in Virginia, 
and talking with public safety. You know, the commercial 
entities that provide wireless services, they deal with a whole 
different set of requirements than public safety needs. We have 
found out that a 2 percent tolerance for failed calls was 
acceptable for most commercial standards. That would be 
unacceptable to public safety. So those are the types of things 
that you know you would hear public safety voice their concerns 
on.
    Mr. Dent. Just real quickly, my time has just about 
expired. But the Department of Homeland Security submitted 
comments to the FCC's previous rules regarding the spectrum 
auction. In your view, how should the next auction be 
structured to ensure it is successful while also ensuring that 
the needs of public safety are met? What do you believe are the 
most important factors to consider? Mr. Poarch or Mr. Essid, 
either one of you real quick.
    Mr. Essid. Well, I mean we submitted comments through NTIA 
for the auction. You know we participated in providing comments 
to NTIA. You know as of yet, those comments I believe have been 
considered by the FCC. We feel that you know again that there 
is a lot of things that the FCC has to take into consideration 
that we don't. But I think our first and foremost top priority 
is to get the emergency communications needs of our first 
responders met.
    Mr. Poarch. I would just add briefly to echo Mr. Essid's 
comments, the Commission is committed to a Nation-wide 
interoperable broadband system for public safety users around 
the country. That is what we worked on the first time. That is 
what we are committed to this time. We are trying to explore 
all the different options that are available to make this 
option successful this time so we can finally build a network 
that is very much needed by the public safety community.
    Mr. Dent. Yield back.
    Mr. Cuellar. Thank you, Mr. Dent. The Chairman will now 
recognize other Members for questions they may wish to ask the 
witnesses.
    In accordance with our committee rules and practice, I will 
recognize Members who were present at the start of the hearing 
based on seniority on the subcommittee, alternating between the 
majority and minority. Those Members coming in later will be 
recognized in the order of their arrival. At this time I would 
like to recognize Chairman Thompson for his line of 
questioning.
    Mr. Thompson. Thank you, Mr. Chairman.
    Mr. Poarch, other than the fact that in the last auction we 
didn't get a price that we expected, did you do an analysis as 
to why we didn't? Are you prepared to do something different 
with the next auction?
    Mr. Poarch. Yes, sir. I think we are prepared to do a 
number of things appreciably different with this auction as has 
been proposed by Members of Congress, the public safety 
community and the commercial industry. To begin with, everyone 
said to us last time, part of the reason there wasn't a 
successful auction on the D Block was the lack of clarity 
concerning the roles of the public safety community or the PSST 
and the commercial providers. What the Chairman has put forward 
for this auction, there is appreciable clarity in the roles of 
both the commercial entity, the public safety community, what 
we expect of each one of them. There is clarity in terms of the 
technical requirements. So those that are interested in bidding 
will understand what it is we expect them to bid on. There is a 
minimum term sheet that will be included.
    So from that standpoint, we have heard what Members of 
Congress said to us, what the public safety community said, and 
what commercial industry said. We have attempted to balance all 
of those comments and put forth in this proposal additional 
clarity, additional definition of roles taking all that into 
consideration, working toward a successful auction.
    Mr. Thompson. Can you share with the committee any 
potential incentives that might be offered, either to the 
public safety community or the commercial sector? Other than 
clarity.
    Mr. Poarch. Well, no, I really can't. The items on 
circulation, anything that I would talk about today would be 
purely speculative. But I will tell you that in terms of 
setting, for example, one incentive would be an additional 5 
years on the license. The previous license was 10 years. Now 
the proposed license term is 15 years to give additional time 
to build out the license. There are benchmarks that set in 
place at 4 and 10 years. So, for example, that in my mind would 
be an incentive for the commercial side to be willing to 
undertake this.
    So there is a number of those things that are placed 
throughout the third further notice that we are seeking comment 
on that is under proposal.
    Mr. Thompson. Is your testimony that you have for the next 
auction made a considerable effort to talk to both the 
commercial side and the public sector side in going forward for 
the auction?
    Mr. Poarch. Yes, sir. There has been an appreciable amount 
of communications with all parties involved.
    Mr. Thompson. I want to get a question responded to. Mr. 
Essid, these State-wide plans for communications: Is there a 
requirement that those plans have to cover every part, every 
county or parish in a State?
    Mr. Essid. Well, sir, I mean, the focus of the State-wide 
plans is to not have it just be a State plan. It is a State-
wide plan to focus on localities, on regions throughout that 
State. The urban and the rural. That is what we are going for. 
Now some States did a great job of doing that. Some States we 
are still working with it. But this is the first time many 
States have put together such a plan, and it is a huge step 
forward for them. But a common misconception with these State-
wide plans is that there would be one system considered for 
coverage throughout that whole State. That is not, in fact, 
true. Most of these State-wide plans and most States out there, 
as Dr. Boyd said, for years have a system of systems. There is 
so much communication infrastructure out there all over the 
place, and these plans are really creating the forum in the 
governance structures that we are creating to, you know, 
exchange ideas and come together and coordinate all of those 
different systems. So there is a lot of stuff out there 
already. It is just in the past many of them did not coordinate 
with one another or they are all over different frequency bands 
or you have to come up with ways to make them interoperable or 
operable.
    Mr. Thompson. Well, is the goal rather than taking one 
plan, is it to take whatever the infrastructure is there and 
allow you to communicate----
    Mr. Essid. One of our top priorities, sir, is to utilize as 
much as we can the infrastructures that are already out there. 
You know, talking with Dr. Boyd here over the years in my role 
in Virginia and now in my current role, I mean he has always 
explained to me that when you look at what is out there, we 
just don't have the funding to rip everything up and start over 
again and say put everybody on this frequency band or that. 
First, there is not much spectrum in any given frequency band 
to handle that. But the cost would just be enormous.
    So to answer your question, yes, sir. We try to leverage 
existing investments as much as we can.
    Mr. Thompson. Well, Mr. Poarch, if we are successful with 
the auction, what could we offer States in terms of that State-
wide communication opportunity?
    Mr. Poarch. First, our commitment is to a Nation-wide 700 
MHz band system that States will have the opportunity to be a 
part of if they choose to do that. In addition to that, we 
propose and we hope that the system turns out to be one that is 
reasonably affordable. The States will not have to put up the 
money for the infrastructure. That will be done by the 
commercial entity as part of the public-private partnership. So 
our goal is a Nation-wide system that States can be a part of, 
that is affordable for all of the public safety users out 
around the country.
    Mr. Thompson. So the two systems that we are discussing 
right now, is there a compatibility to the systems? Or are we 
going to do one system and then we are going to do a second 
one?
    Mr. Poarch. No, sir. Part of the proposal that Chairman 
Martin has put forward now would require a component to allow 
the legacy systems that are in place now to be able through a 
system of systems that Dr. Boyd has talked about to be able to 
interact with the 700 D Block. It is our intent as a part of 
this that the legacy systems would be able to interoperate on 
this network.
    Mr. Thompson. So interoperability is the key?
    Mr. Poarch. Absolutely. Yes, sir.
    Mr. Essid. Sir, many of these older systems, they are just 
voice only. They don't have the capabilities to do any kind of 
broadband, you know, information sharing. So that is important 
as well. They are primarily focused on just voice only. We have 
got systems out there that could never approach anything like 
we are talking about here, the capabilities of broadband.
    Mr. Thompson. If the Chairman would indulge me, you know, 
my point is we have put in a lot of money----
    Mr. Essid. Yes, sir.
    Mr. Thompson [continuing]. Into this effort. I think the 
committee is committed to supporting the effort. But we want it 
to be an effort that is not on parallel tracks. But we are 
trying to put a system in place. The auction is key, obviously. 
But if the State-wide plans somehow going in a different 
direction, if your testimony to us today that those State-wide 
plans long-term can be morphed or connected to the 700 MHz 
auction effort, then I think there is support for that concept.
    Mr. Boyd. If I may, Mr. Chairman, about I think it was 2 or 
3 weeks ago we did a demonstration of what we call ROW-B up 
here. I guess we did it in the Rayburn Building. What we did in 
that demonstration was to show how you could take the only 
existing 700 MHz broadband network at the time, the one here in 
the District of Columbia, and we tied into that district 
essentially every kind of communication system that any of 
public safety uses so that you could make it appear to a user 
using one of these as though he was talking on a normal land 
mobile radio system or you could have somebody talking on a 
cell phone and it would seem as though they were talking on a 
standard cell phone. Or if it was a push-to-talk Nextel-like 
cell phone, that would work. You also could exchange graphic 
information systems, photographs and others.
    The reason the broadband capability is essential is, as Mr. 
Essid has just explained, the systems we have now were built 
for voice communications, what requires what we call a really 
narrow pipe. So it is very much like a dial-up modem. That is 
the speeds you have to operate there. You need the broadband 
capability in order to be able to handle video, in order to be 
able to handle imagery, maps, all those kind of high through-
put activities. So you shouldn't think of the 700 MHz broadband 
as being a capability we will evolve to. It will be a piece of 
the package of things State and local public safety need 
because they will still need all of the spectrum they have now 
to be able to support their day-to-day voice communications, 
and then they will need this to be able to provide all those 
other capabilities that on television we assume they already 
have.
    Mr. Thompson. Okay. Let's go to this, which is the 700. Now 
I represent an area that is significantly rural. Is your 
testimony that if we are successful with the auction that most 
rural areas will have coverage?
    Mr. Poarch. I guess I would answer the question by saying 
that there is nothing in our proposal that precludes any areas 
from having the coverage. Indeed, the part of the proposal 
submitted by the Chairman is that we want to do this on a 
Nation-wide basis so that everyone has an equal opportunity at 
interoperability. We don't think that larger areas deserve to 
be interoperable more than smaller areas. I mean, I think we 
have seen around the country you can't predict when there is 
going to be a bridge collapse, when there is going to be a 
flood, when there is going to be a fire, when there is going to 
be a hurricane. Those are not unique only to large areas. 
Certainly the rural areas of this country and the smaller areas 
of the country are prone to those events. We believe every area 
should have the same opportunity to this system.
    Mr. Thompson. Can you tell me what percent coverage is 
required or is being proposed in the auction?
    Mr. Poarch. Yes, sir. Under the proposal that is put forth 
now, there are benchmarks along the way toward 15 years. At the 
4-year benchmark there would be a requirement that there will 
be a 40 percent coverage. At the 10-year benchmark there would 
be a requirement that there would be a 75 percent coverage. At 
the 15-year benchmark, it is based on population coverage. For 
populations that have less than 100 persons per square mile, 
the requirement would be 90 percent. For populations having 
persons between 100 and 500 persons per square mile, the 
requirement will be 94 percent and for populations greater than 
500 persons per square mile, the requirement would be 98 
percent.
    Mr. Thompson. Mr. Chairman, I will back off after this. You 
have a rural area, too. So I think you will need to be a part 
of this.
    Have you charted out what that would look like on a map?
    Mr. Poarch. Yes. Our Wireless Bureau has done charting to 
determine which areas would have the largest amount of 
information in terms of whether it will be 90 percent or 94 
percent or 98 percent, and we can certainly get that 
information back to you.
    Mr. Thompson. Please get it to the committee.
    Mr. Poarch. Yes, sir.
    Mr. Thompson. Thank you. Thank you, Mr. Chairman.
    Mr. Cuellar. Before I pass this on to Mrs. Lowey, you said 
15 years?
    Mr. Poarch. Yes, sir. The ultimate build-out would be 15 
years as opposed to 10 years and benchmarks along the way.
    Mr. Cuellar. What do we do between now and 15 years?
    Mr. Poarch. Well, it starts immediately. Once the license 
is awarded, we realize that there is spectrum available 
February 2009. Thus we are trying to move through as quickly as 
we can to get rules and get to an auction. So there are going 
to be some areas that will be built out quicker. There will be 
a requirement that there be a network-sharing agreement between 
the public safety licensee and the ultimate winner of the D 
Block or D Blocks to start this building process.
    So it is an evolution that will take some time to do based 
on the auction. There has never been an expectation that we 
could have this on year 1 or year 2. It will take some time to 
ultimately do that. We will continue to use the systems that 
are in place and migrate those systems into the new 700 system 
as it is being built out.
    Mr. Cuellar. Just to emphasize the point, 15 years from 
now. What year would that be?
    Mr. Poarch. Well, 15 years from now would be 2023.
    Mr. Cuellar. 2023. All right. At this time I will recognize 
Mrs. Lowey from New York, and then we will go with Mr. Dicks 
and then we will move on.
    Mrs. Lowey. Thank you very much, Mr. Chairman. I would dare 
say to the big Chairman, when we got that--am I on? Okay.
    Fifteen years is a long time. Why don't you try giving New 
York City the contract directly? I bet that New Yorkers would 
not be willing to wait 15 years. It is hard for me to believe 
that a city that is No. 1 on threats is going to wait 15 years 
for whomever you give the contract to to get their act 
together. But I would be interested to know how New York City 
responded when you give them this timetable. But going back 
to--unless you have a response to that, I will move to another 
question.
    Mr. Poarch. That is fine. Go ahead.
    Mrs. Lowey. Okay. I would like to get back to where the 
Chairman started. The non-D Block portions of the digital TV 
spectrum auction generated $19.6 billion, substantially more 
than many estimates. Given the revenue already generated, some 
public safety agencies have proposed that the FCC give the 
spectrum directly to public safety agencies and allow cities 
and regions to determine how to build a network that best meets 
their needs.
    So Mr. Poarch, was this proposal considered by the FCC? I 
have listened carefully to both Chairmen's questions and I am 
not convinced that the second round is going to be any 
different from the first round. What is the problem with giving 
it--if you are making such a profit on the first auction, why 
wouldn't you give it to the public safety agencies? I don't 
understand how your expectations are any different than the 
first time around.
    Why wouldn't you give it to them? Let's do that.
    Mr. Poarch. Let's start there. I have been to New York and 
visited with Chief Dowd, saw his operation. He has been down to 
visit with us. He has been down to visit us. We have taken 
certainly his considerations, his suggestions under 
consideration. We have actually got another meeting with him 
this week for further discussion. But I would say that I think 
anyone that thinks it will take 15 years to build out New York 
City would probably be wrong. New York City would be one of the 
first areas, as would the National Capital Region, those types 
of areas would be built out quicker because the infrastructure 
is in place.
    However, to say why don't you just give the spectrum to the 
cities first, we are not sure we have got the authority to give 
the spectrum to the cities. We are required by statute to have 
a bidding process. So first, I am not sure that we could do 
that anyway.
    Mrs. Lowey. What would be needed to give it to the cities 
or the public safety agencies?
    Mr. Poarch. There is certainly some belief that it would 
require an act by Congress for us to be able to just give that 
spectrum away.
    Mrs. Lowey. Have you recommended that?
    Mr. Poarch. We have not had a recommendation.
    Mrs. Lowey. Have you thought about it?
    Mr. Poarch. We have certainly thought about it.
    Mrs. Lowey. You think it is a good idea?
    Mr. Poarch. I don't know that it is a good idea, and let me 
explain why I don't necessarily think that it is; because what 
I think you would find, and if you just gave the spectrum to 
cities, is that New Yorks and the Chicagos and the National 
Capital Regions would build a system. In areas such as where--
--
    Mrs. Lowey. In what period of time do you think?
    Mr. Poarch. I don't know. I don't know how long it would 
take for them to build out. Certainly, I expect they would 
build out quicker. But what I think and what the Chairman has 
talked about and other commissioners, that is a very key, 
important piece of this is, while New York and Chicago and the 
capital region would build out quick and they would have the 
funding to build out quick, areas such as where Chairman 
Thompson comes from, Chairman Cuellar is from, and some other 
areas, they may never have the money at all to ever build a 
system. I mean it costs millions upon millions, if not more, 
depending upon the size of the community you come from, to be 
able to build one of these systems. So while if we----
    Mrs. Lowey. Well, wait a minute. This doesn't make sense to 
me. I realize that some of it may be above my pay grade. But 
the threat is in the big communities. Now Chairman Thompson's 
community and others need the help as well. So you are 
expecting by this other auction, even though you were caught 
off guard with the first auction, that you are going to get 
enough money to build it in Chairman Thompson's area and other 
areas that need it? There is some disconnect here.
    Mr. Poarch. Well, we are not going to get money to build it 
at all. The public-private partnership----
    Mrs. Lowey. Correct.
    Mr. Poarch [continuing]. Is going to require that the 
winning D Block winner build this network for the public safety 
community. That is why it is very important to be able to build 
it on a regional or a national basis, so that the entire 
country is covered.
    Mrs. Lowey. That sounds fine, but when plan A, when it 
first failed, and the D Block spectrum did not garner an 
acceptable bid, the FCC appeared to be caught off guard, did 
not have an immediate backup plan how to proceed. One of the 
considerations in putting together the current plan must have 
been to set up a reserve price low enough to receive the bid 
meeting the reserve, but not so low to essentially give away 
prized spectrum.
    So I am a little confused as to what the FCC is doing to 
create a plan C in case the proposal it is currently working on 
fails to attract a sufficient bid. Why is it so attractive that 
you expect to have this second round so much better than the 
first round?
    Mr. Poarch. First, I think----
    Mrs. Lowey. At what point, in other words, do you think it 
through in advance and say, well, we may have to simply hand 
spectrum directly to public safety, make enough profit on the 
other, instead of auctioning off at too low a price?
    Mr. Poarch. First, I don't know that if we took every bit 
of the proceedings from the last auction and gave it to the 
public safety communities around this country that they would 
be able to build that system. Depending upon the estimates that 
you talked about, if you had to build a new system from green 
fields starting from scratch, there are estimates of $10-to-15 
billion, with a B, to do that on a Nation-wide basis. So this 
auction certainly wouldn't garner the funds to do that if we 
gave it to the public safety community.
    The real emphasis, and the problem for the public safety 
community around the country, thinking past just New York City 
and the larger areas, the problem has always been that the 
public safety community in the United States does not have the 
funds with which to do that.
    That hasn't changed today. That is why we are proposing an 
auction that would have a Nation-wide bidder and regional bids 
so we can get as much interest in building this for the public 
safety community as we can, because they are not going to be 
able it do it themselves. Some areas would. New York, I am 
sure, would. But the other smaller areas around this country 
that have the opportunities, and the tragic things happen such 
as fires and floods and hurricanes, they cannot do this on 
their own.
    Mrs. Lowey. Now, I get that. I think my time is up. But 
with Chairman Thompson, Chairman of this committee, I would 
assume that you could figure out a way to give this contract, 
public-private contract, to those who think that there is some 
excitement, profit to be made, and have them take on the 
responsibility of the other areas, too.
    But my time is up, so I have a feeling we are going to 
figure this out. I just don't see how this second round is 
going to produce a greater success than the first round. Thank 
you, Mr. Chairman.
    Mr. Cuellar. Yes, ma'am. The Chair recognizes the gentleman 
from Washington, Mr. Dicks, for his line of questioning.
    Mr. Dicks. Let me just continue on this. Only the A, B and 
C Blocks of spectrum were sold. The D Block, which we have been 
talking about, designed for a public-private partnership for 
both public safety officials and private enterprise, received 
only one bid as I understand it--and I haven't been here, so I 
regret that--of $472 million, far short of the $1.33 billion 
reserve price set by the FCC. How could the FCC have so badly 
miscalculated what the market would do here?
    Mr. Poarch. I wouldn't necessarily say that we badly 
miscalculated. I think we set the initial reserve price 
consistent with all of the other prices that we normally set. 
The difference is that there is such a requirement for a 
commercial entity to build a network for public safety that has 
requirements such as reliability and robustness and hardening 
and security and encryption and those types of things, this is 
a tremendous undertaking. Last time we proposed that we do it 
on a Nation-wide basis. We didn't provide any alternatives 
other than that. We left quite a bit of room for negotiation 
between the public safety community that has tremendous needs 
and the winner of the D Block after the auction was complete.
    Many said to us leaving it until after the auction, and 
there not being clarity up front with these tremendous 
requirements of the public safety community, made it 
unattractive from a financial standpoint for us to bid on this 
spectrum. This time we have set a lower minimum bid and reserve 
price, we have given them----
    Mr. Dicks. That's what, $750 million?
    Mr. Poarch. Seven hundred fifty. Yes, sir. In addition to 
that, we have given them the clarity that everyone asked for so 
that they know going in what it is that they are going to be 
bidding on.
    In addition, while we are again bidding on a Nation-wide 
license, we are also proposing to bid regional licenses on the 
Long Term Evolution or the WiMAX standard, either one, so that 
commercial entities out here that may not have the wherewithal 
to build a Nation-wide license, but they have got the 
wherewithal to build regional licenses, that maybe we can put 
together a number of regional licenses that will cover the 
entire country.
    So this proposal that is being put forth by Chairman Martin 
at this time is appreciably different, and we believe is the 
best effort within the authority that we have at the Commission 
in order to be able to try to build this network.
    Mr. Dicks. Who made the $472 million bid? Who was that?
    Mr. Poarch. I think it was Qualcomm? Qualcomm.
    Mr. Dicks. That was to do this Nation-wide?
    Mr. Poarch. That was the bid. But obviously it did not meet 
the reserve, so it was a pretty safe bid for Qualcomm to bid 
$472 million.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Cuellar. At this time the gentleman recognizes--I mean 
the Chairman recognizes the gentlewoman from the Virgin 
Islands, Ms. Christensen.
    Mrs. Christensen. Thank you. You are a gentleman, too.
    Mr. Cuellar. Thank you. On good days.
    Mrs. Christensen. Thank you, Mr. Chairman. My question 
would be, I guess, to all three. In its NECP, the Department of 
Homeland Security attempts to establish a national framework 
for ensuring that first responders have access to effective 
interoperable communications systems, noting that, quote, the 
emergency response community has sought national guidance to 
support a more integrated coordination of emergency 
communications, priorities, and investments.
    The FCC, through its D Block partnership proposal, has also 
stressed the importance of establishing a national framework to 
address public safety communication needs. Yet the approaches 
taken by the two agencies are different. DHS has input a 
bottom-up approach that relies on local practitioners and local 
needs to drive the deployment of new private systems for public 
safety's use. As I understand it the FCC's model is a top-down 
approach that relies on a single public-private partnership to 
implement a national system that would be shared with 
commercial users.
    So my question is what coordination has taken place between 
DHS and the FCC to ensure that there is consistent national 
guidance to addressing public safety needs? What steps do 
either the Department or the Commission plan to take to ensure 
that their respective approaches can be integrated into a 
single national framework?
    Mr. Essid. Well, the national plan, which we had a lot of 
stakeholder involvement, and we used the State plans to 
develop, really lays out how important the capabilities that 
the 700 MHz broadband network are to public safety. We don't 
specifically call out in the national plan the 700 MHz 
spectrum, but we do basically say, under objective 4, that we 
put this as an emerging technology that will change everything, 
as Dr. Boyd alluded to earlier, with the demonstration that was 
done here at the Capitol, bringing in a lot of the existing 
legacy systems to this newer technology.
    You know, the national plan doesn't really have in it one 
system. We are talking about increasing the level of 
coordination amongst the local, State and Federal partners, 
with all the different systems they have. So, you know, the 
bottom-up approach that we used is just to make sure that all 
the first responders and emergency personnel are involved when 
we are doing whatever it is we are doing, coming up with SOPs, 
training and exercises, plans, et cetera. So that is our 
bottom-up approach.
    We do coordinate with the FCC. In fact, you know, I am 
standing up a new office, the Office of Emergency 
Communications when we had no staff. I mean, Dr. Boyd lent me 
one of his guys. I have got three detailees in the FCC in Derek 
Poarch's shop right now that helped us until we could hire more 
personnel, being a new office, keep our feet on the ground with 
everything that is going on. So I am very thankful to them. So 
we do coordinate a lot. You know, they have been pretty 
receptive, in my opinion, to the feedback and input we have 
been giving the FCC on what the first responders need and how 
critical this is for them.
    Mrs. Christensen. So the national guidance that States and 
territories, cities, receive is consistent and coordinated. 
They are not getting two different messages from----
    Mr. Essid. I don't think so. As I said earlier, I think a 
lot of the State and local folks as well as the Federal folks 
are watching to see what happens in this auction. When we were 
crafting the national plan, for example, we were watching 
because we don't want to be bold enough to make a prediction 
and put something in the plan and then it not come to fruition. 
So we are kind of taking a wait-and-see approach. The one thing 
we all resound on is public safety needs this type of a 
capability out there.
    Mr. Boyd. If I may add to that, it is important, as I keep 
saying, to remember that this is an added capability for public 
safety. It is not going to replace all of the existing systems. 
There simply isn't enough spectrum in the D Block to be able to 
do that. It is going to provide that broadband capability so at 
the end of the day the public safety view, I think, inevitably 
is going to be whatever form this takes, it is essential that 
this spectrum remain available to State and local public 
safety.
    Mrs. Christensen. I guess I would ask this to Mr. Essid and 
Dr. Boyd. As you know from the make-up of the PSST Board, 
public safety entities are understandably protective of their 
spectrum. So how does EOC or the PSST Board plan to--or 
Department of Homeland Security plan to coordinate with the 
public safety entities to turn over their spectrum to the PSST? 
Or is that not a problem?
    Mr. Boyd. Well, this spectrum is not--public safety is not 
going to be turning over its existing spectrum. The D Block 
spectrum is separate. It would just be PSST.
    Mrs. Christensen. Right. I think you kind of had answered 
that in your first answer. That is all, Mr. Chairman. Thanks.
    Mr. Cuellar. Before we move on, Mr. Poarch, let me ask you 
one question about the State of Texas coverage. The D Block 
licensee, the rules that you all put out would be required to 
build out 79 of 254 counties in the State of Texas, which 
means--does that mean that the rest of the other counties would 
have no service? Does that include also areas that FEMA has 
identified that are most affected by severe hurricanes?
    Mr. Poarch. I am just not familiar with the 79 of 254 
counties. The proposal that puts forth from Chairman Martin 
would require a Nation-wide system, build out for the entire 
State of Texas and the entire Nation if we can get a Nation-
wide bidder. Or it would be done on a regional basis, and the 
regional licenses, if successful, would be required in 
populations, as I alluded to earlier, based upon the density of 
the area, to build between 90 to 98 percent.
    So we can certainly get back to you and talk specifically 
about Texas, but I am not familiar with the 79 of 254. Our 
proposal is for a Nation-wide licensee to build for the entire 
country.
    Mr. Cuellar. Okay. I can understand when you have those 
general concepts. But when you go down to the details, unless 
this information is wrong, and I am looking at the map of the 
State of Texas with only the counties that are included, you 
would have a lot of blank areas, if I can use that.
    Mr. Poarch. Yeah. We would be happy to talk to staff about 
the map that you are using. I haven't seen it, so I am not 
really familiar with the data, but we will be happy to interact 
with the staff and get you an answer on that.
    Mr. Cuellar. Okay. Why don't we do this? Do that with the 
State of Texas and the Members that are here--including Mr. 
Dent--States so you can give them an idea, so the Members of 
the committee have an idea what this means also. The rest of 
the Members of this subcommittee also.
    Mr. Poarch. Sure.
    Mr. Cuellar. Okay. Thank you. If there are no other 
questions, we are going to move onto the second panel. I would 
ask, I usually do this with the first panel, I would ask you 
not to leave. If you want to take a chair in the front row, Mr. 
Poarch, Mr. Essid, Dr. Boyd. The reason I do that is so you can 
listen to the second panel, and hopefully we can have a little 
interaction.
    At this time I want to thank all the three witnesses, the 
three witnesses for being here. Thank you very, very much. I 
know there are questions, a lot more questions. I know it is a 
difficult issue, but it is one that we need to work together. 
Thank you very much.
    If I could have the second panel. For the second panel, as 
you are coming in, there are two audiences here. One is the 
legislative audience, the ones that will be asking you 
questions; but I have also asked, as you know, Mr. Poarch, Mr. 
Essid, and Dr. Boyd to stay here. That is your secondary 
audience, if you know what I mean. As the witnesses are coming 
in here, we have given the background on the testimony, so we 
are going to go directly into the testimony.
    I want to thank the witnesses for their presence here. I 
look forward to your testimonies. I now ask each witness to 
summarize his statement for 5 minutes. We will begin with Mr. 
Mirgon. So we would like to recognize you at this time.

STATEMENT OF RICHARD MIRGON, FIRST VICE PRESIDENT, ASSOCIATION 
      OF PUBLIC-SAFETY COMMUNICATIONS ORGANIZATION (APCO) 
                         INTERNATIONAL

    Mr. Mirgon. Good morning, Chairman Cuellar, Ranking Member 
Dent, and Members of the subcommittee for this opportunity to 
appear before you today on behalf of the Association of Public 
Safety Communications Officials, APCO. My name is Richard 
Mirgon. I have over 30 years of public safety experience. I 
currently serve as president-elect of APCO, and I would like to 
offer a synopsis of my written comments.
    APCO was established in 1935, and is the largest public 
safety communications organization, representing nearly 16,000 
public safety communications officials. Wireless broadband 
provide excellent--excuse me, wireless broadband has provided 
exciting new opportunities for improved public safety in an 
interoperable, all-risk environment. However, many of those 
benefits would be lost if public safety broadband systems are 
deployed in a proprietary, stovepipe manner, as most land 
mobile systems have been deployed over the last 70 years.
    I would like to highlight three of our six principles that 
have guided our policies on this issue. One, we support the 
development of a national interoperable broadband network. A 
national broadband network would ensure that all public safety 
agencies would have the same opportunities to take advantage of 
broadband communications.
    Two, we strongly believe that this network has to be built 
to national standards, and must be interoperable with all 
broadband networks in 700.
    Three, a successful D Block auction requires that the FCC 
establish more specific network requirements and D Block 
licensee obligations prior to the auction. While I understand 
that at times we may appear to be divided on how the system 
should be built and managed, we are united in the belief that 
there is an immediate and dire need to establish a public 
safety broadband network.
    A national network would provide users with a single 
technology standard, giving them the ability to acquire off-
the-shelf technologies at substantially less cost than today's 
land mobile radios, and freeing them from constructing costly 
and duplicative broadband infrastructure.
    Currently, there are local public safety agencies that are 
eager to deploy systems in 700 MHz spectrum. These agencies 
have the resources to deploy and manage their own broadband 
networks, and they should be allowed to begin broadband 
deployment in their areas, subject to national network and data 
standards that are fully integrated and interoperable with the 
proposed broadband networks, and that they have coordinated 
with and received approval by the FCC and public safety 
broadband licensee.
    On September 25, the FCC is expected to release the third 
and final notice of proposed rulemaking on the 700 MHz auction. 
APCO believes that before the FCC issues its orders to set a 
new date for the Commission, the Commission should begin 
working on creating technical and operational standards for the 
shared network. APCO helped to create the Public Safety 
Spectrum Trust, the PSST, and has devoted substantial time, 
money, and resources to its formation and activities. We 
greatly appreciate the tremendous dedication of the PSST board 
members and the organizations they represent.
    However, APCO strongly supports the FCC's reexamination of 
the public safety broadband licensee requirements, and believes 
that fundamental changes are necessary to ensure that the 
public safety broadband licensee is a more effective and 
efficient organization. Organizations identified by the FCC 
have a right, pursuant to the PSST bylaws, to name individuals 
to serve on the board. APCO believes that the FCC needs to 
clarify that the organizations must be the actual members of 
the board. We hope that this minor distinction would prevent 
some organizations from becoming disenfranchised, and encourage 
them to provide organizational input into matters being voted 
upon by the PSST Board.
    APCO believes that the public safety broadband licensee 
would be well-served to include in its board member composition 
the direct expertise needed to undertake this extraordinary 
task at hand. This should include experience in designing and 
operating public safety communications systems, expertise from 
the fields of business, finance, communications technology, all 
of which are critical to the function of the broadband 
licensee. We believe that this experience will lead the PSST to 
rely less on the advice of the agent adviser, and improve its 
ability to engage in a thorough critique of all business 
functions.
    None of these recommendations should be construed as 
negative toward any of the current members of the PSST. As one 
of the three founding members, we have been at the table from 
the beginning, and we wish to simply recognize, after almost a 
full year of experience, that there needs to be some positive 
and beneficial changes to the structure. This should be viewed 
as an opportunity for improvement.
    Recent trade press has misrepresented APCO's policies by 
stating that APCO is looking to sever ties with the PSST. I 
want to make it very clear, in no way is APCO looking to sever 
ties with the PSST. We are working to make it stronger. Our 
commitment to building a national broadband network stands 
firm. We would like to thank the leadership of Chief Harlin 
McEwen, chairman of the PSST board, for his hard work and 
attention to addressing our concerns, and working with us 
toward a positive outcome.
    In conclusion, APCO International remains committed to 
working with all the interested parties to make sure the 
construction, maintenance, and management of such a national 
broadband network of 700 spectrum meets the needs of public 
safety today and into the distant future. Thank you.
    [The statement of Mr. Mirgon follows:]
                  Prepared Statement of Richard Mirgon
                           September 16, 2008
    Thank you Chairman Cuellar, Ranking Member Dent, and Members of the 
Subcommittee on Emergency Communications, Preparedness, and Response 
for this opportunity to appear before you today on behalf of the 
Association of Public-Safety Communications Officials (APCO) 
International.
    My name is Richard Mirgon and I currently serve as the President 
Elect of APCO International. I have recently retired with over 30 years 
of public safety experience. Most recently I served as the Director of 
Technology Services/911 for Douglas County Nevada where as a department 
head I managed all public safety communications, information technology 
and emergency management. Prior to that I work as a deputy sheriff for 
Jefferson County Colorado which encompasses the western metropolitan 
area of Denver.
    APCO International was established in 1935 and today it is the 
Nation's largest public safety communications organization, 
representing nearly 16,000 members worldwide who build, supply, manage 
and operate communications systems and facilities for police, fire, 
emergency medical services and other State and local government public 
safety agencies. APCO International also serves the needs of more than 
100,000 professionals in the public safety communications industry by 
providing training, frequency coordination, engineering, licensing, 
advocacy and networking opportunities. APCO International is the 
largest Federal Communications Commission (FCC)-certified frequency 
coordinator for Part 90, Public Safety Pool channels, and appears 
regularly before the FCC on a wide variety of public safety 
communications issues.
    APCO International has been a major player in the Commission's 
numerous proceedings regarding the 700 MHz Public Safety Band, 
including the development of the public-private partnership approach to 
the D Block auction and the creation of a national public safety 
broadband licensee (PSBL) and is among the organizations that the FCC 
designated in the Second Report and Order for representation on the 
PSBL board of directors.
    We applaud the committee for holding this very important and timely 
hearing on the auction of the 700 MHz D Block spectrum.
    Wireless broadband communications provide exciting new 
opportunities for improved public safety operations. Broadband video, 
high speed images, Internet access, and data of an endless variety 
would greatly enhance the ability of police, fire, EMS and other 
personnel to protect the public and respond to emergencies. However, 
many of those benefits could be lost if public safety broadband systems 
are deployed in a proprietary and stovepipe manner as most land mobile 
systems have been deployed over the last 70 years.
                           guiding principles
    I would like to highlight six basic principles that guide APCO 
International's policies in working to build a national public safety 
broadband network.
    1. APCO International believes that new and emerging technologies 
        will greatly improve the way emergency services are able to 
        protect and serve the public.
    2. APCO International continues to support the development of a 
        national, interoperable, broadband network that is designed, 
        maintained, and operated to meet the requirements of public 
        safety communications to the maximum extent feasible. A 
        national broadband network would ensure that all public safety 
        agencies, regardless of their size, location, expertise, or 
        financial resources, would have the same opportunities to take 
        advantage of the new world of broadband communications. Absent 
        a national network, only those few agencies with substantial 
        resources and expertise will be able to provide their first 
        responders with state-of-the-art broadband communications. The 
        result would be islands of robust, and probably incompatible, 
        public safety broadband networks, surrounded by vast un-served 
        areas.
    3. APCO International strongly believes that this network has to be 
        built to national standards and must be interoperable with all 
        broadband networks built on the 700 MHz spectrum band.
    4. APCO International strongly believes that the Federal 
        Communications Commission must retain the public-private 
        partnership model in the D Block auction, as it is the only 
        approach likely to lead to the deployment of a national, 
        interoperable, public safety broadband network.
    5. APCO International believes that it is unrealistic to expect 
        that the national broadband network will be able to provide 
        sufficient coverage or reliability to replace ``mission-
        critical'' voice communications now provided over land mobile 
        radio systems. The voice component of a broadband network is 
        likely to eventually reduce the need for some public safety 
        personnel to carry both a cell phone (generally used for 
        routine, non-emergency communications) and a land mobile radio. 
        However, land mobile radio will likely remain the principal 
        means of providing mission-critical communications for the time 
        being.
    6. A successful D Block auction requires that the FCC establish 
        more specific network requirements and D Block licensee 
        obligations prior to the auction.
                          where are we today?
    Again, APCO International strongly supports the formation of a 
national, interoperable, broadband public safety communications 
network. We firmly believe that the most viable means of creating such 
a system is through a network-sharing agreement between a national 
public safety broadband licensee for the 700 MHz public safety 
broadband spectrum and the winner of the adjacent D Block of commercial 
spectrum. Absent extraordinary and unprecedented Federal grants, no 
other available approach can provide the funding for a Nation-wide 
public safety broadband network.
    Recent articles in the press continue to highlight the failure of 
the previous D Block auction and question the potential for creating a 
private-public partnership that will build out a national broadband 
network to be used for public safety communications. It is unfortunate 
that the D Block did not receive a winning bidder, but the failure of 
the auction provides us with a new opportunity to make sure we create a 
balanced plan that will provide the building blocks for a truly robust 
and secure national public safety broadband network.
                        what are the challenges?
    Public Safety has specific requirements that cannot be met by a 
purely commercial service provider. In general, public safety agencies 
need priority access, comprehensive coverage, high-capacity throughput 
levels to prevent delays in transmission of critical information, 
extremely low outage rates, hardened facilities, and redundancy to 
ensure service during emergencies. The challenge is to develop 
specifications for those requirements that are sufficient to meet 
public safety needs, but that are also economically viable for a 
shared, public/private network.
    With more than 19,000 municipal governments, 16,000 town or 
township governments, 3,000 county governments, and 35,000 special 
district governments that have their individual public safety needs, I 
can assure you the task of building a national broadband network is not 
going to be easy and the solution is not going to be one-size-fits-all.
    While I understand that at times we may appear to be divided on how 
the system should be built and managed, we are united in the belief 
that there is an immediate and dire need to establish a public safety 
broadband network that meets the needs of first responders during 
mission critical incidents.
    A national network would provide users with a single technology 
standard, giving them the ability to acquire off-the-shelf technologies 
at substantially less cost than today's land mobile radios. They would 
also be freed of the obligation to construct a costly and duplicative 
broadband infrastructure. A national broadband network might also 
provide a common link to improve interoperability among all types of 
public safety communications systems.
    One of the challenges in designing a broadband network is that we 
will not know exactly how the network will be used until it is 
deployed. Just as even the most visionary of technologists could not 
have predicted 10 years ago the extraordinary array of Internet 
applications available today, we cannot predict with certainty how 
public safety personnel will use wireless broadband capability in the 
future. A clear deduction would be that the network will be used to 
transport video input and output, high-speed data services, complex 
engineering and building plans, schematics for electrical and gas 
service, multifaceted medical information, engineering drawings, 
geographical data, fire hot spot locations, firefighter monitoring, 
undercover services, chemical analysis, robotic control, and much more. 
Whatever the results we believe they will not only be meaningful but 
amazing.
    What is clear is that public safety agencies will use the network 
only if it provides fast, reliable coverage when and where they need it 
at a cost they can afford. In a shared network environment, priority 
access will be especially important. APCO International's comments in 
response to the Second Further Notice of Proposed Rulemaking describes 
our recommendation that 50 percent of the capacity of the shared 
network should be subject to ``ruthless preemption'' for public safety 
use, and that 50 percent of the capacity should be available 
exclusively for commercial services, absent a catastrophic event 
requiring additional public safety capacity. This approach should give 
the D-Block licensee(s) and its customers sufficient certainty 
regarding network availability. With careful capacity management, the 
network will also be able to satisfy public safety service demands.
                 what is being done to find solutions?
    On September 25, the FCC is expected to release the Third Final 
Notice of Proposed Rule Making on the 700 MHz auction. APCO 
International believes that before the FCC issues its Order to set a 
new date for the D Block auction the Commission should begin work on 
creating technical and operational standards for the shared network.
    Let there be no doubt that there are local public safety agencies 
that are eager to begin deploying systems in the 700 MHz public safety 
spectrum. These agencies have the resources to deploy and manage their 
own broadband networks. The National Capitol Region has already 
deployed a system in the 700 MHz band and this system is in operation 
today. There are other States and local government that are also eager 
to start building out their own networks.
    APCO International believes that local and State governments should 
be allowed to begin broadband deployment in their areas, subject to 
national network and data standards. All deployments of local and 
regional broadband networks must be able to fully integrate and become 
interoperable with the proposed national broadband network. Such 
localized efforts need to be coordinated with and approved by the FCC 
and the PSBL. These systems must also comply with all network sharing 
agreements between the national public safety broadband licensee and 
auction winner(s) of the D Block.
    APCO International also believes that the FCC should strengthen its 
formal relationship with the FCC and the PSBL.
    APCO International helped to create the Public Safety Spectrum 
Trust (PSST) and has devoted substantial time, money and resources to 
its formation and activities. APCO International also greatly 
appreciates the tremendous dedication of the PSST board members and the 
organizations they represent. However, APCO International strongly 
supports the FCC's re-examination of the PSBL requirements and believes 
that fundamental changes are necessary to ensure that the PSBL is a 
more effective and efficient entity.
    Organizations identified by the FCC have the right pursuant to the 
PSST's bylaws to name individuals to serve on the board. APCO 
International believes that the FCC needs to clarify that the 
organizations it names must be the actual members of the PSBL board. We 
hope that this minor distinction would prevent some organizations from 
becoming disenfranchised and encourage them to provide organizational 
input into matters being voted upon by the PSST Board.
    APCO International believes that the PSBL would be well-served by 
including in its board member composition, the direct expertise needed 
to undertake the extraordinary tasks at hand. Such proficiency should 
include experience in designing or operating public safety 
communications systems, and expertise from the fields of business, 
finance, or communications technology, all of which are critical to the 
functions of the PSBL. We believe also that this experience will lead 
the PSST to rely less on the advice of its agent/advisor and improve 
its ability to engage in a thorough critique of all business functions.
    APCO International has suggested that the FCC change the required 
composition of the PSBL board. We recommend a board of 8 to 12 members, 
with approximately half of the members being diverse organizations that 
represent potential users of the network and those with expertise in 
public safety communications matters. The organizations, not their 
individual representatives, should be members to the extent necessary 
to ensure input from the relevant organizations. The remaining PSBL 
board members should be individuals selected by the Commission who do 
not represent any particular organization but who would add critical 
knowledge and expertise to the PSBL's decisionmaking. Of course, the 
Commission must ensure that a clear majority of the board members 
directly or indirectly represent public safety entities. We also 
recommend that an FCC commissioner or high-level Commission official, 
such as the chief of the Public Safety and Homeland Security Bureau, 
should also serve as an ex-officio member of the PSBL board.
    None of these recommendations should be construed as negative 
toward any of the current members of the PSST. As one of the three 
founding members who have been ``at the table'' from the beginning we 
wish to simply recognize after almost a full year of experience that 
there needs to be some positive and beneficial changes to the 
structure. This should be viewed as an opportunity for improvement.
    Recent trade press has published articles that misrepresented APCO 
International's policies by stating that APCO International is looking 
to sever ties with the PSST. I want to make it very clear that in no 
way is APCO International looking to sever ties with the PSST. We are 
working to make it stronger. Our commitment to building a national 
broadband network stands resolute.
    We believe that by continuing to work together we can make the PSST 
stronger and better. We would like to thank the leadership of Chief 
Harlin McEwen, chairman of the PSST board, for his hard work and 
attention to addressing our concerns and working with us toward a 
positive outcome.
    In conclusion, APCO International remains committed to working with 
all the interested parties to make sure that the construction, 
maintenance, and management of such a national broadband network in the 
700 MHz spectrum meets the needs of public safety today and into 
distant future.

    Mr. Cuellar. Thank you for your testimony.
    At this time I would recognize Mr. Contestabile to 
summarize his statement for 5 minutes.

STATEMENT OF JOHN M. CONTESTABILE, BOARD MEMBER, PUBLIC SAFETY 
                         SPECTRUM TRUST

    Mr. Contestabile. Thank you, Chairman Cuellar, Ranking 
Member Dent, and distinguished Members of the subcommittee for 
the opportunity to appear before you today. My name is John 
Contestabile. I am employed as the Director of the Office of 
Engineering and Emergency Services for the State of Maryland 
Department of Transportation.
    I appear before you today as a member of the Board of 
Directors of the Public Safety Spectrum Trust Corporation. I 
serve on the Board as a representative of the National 
Governors Association. The Public Safety Spectrum Trust, or the 
PSST, is a nonprofit corporation that was formed in June of 
2007, and consists of a board of directors representing 15 
national public safety organizations.
    In November 2007, the PSST was awarded the license for the 
700 MHz public safety broadband by the Federal Communications 
Commission. That license is for 10 MHz of radio spectrum in the 
700 MHz band that has been allocated by the FCC for public 
safety broadband purposes, and is intended to be half of the 
spectrum that will be used to develop a shared commercial 
public safety network. The other half will come from the 700 D 
block auction. The mission of the PSST is to represent the 
interests our Nation's first responders in the development of 
this shared network.
    The proposed network is tremendously important to the 
public safety community, as it can give emergency responders 
the ability to do such innovative things as monitor vital signs 
of firefighters on scene of an incident, monitor patients' 
vital signs en route to emergency rooms, getting criminals off 
the street with real-time fingerprint scanning, streaming video 
on demand from emergency personnel and command centers, from 
fixed traffic cameras as well as mobile cameras in emergency 
vehicles.
    Building a Nation-wide broadband wireless network will also 
permit interoperable voice communications, and we have talked 
about that in the earlier panel. We will ensure we will never 
have to repeat the challenges faced during 9/11 and Hurricane 
Katrina. Of course, we sit before you almost to the day from 
September 11, 2001. Following that event, there was significant 
outcry about the failures of public safety communications and 
the need to improve them throughout the country.
    While there have been pockets of improvement, most of the 
rhetoric has not resulted in action. Today there is still no 
comprehensive next-generation wireless public safety solution 
that improves public safety communications Nation-wide. 
Fortunately, the FCC has proposed an innovative model, a public 
safety commercial partnership between the D Block licensee, and 
with the PSST serving as the licensee, that will join the 
interests of the business and public safety communities.
    Just like consumers, public safety can benefit from the 
broadband technology. But we need a network that is hardened to 
withstand catastrophes, has power support, satellite backup, 
has other important features to make it available and reliable 
in a crisis. We also need a network that uses a common 
technological standard so that we can achieve interoperability 
across the dozens of separate groups that make up our first 
responders.
    We also commend the city of New York for putting together 
the essential ingredients that have allowed it to deploy an 
advanced wireless broadband network. Unfortunately, the access 
to broadband funding that New York City has achieved is lacking 
for almost all of the other jurisdictions across the country. 
We believe a new public safety wireless broadband network is an 
important tool in rural America, just as it will be in major 
metropolitan areas.
    We are disappointed that the earlier round of the D Block 
auction did not attract a winning bid, but we are pleased that 
the FCC chairman indicated he had circulated to the 
commissioners a draft Third Further Notice of Proposed 
Rulemaking, which will be taken up on September 25, 2008.
    We would also be remiss in not mentioning that in order to 
meet our responsibilities as the PSST, we need a clear and 
appropriate source of funding. The FCC orders have not 
identified funding for the PSST, the nonprofit entity selected 
by the FCC to serve as the licensee. There is no allocation in 
existing law for funding to meet the PSST's needs.
    In conclusion, we in the public safety community wish to 
applaud the efforts of the Members of this subcommittee and of 
Congress, and of the FCC commissioners and staff, for their 
support of the public safety broadband network and the public 
safety commercial partnership approach. We ask for your 
continued help and support to make the public safety broadband 
network a reality in the near future. Thank you.
    [The statement of Mr. Contestabile follows:]
               Prepared Statement of John M. Contestabile
                           September 16, 2008
    Thank you, Chairman Cuellar, Ranking Member Dent and distinguished 
Members of the subcommittee for the opportunity to appear before you 
today.
    My name is John Contestabile. I appear before you today as a member 
of the board of directors of the Public Safety Spectrum Trust 
Corporation (PSST) and representing Chief Harlin McEwen who is the 
chairman of the board of directors and who had a scheduling conflict 
with this hearing. I serve on the board as a representative of the 
National Governors Association.
    I currently serve on a number of national committees including Vice 
Chair of the American Association of State Highway and Transportation 
Officials (AASHTO) Security Committee, the Transportation Research 
Board's Security Oversight Panel, the Department of Homeland Security's 
SAFECOM Interoperable Communications Advisory Committee, and I chair 
the Maryland State Interoperability Executive Committee (SIEC) Working 
Group, which developed the Maryland State-wide plan for public safety 
voice and data communications.
    The Public Safety Spectrum Trust Corporation is a non-profit 
corporation that was formed in June 2007 and consists of a board of 
directors representing 15 national public safety organizations.
    In November 2007, the PSST was awarded the Nation-wide 700 MHz 
Public Safety Broadband License (PSBL) by the Federal Communications 
Commission (FCC). The license is for the 10 MHz of radio spectrum in 
the 700 MHz band that has been allocated by the FCC for public safety 
broadband purposes and is intended to be one-half of the spectrum that 
will be used to develop a shared commercial/public safety network. The 
other half of the spectrum will come from the 700 MHz D Block. The 
mission of the PSST is to represent the interests of the local, State 
and Federal public safety community. I and the other members of the 
PSST board of directors take this duty very seriously, and I appear 
today on behalf of not only the PSST, but also the public safety 
community we serve.
    Advances in broadband telecommunications can give emergency 
responders the ability to do such things as monitor vital signs of 
firefighters on-site, monitor patients' vital signs on their way to 
emergency rooms, get criminals off the street with real-time 
fingerprint scanning and stream video on demand to emergency personnel 
and command centers from fixed traffic monitoring cameras and mobile 
cameras in emergency vehicles at the scene of incidents. These are only 
a few of the almost limitless number of innovative applications that 
can help public safety officials protect our lives and property and 
increase their personal safety. At the same time, these new 
capabilities can permit interoperability among first responders that we 
do not have today and will ensure that we never have to repeat the 
terrible communications deficiencies that we faced in events like 9/11 
and Hurricane Katrina.
    We sit before you almost 7 years to the day of one of the most 
tragic events on American soil: September 11, 2001. Following that 
event there was significant rhetoric about the failures of public 
safety communications systems and the need to improve them throughout 
the country. While there may have been small pockets of improvement in 
limited areas throughout the country, most of the rhetoric has not 
resulted in action. Today, there is still no comprehensive, next-
generation, wireless public safety solution that improves public safety 
communications Nation-wide.
    I am sure each of you can appreciate why having a secure, wireless, 
national public safety broadband network is so important. We applaud 
the willingness of the FCC to adopt this innovative approach in seeking 
a solution that does not require Federal or local government funding 
and we strongly support the creation of this network. Any review of 
major crises such as 9/11 or Hurricane Katrina shows how much the 
personal efforts and effectiveness of our Nation's first responders--
police, firefighters, emergency medical personnel, and others--are 
diminished or undermined when the communications infrastructure that 
supports our efforts fails or is insufficient for the needs of the 
public safety professionals. Just like consumers, public safety can 
benefit from wireless broadband technology, but we also need a network 
that is hardened to withstand catastrophes, that has power support for 
individual communications sites, satellite back-up and other important 
features so that it will be available and reliable in a crisis. And it 
must be available wherever we ask our first responders to go. We also 
need a network that uses one common technology standard so the dozens 
of separate groups making up our Nation's first responders in any area 
at any given time can communicate with each other. Establishing and 
building out the public safety broadband network will be a significant 
challenge, but it is one that very much needs to be done to meet our 
national security and public safety needs for years to come.
    The PSST commends the city of New York for putting together the 
essential ingredients that have permitted it to deploy an advanced 
broadband network. If New York's access to funding could be replicated 
throughout the rest of the country, we would be facing a much less 
challenging future. Unfortunately broadband funding is lacking for 
almost all other local and State jurisdictions and history has proven 
that it will take a national effort to create Nation-wide seamless 
interoperability. We also know that an approach other than reliance on 
public financing is the only way to ensure sufficient, sustainable 
funding for a Nation-wide, broadband public safety-grade network and to 
keep it refreshed and continually updated. Indeed, the public safety 
broadband network will be an important tool in rural America just as it 
will be in major metropolitan areas.
    Fortunately, the FCC has proposed an innovative model--a public 
safety/commercial partnership between the D Block licensee and the PSST 
serving as the Public Safety Broadband Licensee, that will join the 
interests of business and public safety. This partnership will permit 
emergency responders in metropolitan, suburban and rural areas to take 
full advantage of current and future telecommunications discoveries 
that otherwise would be limited to commercial applications. It will 
mean that, finally, we will have the communications capabilities and 
interoperability needed to protect our communities no matter the scale 
of the disaster.
    For a public servant like me, who has been focused on improving 
emergency responder communications and preparing for disasters, I am 
convinced this partnership promises to deliver the network and 
communication capabilities the public safety community has long needed. 
But this kind of network requires a serious commitment from both a 
public and private partner if it is to be financed, built, operated, 
maintained and upgraded over time. Both sides--public safety and 
commercial--must be flexible as we embark together on this entirely 
new, historic undertaking.
    The recent comments filed at the FCC on the D Block from companies 
like U.S. Cellular, Ericsson, Sprint Nextel and others are a very 
promising sign that those who know what is needed to make a wireless 
network commercially viable believe that the D Block/PSST partnership 
can succeed. They have proposed some intriguing concepts that deserve 
further investigation by the FCC. These ideas recognize that our old 
model for building public safety systems, individually and relying on 
Government funding, will not work for a network of this scale and 
ambition. The PSST will continue to work with them and with others who 
have a genuine commitment to the public safety/commercial partnership 
in exploring creative approaches to this challenging, but absolutely 
essential, endeavor.
    The PSST is working very closely with the organizations that come 
under the umbrella of the National Public Safety Telecommunications 
Council and others to take a hard look at public safety requirements. A 
broadband network that doesn't go beyond what is available commercially 
today, in terms of coverage, capability, and reliability, would be a 
poor use of public safety's 10 MHz of broadband spectrum. On the other 
hand, we understand that we need to weigh our vision of an ideal 
network against the ultimate reality test--that there may be no Nation-
wide interoperable broadband network unless commercial and public 
safety interests come into alignment. The technical standards the PSST 
proposed in its last FCC filing represented our best thinking at that 
time, but we remain open to discussing the right balance of technical, 
operational and, indeed, economic elements for public safety and for 
commercial users.
    The FCC, the PSST and others who are committed to the success of 
this partnership have the dedication and the knowledge to make it work. 
What we do not have is the luxury of time. The D Block spectrum and the 
FCC's vision of a public safety/ commercial partnership that delivers 
mobile interoperable broadband communications for public safety users--
and also brings increased broadband capabilities to commercial users 
throughout the country--is the right idea at the right time. We cannot 
come this close and let slip away what is a once in a lifetime 
opportunity to address the communications requirements of the Nation's 
emergency responders.
    We were disappointed that the D Block did not attract a winning bid 
in the 700 MHz auction concluded earlier this year. We had hoped by 
this time to have concluded the negotiation of a Network Sharing 
Agreement (NSA) with the winning D Block bidder and be embarking on the 
network deployment. Instead, we find ourselves in the midst of working 
toward a re-auction of the D Block spectrum, trying to find the 
approach that will enable the auction to be successful and also 
preserve requirements that will result in a network designed to deliver 
genuinely needed up-to-date, affordable and interoperable broadband 
communications capabilities to our country's first responders. The PSST 
has been working with the FCC as the FCC develops the rules for a 
follow-on D Block auction which will result in a winning bidder and 
furthermore meet the critical communications needs of the public safety 
community. The PSST intends to take advantage of the opportunity 
offered by the new auction to continue to make information available, 
to engage in a dialog with interested bidders, and to make sure its 
goals are consistent with the public policy objectives of the Congress 
and the FCC.
    We cannot let this re-auction fail. If it does, then the individual 
Federal, State and/or local government agencies will be the only 
remaining source of the substantial funding needed to construct and 
operate a modern, dedicated, Nation-wide broadband communications 
network for public safety use. In today's economic climate, that would 
likely pose overwhelming challenges and no doubt result in 
balkanization of first responder communications capabilities around the 
country. I respectfully ask the members of this subcommittee to help us 
ensure that failure is not an option in a D Block re-auction.
    As you may know, the 700 MHz auction far exceeded expectations in 
terms of revenue raised, netting nearly $20 billion for the Treasury, 
well above the $10.2 billion revenue target reflected in the Deficit 
Reduction Act of 2005. That performance should set to rest concerns 
regarding the possible undesirable budgetary impacts that could be 
associated with setting aside spectrum to craft a solution for public 
safety's critical communications needs.
    We in the public safety community have come a long way in the last 
year--with the help of many of you here in Congress and of the FCC--to 
be in a position to play a constructive role in crafting a viable 
solution to our long-standing mobile communications problems. In June 
2007, the Public Safety Spectrum Trust was formed and now holds the 
Public Safety Broadband License. The Trust has accomplished a lot 
without any Government funding and we have embraced the concept of 
sharing the use of spectrum, and sharing a network, with a commercial 
provider, with the understanding as set forth in the FCC's order that 
public safety portions of the network will be under public safety's 
control.
    The FCC's Second Report and Order assigns important tasks to the 
PSST as the public safety broadband licensee to ensure that the needs 
of first responders are met. These tasks include working with the D 
Block auction winner(s) to develop and construct a seamless network 
that meets public safety's critical communications needs, both at the 
outset, over the entire term of the license, and into the future. For 
example, the FCC specifically assigned the PSBL responsibility to 
approve, in consultation with the commercial operator(s), equipment and 
applications used by public safety entities on the shared network. 
Public safety's needs, and technology available to meet those needs, 
will not remain static. There will be a continuing need for input from 
the public safety community with regard to network upgrades being 
implemented by the commercial operator(s) (as all commercial operators 
know, networks must be continually maintained and upgraded). We see the 
PSST in an on-going role as the public safety Ambassador and united 
voice in these matters.
    There is also a very important role to be played with respect to 
the public safety community itself, to educate first responders and 
assist them in making the transition from the old reliance on voice-
only communications to the broadband future. There are hundreds of 
public safety organizations around the country, and many have a strong 
need for support by someone who understands public safety and can 
explain how and why to embrace this new network. Additional FCC-
assigned responsibilities include oversight and implementation of the 
relocation of narrowband public safety operations and reviewing 
requests for wideband waivers.
    Finally, priority communications for public safety--expressed in 
the concept adopted by the FCC of preemption of spectrum on the network 
when public safety needs require it--has to be implemented in an 
effective and responsible manner by an organization rooted in public 
safety. No priority system of the type envisioned by the FCC order 
exists today, and a lot of effort is being devoted by the PSST to 
develop this priority system and adopt procedures dedicated to it being 
used effectively and appropriately by public safety.
    To meet these responsibilities, the Public Safety Broadband 
Licensee needs a clear and appropriate source of funding. The FCC order 
did not identify funding for the non-profit entity selected by it to 
serve as the Public Safety Broadband Licensee. There is no allocation 
in existing law for the funding to meet the PSST's needs. Although many 
core public safety organizations have contributed the time and 
knowledge of their executives and managers to assist the PSST, those 
organizations are challenged to meet their own budgetary needs, and 
cannot provide meaningful financial support to the PSST.
    In the total absence of conventional funding alternatives, the PSST 
has made the suggestion that the commercial D Block operator(s), which 
will be using for its/their own commercial purposes and profit a 
significant portion of the spectrum allocated to public safety, be the 
primary source of that support by making a lease payment to the PSST 
for the spectrum it will be leasing from the PSST. The FCC order 
envisions that the use of public safety spectrum by the commercial D 
Block operator will be under a lease, and we have suggested that there 
be a lease payment, as there would be for any lease, that is reflective 
of the value of the public safety spectrum the commercial D Block 
operator will be using. The PSST is concerned by recent media reports 
that the FCC plans to cap funding for the PSST at $5 million per year 
in the forthcoming proposed rules. As we have repeatedly pointed out, 
since it was organized, the PSST has been hampered with a lack of 
funding. While the PSST does not object to the FCC considering a cap, 
we believe it is premature to determine the amount of the cap until it 
is known how many private partners we may face following the auction 
and to more fully understand the complexity of the role of the PSST and 
the tasks before it.
    We also understand that it is our role in the process to be the 
advocate for the needs of the public safety community. Public safety 
users need broader network coverage than is commercially available and 
they need ``higher than commercial'' levels of network reliability, 
survivability and redundancy. All of these things cost money that a 
commercial wireless operator would just as soon not spend, and it is 
the reason these things are not available to the public safety 
community today. Striking that right balance is the challenge we are 
faced with today.
    So where do we go from here? We agree with the conclusions 
expressed by many Members of Congress and FCC Commissioners that the D 
Block auction rules need to be modified in ways that should produce a 
successful re-auction. We are grateful that the position of the FCC and 
Congress recognizes public safety's needs for a modern, Nation-wide, 
interoperable communications solution as in the best interests of our 
Nation, and a step that is long overdue. We continue to support the 
FCC's conclusion that a public safety/commercial partnership, shared 
network approach, in the absence of significant Federal funding, 
presents the best near-term potential solution.
    Certain aspects of the rules that were applicable to the D Block 
have been cited as possible reasons for the absence of a satisfactory 
auction outcome. Among them was the possible forfeiture of the down 
payment amount if no mutually acceptable Network Sharing Agreement 
(NSA) is reached, the perception that the D Block's reserve price was 
set too high, and the claim that the PSST's intention to seek an annual 
spectrum lease payment drove potential bidders away. Let me be clear on 
these issues:
    (1) The PSST supports the elimination of a forfeiture penalty 
        absent an FCC finding of bad faith. We did not seek a penalty 
        to tip the negotiating balance in our favor and we have no 
        desire to create undue risk for D Block bidders.
    (2) With regard to the reserve price, the PSST believes the focus 
        should be on making long-term mission critical communications 
        capabilities available to members of the public safety 
        community Nation-wide. We realize that the public safety 
        objective needs to be balanced with charging a fair price for 
        the D Block spectrum, but we strongly support a mechanism for 
        ensuring that the next auction does not fail, and that whatever 
        reserve price is established for the D Block should reflect 
        that most important public interest objective.
    (3) Now, it is a fact that the PSST needs a source of funding to 
        fulfill its responsibilities. Any source of funding--so long as 
        the amounts are adequate, committed and available on a timely 
        basis--will do, whether Federal grant, lease payment or 
        otherwise. What is not acceptable is that we are not provided 
        the resources to discharge our responsibilities to the public 
        safety community. Indeed, the PSST would welcome a Federal 
        grant that would assist us in conducting the important work we 
        are doing on behalf of the public safety community and the 
        citizens we serve.
    In conclusion, we in the public safety community wish to applaud 
the efforts of the Members of this subcommittee and of the Congress and 
of the FCC Commissioners and staff for their support of the public 
safety broadband network and the public safety/commercial partnership 
approach. We solicit your help and support in transforming FCC Chairman 
Kevin Martin's statement ``My [D Block] proposal will help the 
Commission ensure that public safety keeps pace with the advances in 
communications and gives first responders the broadband capabilities 
they need to protect safety of life and property of the American 
public,'' into a reality. Commissioner Michael Copps echoed Chairman 
Martin's policy sentiments on this topic, supplying the sense of 
urgency as well: ``The challenge is to make sure that this network 
actually works for public safety. To me, this means it is built to 
public safety standards and that its effectiveness cannot be curtailed 
by commercial decisions. We cannot--we simply cannot--fail.''
    We look forward to working with this subcommittee to make the 
public safety broadband network a reality in the near future. You can 
count on us for flexibility, focus on solutions and dedication to our 
one goal--an effective broadband communications network available to 
meet the needs of public safety in providing critical first responder 
services to our Nation.

    Mr. Cuellar. Thank you very much for your testimony.
    I now recognize Mr. Carlson to summarize his statement for 
5 minutes.

  STATEMENT OF LE ROY T. CARLSON, JR., CHAIRMAN OF THE BOARD, 
                         U.S. CELLULAR

    Mr. Carlson. Thank you, Chairman Cuellar, Ranking Member 
Dent, Chairman Thompson, and the distinguished Members of the 
subcommittee for inviting me to appear here today. I am Ted 
Carlson, chairman of the board of the United States Cellular 
Corp.
    Under a reasonable approach to the 700 MHz D Block, U.S. 
Cellular would be ready, willing and able to provide parts of 
the next-generation Nation-wide interoperable broadband network 
under a partnership of public safety agencies and commercial 
operators.
    The Auction 73 rules were a barrier against bidding on the 
D Block license for our company and for many others. License 
areas based on States or existing public safety planning areas 
will help meet the goals of Congress and the FCC. U.S. Cellular 
today operates as part of a national interoperable network of 
networks.
    We offer national service plans through roaming 
arrangements with other carriers, we coordinate call handoffs 
with many neighboring carriers, and our engineers participate 
in industry standard-setting bodies. We are prepared to play a 
significant role by operating part of a shared wireless 
broadband network meeting the needs of public safety for 
Nation-wide interoperable services.
    Auction 73 showed that there is large unmet demand for 700 
MHz spectrum. Future competition in broadband services depends 
on making the D Block available to a variety of commercial 
operators. In conjunction with partners, U.S. Cellular has been 
an active participant in recent spectrum auctions, yet with our 
own networks covering only about 15 percent of the Nation's 
population, a national license for the D Block was beyond our 
reach financially and operationally.
    In the reauction of this spectrum, a national license would 
again be a bridge too far for us and for many other wireless 
operators. Instead, license areas corresponding to State 
boundaries, or the 55 public safety regional planning committee 
areas, offer a much better fit to our capabilities. The FCC's 
technical framework and the network-sharing agreement will 
ensure that area licensees provide Nation-wide 
interoperability.
    A common interface standard and Nation-wide technology 
platforms will coordinate and integrate the networks. Area 
licenses, we believe, offer several important advantages. 
First, they will draw the interest of many more operators. As 
shown in the 700 MHz auction held earlier this year, demand for 
smaller area licenses of the A and B blocks was far more 
intense and involved many diverse bidders compared to the mega 
regions of the C and D blocks. Greater demand for small area 
licenses will result in greater willingness of commercial 
operators to meet the network and service needs of public 
safety agencies, and will also result in more active bidding.
    With smaller area licenses, operators already serving part 
of a license area can build on their existing network 
infrastructure and operations, making commercial opportunities 
to partner with public safety more attractive. Existing 
operators can also build on their current relationships with 
public safety agencies in such areas.
    Second, smaller area licensees we believe will be more 
responsive to the varying needs of public safety agencies. 
State agencies and many public safety regional planning 
committees have been actively coordinating wireless services to 
their local public safety users for several years. Having 
licenses correspond to these existing public safety 
coordinators will promote effective uses of the newly available 
700 MHz spectrum.
    Third, with multiple operators building smaller area 
networks, network deployment will be faster and more extensive 
than under a Nation-wide licensee approach. More areas will be 
constructed simultaneously, as the financial strength of many 
operators is harnessed to get the job done.
    Other advantages of area licenses include more innovation 
and services in operations, less risk from failure of a single 
operator, and more competition in commercial services. We 
believe that each smaller area license can be successfully 
auctioned. The auction rules must, however, not undermine 
bidders who prefer smaller area licenses. If the FCC offers a 
Nation-wide license as well as area licenses, the FCC's method 
for comparing bids in its rule on coverage requirements must 
not create a bias favoring a Nation-wide bidder.
    We believe the area licensing approach is manageable. We 
have suggested a committee that would coordinate with the FCC 
and the Public Safety Spectrum Trust, a national committee of 
the licensees. Thank you for this opportunity to appear.
    [The statement of Mr. Carlson follows:]
              Prepared Statement of LeRoy T. Carlson, Jr.
                           September 16, 2008
                              introduction
    I am Ted Carlson, chairman of the board of United States Cellular 
Corp. Under a reasonable approach to the 700 MHz D Block, U.S. Cellular 
would be ready, willing and able to provide parts of the next-
generation Nation-wide, interoperable broadband wireless network under 
a partnership of public safety agencies and commercial operators. The 
Auction 73 rules were a barrier against bidding on the D Block license 
for our company and many others. We hope that the rules for re-auction 
of this spectrum will allow us to play a role in this important and 
challenging opportunity by providing fair bidding on area licenses. A 
network of area networks, with license areas based on States or 
existing public safety planning areas,\1\ will help meet the goals of 
Congress and the FCC for this partnership with manageable roles for 
Government, public safety agencies and commercial operators.
---------------------------------------------------------------------------
    \1\ For over two decades, the FCC has used 55 public safety 
regional planning committee areas to coordinate State and local public 
safety wireless communications, initially in the 800 MHz band and then 
also for 700 MHz narrowband spectrum.
---------------------------------------------------------------------------
    U.S. Cellular is the sixth-largest mobile operator in the United 
States, serving over 6.2 million customers in urban, suburban, and 
rural markets in 26 States. We provide award-winning call quality as 
recognized in six consecutive J.D. Power awards. U.S. Cellular is proud 
to satisfy many public safety needs currently--hundreds of State and 
local public safety agencies subscribe to our services, we have 
deployed E911 service to over 1,000 PSAPs, and we participate in the 
Wireless AMBER Alerts Initiative. Also, U.S. Cellular operates as part 
of a national, interoperable network of networks--we offer national 
service plans through roaming arrangements with other carriers, we 
coordinate call handoffs with many neighboring carriers, and our 
engineers participate in industry standards bodies.
    We are prepared to play a significant role by operating part of a 
shared wireless broadband network meeting the needs of public safety 
for Nation-wide, interoperable services. This approach to the D Block 
will serve the public interest. Competitive operators will efficiently 
use the D Block as well as excess capacity in the public safety 
spectrum. A shared network will benefit public safety agencies through 
economies in network infrastructure and operations, while providing 
added capacity in emergencies. Moreover, Auction 73 showed that there 
is large unmet demand for 700 MHz spectrum; future competition in 
broadband services depends on making the D Block available to a variety 
of commercial operators. Finally, while not a decisive factor, 
auctioning the D Block auction may yield substantial revenues to the 
U.S. Treasury.
    In conjunction with partners, U.S. Cellular has been an active 
participant in recent spectrum auctions. Yet, with our own networks 
covering only about 15 percent of the Nation's population, a national 
license for the D Block was beyond our reach financially and 
operationally. In the re-auction of this spectrum, a national license 
or even one of the mega-regions would again be a ``bridge too far'' for 
us and many other wireless operators. Instead, license areas 
corresponding to State boundaries or the 55 public safety regional 
planning committee areas offer a much better fit to our capabilities 
and the public safety goals of the D Block.
                     area licensing for the d block
    The FCC's technical framework and the Network Sharing Agreement 
(NSA) will ensure that area licensees provide Nation-wide 
interoperability. A common air interface standard and Nation-wide 
technology platforms will coordinate and integrate the networks.
    Area licenses will offer several important advantages. First, they 
will draw the interest of many more operators. As shown in the 700 MHz 
auction held earlier this year, demand for smaller area licenses of the 
A and B Blocks was far more intense, and involved many diverse bidders, 
compared to the mega-regions of the C and D Blocks. Greater demand for 
smaller area licenses will result in greater willingness of commercial 
operators to meet the network and service needs of public safety 
agencies, and will also result in more active bidding. With smaller 
area licenses, operators already serving part of a license area can 
build on their existing network infrastructure and operations, making 
the commercial opportunities to partner with public safety more 
attractive. Existing operators can also build on their current 
relationships with public safety agencies in such areas, making the 
partnerships more successful for all parties.
    Second, smaller area licensees will be more responsive to the 
varying needs of public safety agencies. State agencies and many public 
safety regional planning committees have been actively coordinating 
wireless services to their local public safety users for several years. 
Having licenses correspond to these existing public safety coordinators 
will promote effective uses of the newly available 700 MHz spectrum for 
the public/commercial partnership.
    Third, with multiple operators building smaller area networks, 
network deployment will be faster and more extensive than under a 
Nation-wide or mega-region licensee approach. More, and more diverse, 
areas will be constructed simultaneously as the financial strength of 
many operators is harnessed to get the job done. Other advantages of 
area licenses include more innovation in services and operations, less 
risk from failure of a single operator, and more competition in 
commercial services.
    U.S. Cellular believes that each smaller area license can be 
successfully auctioned. The A and B Blocks in Auction 73 attracted 
vigorous bidding, including for low-density areas, and there are 
carriers with existing networks and operations in each area that would 
be attracted to bid.
    The auction rules must not undermine the benefits of having 
multiple operators by disadvantaging bidders who prefer smaller area 
licenses. If the FCC offers a Nation-wide license as well as area 
licenses, the FCC's method for comparing bids and its rules on coverage 
requirements must not create a bias favoring a Nation-wide bidder.
                  rules to make the auction successful
    We believe the area licensing approach is manageable for the FCC, 
the Public Safety Broadband Licensee, public safety agencies and 
commercial operators. Regardless of the license size, a successful 
auction requires that technology specifications, performance 
obligations, spectrum lease payments, principles that would govern the 
future establishment of commercially reasonable rates for public safety 
users, and additional factors be disclosed to potential bidders before 
the auction.
    The FCC's rules should address issues such as coverage, 
reliability, public safety preemption, back-up power, security, and 
major service features. These rules must be in a commercially 
reasonable range in order to attract commercial operators to the 
partnership. In particular, the standards for population coverage and 
reliability should be achieved over the license term, and the rules 
should allow reasonable differences in build-out and performance based 
on the population density of the various license areas. See the 
attached map showing four proposed tiers for population coverage based 
on density.
    For the shared wireless broadband network, spectrum lease fees 
should help support public safety users. Commercial operators must be 
allowed to charge public safety users commercially reasonable rates. 
The competitive marketplace for wireless voice and data services has 
shown that public safety agencies do get commercially justifiable 
discounts when they make substantial commitments to use a network. On 
the other hand, forcing carriers to charge below-cost rates for public 
safety users would create incentives not to attract or satisfy these 
customers, and would create economic inefficiencies and controversies 
over who qualifies for these below-cost rates. Therefore, broad 
principles with regard to commercially reasonable rates must be adopted 
before the auction.
    After the auction, each licensee would sign the NSA which would 
reflect the FCC's rules and principles, and would add any further terms 
and conditions that comply with the FCC's order. An area's public 
safety agencies and operator could discuss and agree on area-specific 
modifications to the NSA consistent with the national technical and 
service specifications. These modifications could reflect local 
priorities, operating conditions and service needs. Under no 
circumstances would modifications be allowed that would undermine 
Nation-wide interoperability.
    A national committee of all area licensees, or NCAL, would elect a 
few national officers to work directly with the FCC and Public Safety 
Broadband Licensee in monitoring and, if needed, updating the NSA. This 
single point-of-contact with the licensees would facilitate maintenance 
of state-of-the-art standards for the network and services. Every 
licensee would be required to participate in and be governed by the 
decisions of the committee of licensees.
    U.S. Cellular believes that this approach to re-auctioning the D 
Block is much more likely to succeed than either a national license or 
an RFP model. An RFP model would entail delays for use of this spectrum 
by public safety and commercial entities. RFPs would involve open-
ended, hugely complex and detailed submissions, and time-consuming 
evaluations. Many potential operators would be deterred by the costs, 
uncertainty, and low transparency of an RFP model. An RFP approach may 
require legislation and generate litigation. The FCC's spectrum 
auctions have been widely praised as a huge advance over the 
comparative hearings of the first round of cellular licenses. The FCC 
should seek to improve on how it auctions the D Block, by adopting pre-
auction specifications and smaller area licenses. The FCC should build 
on the clarity and speed of auctions and not return to the morass of 
RFPs and comparative hearings.
                               conclusion
    U.S. Cellular has advocated a solution to address many of the goals 
and issues of the public/commercial partnership for the 700 MHz D 
Block. Commercial operators should be able to use this spectrum to 
benefit commercial as well as public safety users. Smaller area 
licenses, ideally based on State boundaries or public safety regional 
planning committee areas, will help achieve a Nation-wide, 
interoperable network of networks that is sensitive to the needs of 
public safety. The auction rules should give smaller bidders a fair 
opportunity to win these area licenses, which will lead to a stronger 
shared broadband network.
    The technical and service issues are manageable for the FCC, the 
Public Safety Broadband Licensee and commercial carriers. In order to 
attract commercial bidders, the FCC's rules must provide certainty 
before the auction on key network and service factors. Reasonable 
spectrum lease fees should help support public safety users of this 
network. By establishing broad principles for the rates charged to 
public safety users, the FCC can ensure that the NSA contains 
commercially reasonable rates and terms, including discounts reflecting 
public safety agencies' commitments to use the network. This approach 
will likely lead to a successful auction for licenses in all areas, 
followed by rapid deployment of a strong, interoperable shared wireless 
broadband network.
    Thank you.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Cuellar. Thank you, Mr. Carlson.
    At this time I would like to recognize Mr. LeGrande to 
summarize his statement for 5 minutes.

  STATEMENT OF ROBERT LE GRANDE, II, FORMER CHIEF TECHNOLOGY 
                 OFFICER, DISTRICT OF COLUMBIA

    Mr. LeGrande. Thank you, sir. Good afternoon, Mr. Chairman 
and Members of the subcommittee. My name is Robert LeGrande, 
and I am the former chief technology officer with the District 
of Columbia Government and former program executive for the 
National Capital Region's interoperability program. In this 
role, I led the District's land mobile radio network upgrade, 
and as a result the District of Columbia's first responders 
have one of the best interoperable land mobile communications 
systems in the country.
    In addition, I also led the development of the Nation's 
first city-wide 700 MHz broadband wireless network for first 
responders. This pilot network is considered a model for the 
Nation, and serves as a test bed for how applications can be 
shared securely among public safety agencies.
    I recently resigned from the District of Columbia and 
formed LeGrande Technical and Social Services. My firm 
leverages lessons learned in the District to deliver similar 
high-quality technology solutions and services for governments 
and commercial clients throughout the country and abroad. In 
this role, I continue to support public safety in the 
development of the national 700 MHz broadband wireless network, 
and I appreciate the committee's on-going efforts to address 
this critical issue.
    Thank you for the opportunity present my views on 
``Interoperability in the Next Administration: Assessing the 
Derailed D Block Public Safety Auction.'' Given the complexity 
of this issue and the time allotted, I will keep my comments 
brief and focused on three key areas: What can we learn from 
what went wrong, what are we doing about it today, and what can 
we do today to ensure success tomorrow?
    I have noted three lessons learned of what we can learn 
from what went wrong. First, as John mentioned earlier, we 
really need to fund the PSST. The job of figuring out how to 
solve America's most pressing communication problem by 
leveraging a complex public-private solution is hard enough. 
Trying to accomplish this while finding funding drains the 
PSST's resources and reduces their ability to focus on the real 
issue, which is public safety communications.
    Second, we must as you said earlier, ma'am, you must also 
have a backup plan. Thirteen months have passed since the rules 
were set in place for the national network, and these rules 
prohibited States and local jurisdictions from deploying and 
operating their own 700 MHz networks using standard 
commercially available technologies. In other words, we put all 
of our eggs in one basket. As a result of the failed auction, 
we are in a worse place than we were 13 months ago. We are 
worse because of the need and the drive toward broadband 
communications for first responders has not stopped, and as a 
result, States and local jurisdictions are either deploying 
non-700 MHz networks or leveraging commercial networks. In 
other words, the eggs are leaving the basket.
    Third, one size may not fit all. Several large 
jurisdictions, such as New York and others, have stated their 
desires to build and operate their own private 700 MHz 
broadband networks, which would seamlessly interoperate with 
the national or regional commercial networks.
    Now, it appears that in the proposed forthcoming further 
notice for proposed rulemaking that this issue continues to be 
ignored. Now, I believe disregarding the views of cities and 
jurisdictions hardest hit by terrorists and national disasters 
is just simply not sound policy. What are we doing about it 
today?
    Well, based largely on the reports, and I think we had 
heard some testimony earlier, it appears that we are offering 
the commercial market the same basic opportunity as we did 
before, with a few exceptions.
    First, we will allow an option to do a regional commercial 
auction option, and continue to offer at the same time a 
national licensee option. Second, we are lowering the reserve 
price. Third, we are lowering the public safety requirements.
    Now, I am confident that someone can take advantage of this 
offer, but what will public safety get? In my view, public 
safety will either get a national commercial network or 
regional commercial networks. Either way, public safety users 
will likely pay $48.50 per month per user for commercial 
services, with some public safety priority. Public safety will 
have given away $2 billion of radio frequency spectrum and will 
get what we seemingly already have in return, which is a 
commercial network. We will have also disenfranchised several 
public safety customers who have already pledged to use 
different services. Worse, we would have divided the public 
safety marketplace among the commercial carriers.
    There is a reason why I say that. Commercial carriers will 
likely make priority adjustments in their networks and continue 
to compete for that business. If they are successful, which 
likely they will be, the Nation's first responder 
communications will be split among the carriers. This is not 
win, win, win. This is win, win, lose.
    Now, the FCC will win because it would have righted the 
wrong of the first auction. The commercial industry, however, 
will win because they found they were able to purchase some of 
the best available spectrum at market value or below market 
value. Public safety will lose because it didn't gain the full 
return off of its investment of $2 billion of radio frequency 
spectrum.
    Now, what can we do today to ensure success tomorrow? We 
should first fund the PSST. We should fund also State and local 
governments to deploy and operate networks using standardly 
available technologies in advance of the national and regional 
deployments. This will give immediate relief to jurisdictions 
who need to start today. In other words, we will be getting 
everyone all in the same swim lane, and swimming in the same 
direction.
    This will also restart the public safety broadband 
technology device and applications marketplace. When the 
national regional network is prepared to deploy and operate in 
an early deployment jurisdiction, the jurisdiction should be 
compensated for its network assets and turn over operations to 
a national or regional licensee. This acts as a backup plan, 
which we mentioned we needed earlier in the event the second 
auction fails.
    Three, we also are not ready for new rules. In last month's 
FCC's En Banc hearing, we had more questions than we had 
answers. We should take more time to comprehensively evaluate 
the best possible solution, leveraging the capabilities of 
investment from the Federal, State, and local government.
    Now, one disturbing fact that keeps getting ignored is that 
the Federal Government is working on a completely separate 
communications solution. Now, during Katrina, the attacks of 9/
11, and most recently the tragic hurricanes of this year, we 
deployed comprehensive Federal, State, and local responses. 
Shouldn't we empower our responders with a comprehensive 
communications system? We have the time to find a better way, 
and my recommendation is that we take it. Thank you for your 
time.
    [The statement of Mr. LeGrande follows:]
               Prepared Statement of Robert LeGrande, II
                           September 16, 2008
    Good afternoon Mr. Chairman and Members of the subcommittee. My 
name is Robert LeGrande and I am the former Chief Technology Officer of 
the District of Columbia Government and former Program Executive for 
the National Capitol Region's Interoperability Program. In this role, I 
led the District's Land Mobile Radio (LMR) network upgrade and, as a 
result, the District of Columbia's First Responders have one of the 
best interoperable LMR communications systems in the country. In 
addition, I also led the development of the Nation's first city-wide 
700 MHz broadband wireless network for first responders. This pilot 
network is considered a model for the Nation (http://www.ntia.doc.gov/
ntiahome/press/2007/WARN_060807.html) and serves as a test bed for how 
applications can be shared securely among Public Safety agencies.
    I recently resigned from the District of Columbia and formed 
LeGrande Technical and Social Services, LLC. My firm is leveraging 
lessons learned in the District to deliver similar high-quality 
technology solutions and services to Government and commercial clients 
throughout the country and abroad. In this role, I continue to support 
Public Safety in the development of the national 700 MHz broadband 
wireless network.
    I appreciate the committee's ongoing efforts to address this 
critical issue and thank you for the opportunity to present my views on 
``Interoperability in the Next Administration: Assessing the Derailed D 
Block Public Safety Spectrum Auction''. Given the complexity of this 
issue and time allotted, I will keep my comments brief and focused on 
three key areas: What can we learn from what went wrong, what we are 
doing about it today, and what can we do today to ensure success 
tomorrow?
                what can we learn from what went wrong?
    I have noted 3 lessons learned:
    (1) We must fund the PSST.--The job of figuring out how to solve 
America's most pressing communication problem by leveraging a complex 
public/private solution is hard enough . . . Trying to accomplish this 
while finding funding drains the PSST's resources and reduces their 
ability to focus on the real issue: Public Safety Communications.
    (2) We must have a backup plan.--Thirteen months have passed since 
the rules were set in place for the national network. These rules 
prohibited States and local jurisdictions from deploying and operating 
their own 700 MHz networks using standard commercially available 
technology. We ``Put all of our eggs in one basket'' (reference 
LeGrande Testimony 08-16-08 Attachment 1.0), and, as a result of the 
failed auction, we are in a worse place then we were 13 months ago. We 
are worse because the need and drive toward broadband communications 
for first responders has not stopped and, as a result, States and local 
jurisdictions are either deploying non-700 MHz broadband networks or 
leveraging commercial networks. ``The eggs are leaving the basket''.
    (3) One size may not fit all.--Several large jurisdictions have 
stated their desires to build and operate a private 700 MHz broadband 
network which would be seamlessly interoperable with a national or 
regional commercial networks. It appears that in the forthcoming 
``Further Notice For Proposed Rule Making'', this issue continues to be 
ignored. Disregarding the views of the cities and jurisdictions hit 
hardest by terrorist and natural disasters is not sound policy.
                   what are we doing about it today?
    Based largely on press reports, it appears that we are offering the 
commercial market the same basic opportunity with a few exceptions. (1) 
We will allow a regional commercial auction option and continue to 
offer a national licensee option. (2) We are lowering the reserve 
price. (3) We are lowering the Public Safety requirements. I'm 
confident someone will take advantage of this offer, but what will PS 
get? My view: PS will either get a new national commercial network or 
new regional commercial networks. Either way PS users will likely pay 
$48.50 per user per month for commercial services with some PS 
priority. PS will have given $2 billion radio frequency spectrum; and 
will get what we already have in return. We will have also 
disenfranchised several PS customers, who have already pledged to use 
different services, and, worse, we will have divided the PS marketplace 
among the commercial carriers. Carriers will likely make PS priority 
adjustments in their networks and continue to compete for PS business. 
If they are successful, the Nation's first responder's communications 
will be split among carriers. This is not win-win-win, this is win-win-
lose, the FCC will win because it has righted the wrong of the first 
auction; the commercial industry will win because it will have 
purchased some of the best available radio frequency spectrum well 
below the market value, and PS will lose because it did not gain a full 
return off of its investment of $2 billion in radio frequency spectrum.
            what can we do today to ensure success tomorrow?
    (1) We should fully fund the PSST. (2) We should fund and allow 
State and local governments to deploy and operate networks using 
standard commercially available technologies in advance of the 
national/regional network deployments. This will give immediate relief 
to the jurisdictions who need to start now; while keeping them all in 
the same ``swim lane'' and swimming in the same direction. This will 
also re-start the PS broadband technology marketplace, and thereby get 
us on the path to test and refine PS broadband wireless devices and 
applications. When the national or regional network is prepared to 
deploy and operate in that ``early deployment'' jurisdiction, the 
jurisdiction should be compensated for its network assets and turn over 
operations to the national or regional licensee. This also acts as a 
backup plan in the event that the second auction fails . . . (3) We are 
not ready for new rules . . . In last month's ``FCC En Banc'' hearing, 
we had more questions than we had answers. We should take more time to 
comprehensively evaluate the best possible solution leveraging the full 
capabilities and investment from Federal, State and local governments, 
public safety associations as well as private industry. One disturbing 
fact that is being ignored is that the Federal Government is working on 
a completely separate communications solution.
    During Katrina, the attacks of 9-11, and, most recently, the 
hurricanes of 2008; we deployed comprehensive Federal, State and local 
responses. Shouldn't we empower the responders with a Comprehensive 
Communications System? We have time to find a better way, and we should 
take it.
    In summary, I recommend that:
The FCC:
  <bullet> Grant permission for early deployment operations;
  <bullet> Ensure reimbursement to jurisdictions that deploy early once 
        the national or regional licensee takes over operations;
  <bullet> Establish an accelerated waiver process;
  <bullet> Take more time to find a comprehensive win-win-win solution 
        for the national/regional network.
The Congress:
  <bullet> Fully fund the PSST;
  <bullet> Provide funding to help jurisdictions finance early 
        deployments.
The PSST:
  <bullet> Grant permission for early deployment operations.
    I sincerely appreciate the opportunity to share my recommendations 
and the committee's continued work on addressing this issue. I'm happy 
to answer any questions you may have. Thank you.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Cuellar. Thank you for your testimony, Mr. LeGrande.
    At this time I would like to recognize Chief Dowd for his 5 
minutes, to summarize his statements in 5 minutes.

 STATEMENT OF CHARLES F. DOWD, DEPUTY CHIEF, CITY OF NEW YORK, 
                       POLICE DEPARTMENT

    Mr. Dowd. Good morning, Mr. Chairman. Good to see you 
again, and Members of the committee. In listening to the 
testimony today, and I am going to leave my prepared statement, 
one of the things that glaringly has been left out here is the 
fact that the FCC already has an unfunded mandate out there for 
every public safety entity or agency in this country to retool 
their radio systems for spectrum efficiency, most commonly 
referred to as narrow banding. So when you hear comments about, 
you know, where is public safety and where is everybody going 
to get the funding, well, they have already been required to do 
that by the FCC on the voice side of things.
    They have to narrow band their systems or find a spectrally 
efficient voice solution, mission-critical voice solution, in 
order to meet that requirement that the FCC has mandated, by 
2013. Rather than doing that, what New York City and every 
other major city in the country so far--and by the way, we had 
a conference call yesterday with just about every other major 
city--I could list them for you if you want--believes that the 
solution for both things here, for the data and for voice is a 
broadband network. But it needs to be a network of networks.
    Now, David Boyd is right when he says, you know, the legacy 
systems are not going to go away right away, and you need to 
address interoperability concerns. But if you want to be truly 
interoperable, the solution is a network of networks on the 
same technology, which we believe is broadband, and every other 
major city agrees with us, for both data and mission-critical 
voice.
    So at the end of the day, when you hear comments like, you 
know, they can't fund it, where is the little guy going to get 
the money, the little guy has to get the money now. They have 
to narrow band now. So why invest that money in antiquated 
technology when we should be looking toward broadband 
technology for a full solution?
    The national model, in our view, will not work. When I say 
in our view, I am not talking about New York City or the NYPD, 
I am talking about every major city that we have had a 
conversation with. We don't think, based on the experience of 
New York State, which just defaulted a major manufacturer on a 
State-wide system, that even a State-wide solution from the top 
down will work. This needs to be done from the bottom up. You 
have to get buy-in from public safety that these systems will 
be reliable and will provide the kind of coverage that they 
need.
    We predicted in testimony in front of the FCC back in July 
that one of the ways that it would be proposed to make this 
more palatable to attract commercial entities would be 
reduction in coverage requirements. You know, as Derek Poarch 
pointed out--who I consider a very good friend and very sincere 
in his testimony today--he discussed the fact that you never 
know where that problem is going to be. You know, where did 
that hurricane hit? Was it going to hit in Louisiana, or did it 
hit Texas like it did a couple of days ago?
    So at the end of the day, you need coverage that is public 
safety-appropriate, not commercial-appropriate. So the notion 
that rural areas would need less coverage than urban areas just 
does not make sense from a public safety perspective. Why would 
we want to do that? The answer is nobody wants to do that that 
I have spoken to.
    There are concerns. I know APCO is deeply concerned that, 
you know, the little guys would get hurt in this scenario. What 
we are suggesting as a public safety solution in broadband, the 
little guy makes out at least as well as the big cities. If 
that spectrum is allotted to us directly, that would allow us 
or any other public safety entity to negotiate directly, if we 
decided to, to make a public-private partnership, if that is 
what you wanted to do. If you wanted to build your own system, 
you could. If you wanted a hybrid of it, you could do that.
    But to say, as some have in recent weeks, that, you know, 
the smaller agencies, public safety agencies would get hurt 
under the scenario that New York City and all the other major 
cities are proposing is just not the case. So at the end of the 
day, what we are asking is let's not rush into another auction 
to give away the best opportunity for public safety that has 
come along in a long time from a spectrum perspective. You have 
this spectrum across the country now that is available to 
public safety which would allow us to be interoperable at the 
front end.
    In other words, police officers or firefighters from New 
York City say responding now to Texas in this scenario would be 
able to take their devices and be interoperable on a broadband 
network over time. The 15-year timeline, too long. You know, we 
have already built a system in New York City. We would like to 
use that spectrum. What we are proposing this week to the FCC 
is that the NYPD and the city of New York be allowed to use the 
700 MHz system to make a proof-of-concept pilot project to 
build mission-critical voice on broadband.
    I thank you for your time, and would be happy to answer any 
questions you my might have.
    [The statement of Mr. Dowd follows:]
                 Prepared Statement of Charles F. Dowd
                           September 16, 2008
    Good morning Chairman Thompson and Members of the committee. I am 
Deputy Chief Charles F. Dowd of the New York City Police Department and 
the Commanding Officer of the Communications Division. My command 
includes responsibility for New York City 911 as well as the police 
department's radio operations, which is the largest public safety radio 
system in our Nation. On behalf of Police Commissioner Raymond W. Kelly 
and Mayor Michael R. Bloomberg, I would like to thank you for the 
opportunity to appear before you today to discuss the 700 MHz. D Block 
auction, and the importance of the Federal Communications Commission's 
actions going forward.
    The City of New York and the metropolitan area public safety 
agencies have struggled with spectrum shortages, technology issues and 
interference problems for over 30 years. Public safety agencies are 
still facing daunting technology challenges as they strive to meet the 
FCC's mandate requiring spectral efficiency. The efforts to encourage 
public safety to use their limited spectrum more efficiently have 
forced us onto a highway that only leads to limited features and 
functionality and to technology that is unproven in a complex 
environment. Public safety has always been asked to do more with less 
while commercial wireless carriers have been encouraged to develop 
feature rich systems using large blocks of clear spectrum.
    For different reasons, the commercial wireless industry and the FCC 
share the common goal of spectrum efficiency. However, the pursuit of 
that goal has led the FCC and the commercial wireless industry in 
opposite directions. Whereas the FCC has mandated a narrowband 
approach, the commercial wireless industry has embraced broadband 
technology. We believe that the broadband approach to spectrum 
efficiency is the correct approach particularly in an integrated voice 
and data network.
    Since public safety is adopting broadband technology for critical 
data communications, the next logical step is to develop mission-
critical voice capability on the same technology platform. This is the 
technology that the wireless industry has embraced. It makes sense to 
merge voice and data communications onto a single robust public safety 
network rather than to maintain two separate networks, one for mission-
critical voice and another for broadband data. It is neither fiscally 
responsible nor technically feasible to continue in the current 
direction, we will not be able to stimulate the development of this 
technology if the spectrum is not made available to public safety for 
this purpose.
    Converging voice and data applications onto a single technology 
platform in 700 MHz will also allow for greater flexibility and will be 
inherently interoperable in much the same manner as today's ubiquitous 
cell phone. Public safety should embrace new technology once it has 
been proven to meet public safety's stringent requirements, then drive 
equipment manufacturers to build feature rich devices that take 
advantage of the economies of scale enjoyed by the commercial wireless 
industry. This outcome can best be achieved by licensing the 700 MHz 
spectrum on a regional basis, and providing local jurisdictions with 
the necessary control to determine the appropriate level of public/
private partnership that meets their local needs.
    The NYPD prefers a regional direct licensing approach of the 700 
MHz spectrum to allow early deployment of systems in regions that are 
prepared to move. This encourages the development of regional systems 
using common technology to build a Nation-wide network of networks. 
Indeed, if the NYPD is not granted the flexibility and control to 
deploy new technologies in the public safety 700 MHz in the city of New 
York, this spectrum will be unavailable for public safety when the DTV 
transition is complete in February 2009. Even if the FCC's proposed 
public private partnership auction plan is successful--and there is 
significant uncertainty on this point given the failure of the last 
auction to generate even a single qualifying bid--it is unlikely that 
the commercial partner would be prepared to provide services to public 
safety before 2012 at the earliest. Moreover, as I testified before the 
FCC at its hearing in New York City, even if this network were built it 
is unlikely that the NYPD would use the shared network because it would 
not provide us with the mission-critical level of service fundamentally 
necessary for first responders.
    In the most recent NPRM reply comments from the PSST, they have 
proposed reducing the system design and priority access requirements to 
make the D Block spectrum more palatable to the commercial wireless 
industry. Public safety can not allow that to happen. Weakening of the 
standards, priority or coverage requirements will only serve to drive 
Public Safety away from the system altogether. Public Safety needs to 
maintain its more stringent requirements which cops and firefighters 
need and will expect.
    If local jurisdictions are not granted direct access to 700 MHz, to 
deploy systems now, a unique opportunity to advance public safety 
communications will be lost. Rather than utilizing this spectrum in 
February 2009, public safety agencies will be required to wait for some 
uncertain date many years in the future before they can even evaluate 
whether the proposed service meets their needs. Seven years after 9/11, 
imposing this delay on jurisdictions that are ready to move now is 
simply unacceptable.
    It is important to stress that New York is not the only 
jurisdiction desiring additional control and flexibility to define the 
terms of the public-private partnership in its own geography. The 
cities of San Francisco, Philadelphia, and Washington, DC all filed 
comments with the FCC seeking a greater degree of local control. 
Recently many other city and State public safety technology officials 
from around the country have voiced the same concerns to us regarding 
the FCC's proposal. Further, we have asked APCO International to assist 
us to engage this growing group in order to ensure that every public 
safety voice, large or small is heard on this critical issue. It is 
important to recognize that local control does not preclude broader 
public-private partnerships in jurisdictions that would benefit from a 
relationship with a commercial provider. Such an arrangement will be 
particularly advantageous in jurisdictions where there is less public 
safety demand for spectrum. Regional licensing with local control will 
also enable public safety agencies to migrate their networks onto a 
single converged voice and date communications network at their own 
pace. As different regions build out next generation wireless networks 
capable of supporting both broadband data and mission critical voice, 
public safety agencies will benefit from a single communications 
network that can be accessed using a low cost handset.
    To this end, New York City is proposing to conduct a proof of 
concept using 20 MHz of 700 MHz spectrum to determine the viability of 
next generation wireless technology for mission critical voice 
broadband communications. The goal will be to demonstrate the 
feasibility of a converged broadband mission critical voice and data 
network for first responders. If successful, the results of this effort 
could easily be applied to other jurisdictions throughout the Nation. 
To do so we need regulatory certainty that the public safety 700 MHz 
spectrum in the city of New York will not be encumbered by commercial 
carriers. We will be seeking this regulatory certainty from the FCC, 
and ask the support of this committee for this relief. Thank you for 
this opportunity to address these important issues, I will be pleased 
to answer any questions that you may have.

    Mr. Cuellar. Thank you, Chief. Again, good seeing you 
again.
    First of all, I want to thank all the witnesses for their 
testimony. I would like to remind each Member that he or she 
will have 5 minutes to question the panel. I will now recognize 
myself for questions. We have had two panels, and I think you 
all heard from Mr. Poarch and Mr. Essid and Dr. Boyd.
    What I would like to do is now, because for some of you all 
it might be the only time you have an opportunity to ask 
questions, I would like for each of you all to give me a 
question that you would want to pose to one of the gentlemen 
that I mentioned, either a question or an input. I do this, 
that you would all be directing the questions to us, and I 
would ask you to do this so we can have an opportunity, so you 
can have an opportunity to give some input or ask questions. 
For the three gentlemen, again I would ask you all or your 
staff to take some notes, and hopefully follow up on what the 
gentlemen will be asking.
    Chief, I will start off with you because I think you kind 
of did what I was planning to do. I will start off with you. Do 
you want to add anything else to Mr. Poarch or any of the 
gentlemen? I heard you give some of your suggestions, but I 
will ask each of you all to either give me questions to pose to 
them or input.
    Mr. Dowd. Well, again our belief--again, when I say ``us,'' 
you know, I am not talking about New York City, I am talking 
about a broad range of major public safety agencies and 
technology persons around the country. We believe that 
broadband technology is where all the technology is going. We 
don't see it as, you know, needing to maintain, over time, the 
narrow band legacy radio systems. We believe that mission-
critical voice can be done in broadband. We think it can be 
done and proved out in a relatively short time. That is what we 
are saying.
    So at the end of the day, what we are saying is let's not 
rush into this auction. Let's take a big step back and let's 
listen to the public safety voices that are out there that are 
voicing concerns over giving over, you know, this huge chunk of 
spectrum to commercial entities that, in our experience, really 
don't get or understand what the public safety requirements 
are.
    Don't forget, you know, when we talk about coverage, you 
know, in existing radio systems, you know, the expectation is 
that you would get coverage wherever those police or 
firefighters would have to operate, not in 90 percent. Over 
time, we believe that the data side of things, streaming video, 
photos, those things will become as important to public safety 
first responders in their initial response as any mission-
critical voice will.
    Mr. Cuellar. Are you saying that the Public Safety Trust 
doesn't speak on behalf of all the folks in your position?
    Mr. Dowd. Well, I would suggest to you that--or just state 
the fact, as I already did that, you know, every major city 
kind of disagrees with the approach. So if every major city 
disagrees with the approach, you know, I guess the question 
would be who are they talking to?
    Mr. Cuellar. All right. On that note, Mr. LeGrande.
    Mr. LeGrande. I would say first a statement and then kind 
of a question.
    Mr. Dicks. Sound.
    Mr. LeGrande. I did that again. I apologize. First a 
statement and then a question. I think everyone is working 
really hard to find a solution. But I think also that we are so 
focused on a successful auction that we may be forgetting that 
after that auction we need to make sure that we have a 
solution, and a solution that will satisfy major cities and the 
rural areas, and that we can depend on for the next generation. 
Because frankly, that is what we are talking about, a 
generational thing.
    So my point that I would make is that within the folks in 
this room, and certainly at the FCC and those who are watching 
on-line, there are other alternatives to the one that is 
currently being proposed. My question would be: Can we take a 
step back, as the Chief has asked, and let's get together and 
let's try to find the solution that is win, win, win?
    I think leveraging the commercial industry is the right 
answer. If you put all of the stuff together, all of the 
various equipment that exists right now, all the public safety 
equipment that exists now, we have already built out a network, 
quite frankly, four times over throughout the entire country. 
Now we are saying let's put a new network on top of that. I 
think the opportunity exists for us to rethink that and come up 
with a better proposal.
    Mr. Cuellar. Thank you. Mr. Carlson.
    Mr. Carlson. Yes. I think my comment would be this: that 
the Nation has waited since 9/11, all these years, to get a 
Nation-wide interoperable system started and moved forward. It 
has been my view that the FCC is very serious about moving this 
forward. We have done our best to provide detailed 
recommendations to them to help the process move forward with a 
common technology platform. We have recommended LTE because we 
think that will give public safety agencies low-cost equipment 
that can be used for big and small cities, small towns across 
the country.
    Our recommendation has recommended a buildout that would 
cover all towns down to 3,000 in size and major highways across 
the country. We think it is time to get on with building this 
network. The time has passed for talking about it. The time is 
now.
    Mr. Cuellar. But it would be 7 years from 9/11 plus another 
15, we are talking about 22 years since 9/11?
    Mr. Carlson. We, with all due respect to the FCC, we 
recommended that the network be completed in 10 years rather 
than 15.
    Mr. Cuellar. Okay. Next question or input.
    Mr. Contestabile. I think from the PSST perspective, we 
have two overarching issues or concerns, if you will. Our 
desire is that we see Nation-wide interoperability. Whether 
that can be done under a Nation-wide license or whether that 
can be done under a series of regional licenses with the same 
technology, I am not sure it matters greatly to us, frankly.
    We also would echo Mr. Carlson's comments that we would 
like to see an aggressive schedule. We think that we need to 
roll this out certainly to the urbanized areas, where the 
infrastructure lies, but also to the more rural areas as 
quickly as we can. So some incentives or ways to encourage that 
would be welcomed in our view.
    The third point I would like to make and I mentioned 
earlier, is to ensure the PSST has the funds to do its job. We 
have been asked by the FCC to fulfill certain functions. There 
are about 10 activities in the original rule that the PSST has 
to fulfill in terms of approving equipment, improving 
applications that are going to run on this network, educating 
the first responders as to what is out there and what is 
available to them. We need some funding to do that work. So, 
taking care of that.
    Last, I would mention that Chris Essid, a friend of mine as 
well, that I think one of the implications from this discussion 
is that future iterations of the State-wide plans, the SCIP 
plans need to consider how they will be interoperable with this 
national network. I think it is a little unfair perhaps to lay 
that at their feet at this juncture, not knowing what 
technology and not knowing what the architecture of that system 
is. But subsequent updates to the State-wide plans ought to be 
looking at how to be interoperable in that space. Thank you.
    Mr. Cuellar. All right. Thank you. Mr. Mirgon.
    Mr. Mirgon. You know, I sit here kind of amazed at--I mean, 
some really bright people sitting in this room. I mean some of 
the best in the Nation. There is so much said----
    Mr. Cuellar. This includes the Members on this side also, 
right?
    Mr. Mirgon. Absolutely. Absolutely.
    Mr. Cuellar. All right. Go ahead.
    Mr. Mirgon. There is so much they say that I agree with. 
Before APCO does its next filing on any further comments, we 
will be meeting with more of our members. We have got 
commitments out there to talk to them to make sure we represent 
our 16,000 members fairly and equally.
    But with that said, I keep falling back on the one single 
fallacy I believe, with some of this debate is, you know, 
APCO's been here for 75 years. We were started on the basis of 
interoperability issues. We understood this problem, you know, 
many times throughout our history. We attempted to create a 
standard for radio technology called P 25 because we saw the 
problem developing.
    What happened was--the part that we are forgetting here is 
that manufacturers come up with proprietary equipment and say 
here, buy my widget. We don't like the P 25, buy mine. The next 
thing you know you have got jurisdictions buying products that 
don't talk to each other. As much as I believe if the major 
cities can get together and establish the right protocol, there 
is clearly some interesting dialog to go on as to how you get 
there. But our experience tells us that there are too many 
people who want it my way, that there will be engineers within 
local jurisdictions that will sit there and say, gee, I like 
this guy's product better. It doesn't talk to this person over 
here, but I don't really need them.
    You know, as time and hurricanes and 9/11 gets behind us, 
people tend to forget it. This is about protecting America, 
about protecting it in an all-risk environment, from terrorism, 
from hurricane, and from all the rest. We need to look at how 
we make this equal and usable across America; that when that 
policeman is driving from New York City to Houston that he has 
got coverage in between. I will tell you, I will take you to 
sites in New York City and Washington, DC that will put to 
shame some of the cellular companies' technology on how well 
they are built, how hardened they are. I will also take you to 
places in America that public safety people in America are 
mounting stuff on telephone poles, trees, and wouldn't 
withstand a strong wind. So I believe the approach we have 
taken is the best for America to develop this, based on our 
long history of trying other things and they just haven't 
worked. Thank you.
    Mr. Cuellar. Thank you, Mr. Mirgon.
    At this time I will recognize the Ranking Member, Mr. Dent, 
from the State of Pennsylvania.
    Mr. Dent. Thank you, Mr. Chairman.
    Mr. LeGrande and Mr. Carlson, my question is directed to 
you. What are your thoughts regarding the concerns voiced by 
the New York City Police Department, Deputy Chief Dowd, 
regarding the spectrum auction and the eventual development of 
the network? Based on your work in the field, what approach to 
the next auction do you believe will result in the best outcome 
for public safety communications? I'm really interested to hear 
from Mr. Carlson and Mr. LeGrande.
    Mr. LeGrande. First, the goals are the right goals, 
national interoperability. Really what we are talking about is 
how best to get there. So having built out a 700 MHz network, 
or at least led the building of a 700 MHz network here in the 
District, I think the way to approach this is in two ways.
    First, I believe we should start now, not in a year-and-a-
half after we have auctioned. I think we can start with early 
deployments now. As a result of the early deployments in places 
like New York and other areas, that will get us all focused on 
achieving that goal because guess what, the technology is not 
the question, because the technology is already built today 
that we can migrate to if we want to go to LT or anything else. 
So I think that is an important thing.
    I think also when you have such divergent needs, meaning 
major cities need to control or have actually a financial 
incentive to control their networks, and you say rural areas 
don't have as much of an incentive, I think that there are 
opportunities and potential proposals that would bring those 
two things together that would allow carveouts for major 
cities, and at the same time allow for the network to be built 
for the rural areas. The good news is the technology, as long 
as we stay on the standard technology, it will all work 
together.
    Mr. Dent. Mr. Carlson.
    Mr. Carlson. I would anticipate that in an auction that is 
conducted on a regional area basis that the license for New 
York City would most likely be won by one of the two largest 
national operators, either AT&T or Verizon. It would be my 
anticipation that one of those operators, whoever was the 
winner, would do their level best to work with Chief Dowd to 
create a network that could be integrated with his existing 
network. If there were a need for some reason to delay the 
build in a big city like New York, that there could be, you 
know, a prior build by the New York City agency itself that 
then could be contributed to a subsequent build, down the road, 
by one of those national carriers. I think that can be made to 
work.
    Mr. Dent. At this time I would like to yield back the 
balance of my time to the Chairman.
    Mr. Cuellar. Thank you, Mr. Dent. At this time, so we can 
have each Member ask at least one question, recognize Mr. Dicks 
from the State of Washington and then Ms. Lowey, and then we 
will conclude the meeting.
    Mr. Dicks. Chief, you talked about an unfunded mandate 
here. You think Congress should put up the money for this? 
Where should the funding come from? Does there need to be a 
national program authorized and money funded through the----
    Mr. Dowd. What I am talking about is that there is already 
existing and it has been out there for years a requirement and 
it still stands with the FCC for public safety spectrum to be 
especially more efficient. So they already have the obligation 
to spend the money, which is not being mentioned. That is out 
there. What we are suggesting is that rather than spend it on 
old technology, that the funds that you would have had to spend 
anyway should be focused on the new technology, and that is 
broadband. Clearly that is where, you know, nationally and 
internationally, that is where the technology is going. So why 
continue down a road of requiring public safety entities to 
build one type of system for voice and then however this shakes 
out you are going to have a broadband system built by whoever 
for everything else? It doesn't make any sense.
    Mr. Dicks. Because you could do both, both voice and data.
    Mr. Dowd. That is what we are proposing. You know, to us 
and to every other major city that has looked at this, you 
know, that has the technology people to look at this kind of 
thing and because they have those resources, that is what they 
are looking at. Look, the FCC years ago looked to be more 
efficient in spectrum and broadband didn't exist. So they did 
the next best thing. They tried to suggest that narrow banding, 
cutting, continuing to cut thinner slices of spectrum in order 
to get more into the spectrum was the way to go. They were 
probably right 10 or 15 years ago, but not today. So there 
needs to be some real thought on this, and what technology----
    Mr. Dicks. Is the problem at the FCC with what they are 
proposing? Is that where the problem is?
    Mr. Dowd. Look, the FCC has done a wonderful thing by 
clearing the spectrum because you know you now have public 
safety spectrum across the country that we can use. The problem 
is, we don't believe--and neither do any of the major cities--
that the commercial entity will build a network to the types of 
requirements that we have. So when you view that--and what I 
would point to as a good indicator of that, I think part of the 
reason the first auction failed was because there was such a 
high public safety requirement for coverage. So what has 
happened now--and again, I think I mentioned earlier that what 
we have predicted is that they would reduce that for the second 
auction, which is we think a very wrong thing to do. You know--
and how you would have different standards for rural versus 
urban as far as coverage is a little confusing to me. Only to 
the fact that you never know when an emergency is going to 
happen.
    Now you know from a terrorist perspective, obviously New 
York and other major cities are the big targets. But you know a 
hurricane doesn't discriminate that way. So you have to look at 
this from the perspective of, you know, the little people, the 
little agencies need the same type of coverage that the big 
cities would. I just don't see--you know and from the comments 
we have had, I don't see major cities buying into a commercial 
network.
    Mr. Dicks. So you think trying to put the commercial and 
the public safety together, it should all be public safety, is 
that what you are really saying?
    Mr. Dowd. You can do the whole solution in broadband on 
that public safety spectrum. Now that is going to take time. So 
when David Boyd--and he has done tremendous work on 
interoperability--when he talks about multi-band radios, for 
now, you know those are necessary things. But hopefully as we 
progress, they would become less and less necessary, if not 
unnecessary, in that, you know, you just don't want to be 
connecting systems at the back end to be interoperable. You 
want to be interoperable at the front end.
    Mr. Dicks. Let me yield back.
    Mr. Cuellar. Thank you. A minute-and-a-half for questions 
and answers and then we will close up.
    Mrs. Lowey. Chief Dowd, just to clarify. So if the FCC were 
to go forward with the process that created a national network, 
No. 1, how would this impact New York City? How much has the 
city spent and committed to the wireless data network and the 2 
gigahertz band?
    Mr. Dowd. The 2.5. The city has already committed $500 
million to that. By the way, we are paying for the use of that 
spectrum that the City of New York uses on that system. What we 
are saying is, you know, for a public safety system, you know, 
we would like to use our spectrum, which is the 700 MHz 
spectrum. The comment was just made, well, you know, in New 
York City, whoever wins it there could then negotiate with the 
city and make them happy. Well, we are already happy. We are 
building our own system. How about giving us our spectrum, you 
know, and let us decide whether we want to partner with 
somebody. I think that is the model that the FCC would be more 
prudent to follow. Now that I built a system, why do I want to 
pay someone to let me use my spectrum? I don't understand why 
public safety would want to do that.
    Mrs. Lowey. I get it. I just want it on the record. Since 
we all have to go vote, thank you. Thank you all for appearing 
before us. Thank you, Mr. Chairman.
    Mr. Cuellar. Again, I want to thank all of the witnesses 
for being here today. I would ask you all to spend a little bit 
of time with the other witnesses and spread some wisdom to each 
other. I want to thank all of you all for being here.
    Members of the subcommittee may have additional questions, 
and we ask those questions in writing. Please respond as soon 
as possible.
    Hearing no further business, the hearing is adjourned. 
Thank you very much.
    [Whereupon, at 12:10 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

  Questions From Chairman Henry Cuellar of Texas for Derek K. Poarch, 
      Chief, Public Safety and Homeland Security Bureau, Federal 
                       Communications Commission
    Question 1. The initial auction of the D Block in the 700 MHz band 
was perceived to have failed due to the lack of clarity concerning the 
requirements and standards of the public safety community. Some have 
singled out the Public Safety Spectrum Trust (PSST) for failing to 
represent the public safety community with one voice and sending mixed 
signals during the auction proceedings. As you know from the 
organization of the PSST board, public safety entities are 
understandably protective of their spectrum.
    Please detail with some specificity what the FCC has done and is 
doing to encourage more transparency by the PSST.
    Answer. In the Commission's recently adopted Third Further Notice 
of Proposed Rulemaking (Third Further Notice), the Commission proposed 
``significant steps to insulate the Public Safety Broadband Licensee 
from undue commercial influence, and additional reporting and auditing 
requirements to provide greater oversight of the Public Safety 
Broadband Licensee's activities.''\1\ Specifically concerning the steps 
the FCC is taking to encourage more transparency by the PSST, the FCC 
proposed:
---------------------------------------------------------------------------
    \1\ Service Rules for the 698-746, 747-762 and 777-792 MHz Bands; 
Implementing a Nationwide, Broadband, Interoperable Public Safety 
Network in the 700 MHz Band, WT Docket No. 06-150, PS Docket No. 06-
229, Third Further Notice of Proposed Rulemaking, FCC 08-230 (rel. 
Sept. 25, 2008),  346.
---------------------------------------------------------------------------
  <bullet> With respect to funding of the PSST's administrative and 
        operational expenses, the FCC found merit in:

    ``ensuring that the administrative and operating expenses of the 
        Public Safety Broadband Licensee are finely tuned to its core 
        mission and fully transparent to key stakeholders,'' and 
        tentatively concluded that the PSST, as the Public Safety 
        Broadband Licensee, ``shall establish an annual budget and 
        submit this budget to the Chief, [Wireless Telecommunications 
        Bureau] and Chief, [Public Safety and Homeland Security 
        Bureau], on delegated authority, for approval.''\2\ The 
        Commission added that ``the proposed annual budget to be 
        submitted by the Public Safety Broadband Licensee would enable 
        the Commission to ensure that the Public Safety Broadband 
        Licensee is acting in a fiscally responsible manner and not 
        engaging in activities that exceed the scope of its prescribed 
        roles and responsibilities. The Public Safety Broadband 
        Licensee already is required to submit a full financial 
        accounting on a quarterly basis, which helps serve the same 
        purpose. As an additional measure, the PSBL also would need to 
        have an annual audit conducted by an independent auditor. In 
        addition, we are proposing to provide that the Commission 
        reserves the right, as delegated to the Chief, PSHSB, to 
        request an audit of the Public Safety Broadband Licensee's 
        expenses at any time.''\3\
---------------------------------------------------------------------------
    \2\ Id. at  359.
    \3\ Id. (citation omitted).

  <bullet> Concerning the PSST's organizational structure, the FCC 
        agreed with comments submitted in the record that it should 
---------------------------------------------------------------------------
        revise the PSST's:

    ``organizational structure to enhance the Public Safety Broadband 
        Licensee's operational efficiency and transparency.''\4\ The 
        Commission stated that ``[i]n light of the unique 
        representative nature of the license, which the Public Safety 
        Broadband Licensee holds on behalf of those public safety 
        entities eligible to utilize this spectrum, the public interest 
        favors any changes to the Public Safety Broadband Licensee's 
        organizational structure that will better ensure that its 
        actions reflect due consideration of the broad panoply of 
        public safety interests it represents. We also consider it 
        important to hold the PSBL to a standard of transparency that 
        will ensure that its obligations are met in a manner that 
        instills public confidence in both the process and the outcome 
        of its actions. We believe improvements in these areas can be 
        achieved with a few modifications to the Public Safety 
        Broadband Licensee's current organizational structure, along 
        with other modifications we are proposing with respect to the 
        Public Safety Broadband Licensee's Board's meeting and voting 
        requirements.''\5\
---------------------------------------------------------------------------
    \4\ Id. at  407.
    \5\ Id.

---------------------------------------------------------------------------
    Among the measures proposed by the Commission, it agreed that:

``the position of Chairman of the PSBL board of directors should be 
separated from the position of Chief Executive Officer (CEO) because of 
the very different responsibilities of the two positions.''\6\ Thus, 
the Commission tentatively concluded that ``the Public Safety Broadband 
Licensee's positions of Chairman of the Board and Chief Executive 
Officer must be filled by separate individuals,'' noting that 
``[s]eparating these positions would allow for a discrete focus on two 
very different responsibilities, and thus increased efficiency.''\7\ 
The Commission also proposed ``to require the PSST board to elect a new 
executive committee--i.e., the PSST must elect a new Chairman, Vice-
Chairman, and Secretary/Treasurer within 30 days of adoption of an 
Order issuing final rules in this proceeding'' and that ``these 
executive committee members: (i) must be limited to a term of 2 years; 
and (ii) may not serve consecutive terms in the same position.''\8\ The 
FCC further proposed ``that no current executive committee member may 
be re-elected to the same position on the committee'' and to ``prohibit 
the PSBL from expanding its executive committee beyond these three 
offices.''\9\ The Commission also tentatively concluded to ``require 
three-fourths supermajority voting on all major decisions by the PSBL 
board of directors,'' which it believed ``will further ensure that the 
PSBL will only undertake major actions that have the broad support of 
the PSBL's representative constituents.''\10\
---------------------------------------------------------------------------
    \6\ Id. at  411.
    \7\ Id.
    \8\ Id. at  412.
    \9\ Id.
    \10\ Id. at  413.

  <bullet> Last, with respect to PSST board meetings, the Commission 
---------------------------------------------------------------------------
        stated:

    ``We thus tentatively conclude that we will require PSBL board 
        meetings to be open to the public, except that the board will 
        have a right to meet in closed session to discuss sensitive 
        matters. Further, we propose that the PSBL must make the 
        minutes of each board meeting publicly available, including 
        portions of meetings held in closed session, but that the 
        published minutes of closed sessions may be redacted. We 
        further propose that the PSBL must provide the public with no 
        less than 30 days advance notice of meetings. Relatedly, we 
        tentatively propose to require that the PSBL present its 
        annual, independently audited financial report (which is a new 
        financial reporting obligation we are proposing elsewhere in 
        this Third Further Notice) in an open meeting. We expect that 
        all of these measures will improve the efficiency and 
        transparency of the PSBL's actions, and seek comment 
        accordingly.''\11\
---------------------------------------------------------------------------
    \11\ Id. at  414.

    Question 1b. What metrics does FCC use to assess PSST's 
effectiveness as the public safety licensee? How has the PSST measured 
against the specific metrics?
    Answer. The Commission's Second Report and Order included a number 
of features and requirements intended to provide oversight over the 
PSST.\12\ As discussed above, the Third Further Notice contained 
additional detailed proposals related to improving the transparency of 
the Public Safety Broadband Licensee and increasing oversight. The 
Third Further Notice also contained proposals relating to the roles and 
responsibilities of the PSST in the use of the 700 MHz broadband 
network, eligible users of the public safety broadband spectrum, 
clarifications on the PSST's non-profit status, restrictions on the 
PSST's business relationships, funding of the PSST's administrative and 
operational expenses, budget submission and audit requirements, 
restrictions on financing, changes to the PSST's organization structure 
including its articles of incorporation and by-laws, and oversight of 
the PSST's activities.\13\ Staff from the Bureau have attended the 
PSST's board meetings, and otherwise frequently interacted with 
representatives of the PSST and its member organizations. The PSST has 
been and remains subject to the terms and conditions of its license and 
is subject to the Commission's enforcement authority.
---------------------------------------------------------------------------
    \12\ Service Rules for the 698-746, 747-762 and 777-792 MHz Bands; 
Implementing a Nationwide, Broadband, Interoperable Public Safety 
Network in the 700 MHz Band, WT Docket No. 06-150, PS Docket No. 06-
229, Second Report and Order, 22 FCC Rcd 15289 (2007) at   373-374 
establishing baseline criteria for selecting the Public Safety 
Broadband Licensee);   375-376 (requiring certain minimum provisions 
of the licensee's articles of incorporation and by-laws);   376-377, 
506-507, 530 (imposing reporting requirements during and following the 
negotiations of the network sharing agreement).
    \13\ See Third Further Notice at   175-202, 312-374, 394-419.
---------------------------------------------------------------------------
    Question 1c. Please detail FCC's plan to collaborate with public 
safety entities to turn over control of their spectrum to the PSST? In 
your response please list the public safety entities, discuss 
timetables, identify milestones and goals, and share corresponding 
charts that illustrate the ``turn over'' of the spectrum to the PSST.
    Answer. The FCC has no plans to require public safety entities to 
turn over control of spectrum they hold to the PSST. Individual public 
safety entities have been and remain eligible to hold licenses in the 
narrowband portions of the 700 MHz public safety spectrum, as well as 
other bands. In the Second Report and Order, the Commission reallocated 
700 MHz public safety spectrum from wideband use to broadband use, and 
assigned the broadband spectrum as a single Nation-wide license to the 
PSST. Neither the prior wideband nor current broadband spectrum was 
previously assigned to any other public safety entities.
    Question 2. The Homeland Security Act, which first directed the FCC 
to study the possibility of a national broadband public safety network, 
also directed the Department of Homeland Security and the FCC to work 
together to develop State-wide communications interoperability plans 
(SCIPs).
    Has the FCC considered the possibility of having State-wide 
licenses for a 700 MHz broadband network given that SCIPs were the 
vehicle by which States had to plan for and justify homeland security 
grants?
    Answer. With respect to the 700 MHz public safety narrowband 
spectrum, the FCC already has allocated and granted licenses for 
certain channels on a State-wide basis. In the Third Further Notice, 
the Commission further stated:

``we tentatively conclude that the public safety broadband spectrum 
should continue to be licensed on a nationwide basis to a single Public 
Safety Broadband Licensee. However, we seek comment on whether we 
should license the public safety broadband spectrum on a regional basis 
rather than a nationwide basis. Further, if we were to license the 
public safety broadband spectrum on a regional basis, we seek comment 
on the procedures and selection criteria for assigning such licenses, 
and how multiple public safety broadband licensees would be able to 
ensure a nationwide level of interoperability and otherwise satisfy the 
roles and responsibilities of the public safety broadband licensee we 
discuss elsewhere.''\14\
---------------------------------------------------------------------------
    \14\ Id. at  426.

    Question 3a. Has the FCC assessed whether the delay of the D Block 
auction will impact the implementation of the State Communications 
Interoperability Plans (SCIPs) and the National Emergency 
Communications Plan, released on July 31, 2008?
    Answer. In the Second Further Notice and Third Further Notice, the 
Commission has sought comment broadly, and then with more specificity, 
concerning how it should proceed following the results of the initial D 
Block auction. In response to the Second Further Notice, the Commission 
received no public comments concerning any impact to SCIPs. With 
comments and reply comments due November 3, 2008 and November 12, 2008, 
respectively, in response to the Third Further Notice, all interested 
parties will have the opportunity to address issues related to the D 
Block auction and potential impact on SCIPs or the National Emergency 
Communications Plan (NECP).
    Question 3b. In your description, please include the specific 
collaborations that occurred between the FCC and the Department of 
Homeland Security's Office of Emergency Communications as it relates to 
the bureau's assessment.
    Answer. Now that the Commission has proposed specific rules and 
frameworks for the implementation of a Nation-wide, broadband, 
interoperable public safety network, and as it evaluates the record 
developed in response to the Third Further Notice, the Bureau will 
continue its ongoing interactions with the DHS OEC on any and all 
issues of mutual interest, including any assessments of the potential 
impacts or synergies between the 700 MHz public/private partnership 
proceeding and the SCIPs and the NECP.
    Question 3c. In your response, please detail how the FCC assessed 
that the 58 FCC public safety regions can operate in a manner 
consistent with the SCIPS and the NECP.
    Answer. As presently proposed, the 700 MHz broadband spectrum will 
continue to be held under a single Nation-wide license assigned to the 
PSST. Among its roles and responsibilities, the PSST is charged with 
being as representative of the public safety community as possible. The 
PSST meets this role through its component board members which include, 
for example, the National Governors Association, as well as through its 
interactions with all State and local levels of public safety entities. 
In the Third Further Notice, the Commission recognized that ``since the 
auction of the D Block did not result in a winning bid, there has been 
an associated delay in the deployment of the nationwide broadband 
network, which may impact the extent to which some public safety 
agencies may desire to construct their own networks before a new 
auction is completed.''\15\ The Commission then sought comment on how 
it ``can ensure that a public safety entity engaging in such early 
build-out selects a compatible technology that is fully interoperable 
with the Shared Wireless Broadband Network(s), meaning consistent with 
our tentative conclusions elsewhere concerning interoperability 
requirements for all operations in the 700 MHz public safety broadband 
spectrum, and thus not via gateways and bridges.''\16\ Accordingly, 
interested parties have the opportunity to file comments on how public 
safety can operate in a manner consistent with the SCIPs and the NECP.
---------------------------------------------------------------------------
    \15\ Id. at  297.
    \16\ Id. at  302.
---------------------------------------------------------------------------
    Question 4a. The FCC's original proposal for the D Block called for 
building out the system to public safety specifications (coverage, 
capacity, reliability during disasters, etc.), which exceed those for 
the typical commercial network and add costs which are not borne by a 
commercial network.
    If the FCC plans to relax these requirements, what changes are 
under consideration and how will these impact the mission-critical 
nature of the proposed network?
    Answer. In the Third Further Notice, the Commission has proposed to 
modify some elements concerning public safety requirements for 
coverage, capacity, and reliability. The FCC tentatively concluded to 
``modify the population-based performance requirements and the length 
of the license term that we adopted in the Second Report and Order for 
the D Block spectrum in order to make this spectrum more commercially 
viable while at the same time ensuring that public safety needs are 
met.''\17\ Specifically, the Third Further Notice proposes to reduce 
the final network coverage benchmark from 99.3 percent to between 90 
and 98 percent, depending on the population density of each region, and 
proposes to extend the period for achieving full coverage from 10 to 15 
years.\18\ Comment is also sought on whether to require a flat 95 
percent population coverage as a final benchmark.
---------------------------------------------------------------------------
    \17\ Id. at  148.
    \18\ Id. at  149.
---------------------------------------------------------------------------
    The Third Further Notice also specifically addresses ``requirements 
pertaining to: the broadband technology platform; interoperability; 
availability, robustness and hardening of the network; capacity, 
throughput and quality of service; security and encryption; power 
limits/power flux density limits/related notification and coordination 
requirements; and the satellite-capable handset requirement.''\19\ In 
this regard, the Commission tentatively concluded that it ``should 
establish more detailed technical requirements for the shared wireless 
broadband network'' which ``will provide additional certainty regarding 
the obligations of the D Block licensee(s) and the costs of the shared 
wireless broadband network.''\20\ The Commission added that 
``specifying the technical requirements as completely as possible at 
this time, and reducing the issues that will be left to post auction 
negotiation, will provide greater assurance to potential bidders 
regarding the commercial viability of the shared wireless broadband 
network while ensuring that the network meets public safety's 
needs.''\21\
---------------------------------------------------------------------------
    \19\ Id. at  102.
    \20\ Id. at  103.
    \21\ Id.
---------------------------------------------------------------------------
    Question 4b. Please provide the committee a detailed chart that 
explains the FCC's coverage proposal and the impact of a national 
broadband network build-out on each subcommittee Member's State 
(including Chairman Bennie G. Thompson of Mississippi).
    Answer. Under the Commission's coverage proposal, a licensee of D 
Block spectrum must meet three coverage benchmarks, which apply at the 
fourth, tenth, and fifteenth years after the grant of the license, and 
which must be met in each Public Safety Region (PSR) in which the 
carrier is licensed (regardless of whether it has received a regional 
PSR license or a single Nation-wide license). As discussed further 
below, PSRs are regions that largely mirror State boundaries. In 
addition, there are also a number of PSRs for territories such as the 
U.S. Virgin Islands, and one for the Gulf of Mexico.
    The three benchmarks are as follows. By the end of the fourth year, 
the licensee must cover at least 40 percent of the population. By the 
end of the tenth year, it must cover 75 percent. For the final 
benchmark at 15 years, the Commission has also proposed to adopt a 
``tiered'' approach, applying one of three benchmarks depending on the 
population density of the PSR: (1) For PSRs with a population density 
equal to or greater than 500 people per square mile (Tier I), the 
licensee will be required to cover at least 98 percent of the 
population by the end of the fifteenth year; (2) for PSRs with a 
population density equal to or greater than 100 people per square mile 
and less than 500 people per square mile (Tier II), the licensee will 
be required to cover at least 94 percent of the population; and (3) for 
PSRs with a population density less than 100 people per square mile 
(Tier III), the licensee will be required to cover at least 90 percent 
of the population.
    The attached chart entitled ``Geographical Boundaries of the 58 
Public Safety Regions'' specifies the geographic area covered by each 
of the 58 PSRs. These areas correspond to the boundaries of the 700 MHz 
Regional Planning Committee Regions, and as the chart indicates, in 
most cases, they follow State boundaries. Some States, however, 
encompass multiple PSRs and certain PSRs encompass portions of more 
than one State.
    The second attached chart, entitled ``Performance Tiers by Public 
Safety Region,'' details for each PSR the final 15-year benchmark, 
whether 98 percent (for ``Tier I'' regions), 94 percent (for ``Tier 
II'' regions), or 90 percent (for ``Tier III'' regions), as applicable 
to the PSR.
    A Nation-wide map of the PSRs entitled ``Public Safety Regions By 
Tier,'' is also attached, which depicts the Tiers for each PSR 
graphically, with each PSR color-coded to show the applicable final 
benchmark. This map also shows where PSR boundaries do and do not 
follow State boundaries, by depicting the boundaries of the PSRs in 
black and the boundaries of the States in pink. Thus, combined black/
pink lines indicate where the boundaries of PSRs follow State 
boundaries, pure black lines indicate PSR boundaries that do not follow 
State lines, and pink lines indicate State boundaries that do not 
follow PSR lines.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Finally, 13 additional maps are attached, with each map depicting 
one of many possible build-out options that may be chosen to meet the 
Commission's specific population benchmarks for each one of the 13 
States of the Members of the Subcommittee on Emergency Communications, 
Preparedness, and Response.\22\ Specifically, these maps show, for each 
State, the estimated coverage at the fourth, tenth, and fifteenth 
years, assuming that build-out in the relevant PSR proceeds from 
counties with higher population density to those with lower population 
density. For example, the map of the District of Columbia indicates 
complete coverage by year 4, reflecting an estimate that, by the fourth 
year, build-out in PSR 20, which includes the District, Maryland, and 
Northern Virginia, would have already extended to all of the District's 
geographic area. Thus, they illustrate a method that covers maximum 
population without regard to geographic coverage.
---------------------------------------------------------------------------
    \22\ Thus, the maps cover: (1) Texas, (2) California, (3) 
Pennsylvania, (4) Washington, (5) Indiana, (6) New York, (7) Tennessee, 
(8) Virginia, (9) Michigan, (10) North Carolina, (11) Mississippi, (12) 
the District of Columbia, and (13) the U.S. Virgin Islands. 
Specifically, these maps show, for each State, the estimated coverage 
at the fourth, tenth, and fifteenth years, assuming that build-out in 
the relevant PSR proceeds from counties with higher population density 
to those with lower population density. For example, the map of the 
District of Columbia indicates complete coverage by year 4, reflecting 
an estimate that, by the fourth year, build-out in PSR 20, which 
includes the District, Maryland, and Northern Virginia, would have 
already extended to all of the District's geographic area. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    These maps cannot, however, fully reflect the scope of the 
Commission's proposed coverage requirements or the coverage choices 
that a licensee may make. The Commission has recognized that having D 
Block licensees meet the population benchmarks is not by itself 
sufficient to satisfy all our public interest objectives in this 
proceeding, and that the needs of first responders are also important 
in less populous areas. Thus, the Commission has proposed to require 
that the Network Sharing Agreement (NSA) negotiated between the Public 
Safety Broadband Licensee (PSBL) and D Block licensee(s) include 
detailed build-out schedules identifying specific areas to be built out 
and the respective time frames. The Commission has also proposed to 
require coverage for major highways and interstates, as well as 
coverage for all incorporated communities with a population in excess 
of 3,000, unless the parties determine, in consultation with a relevant 
community, that such additional coverage will not provide significant 
public benefit. The NSA, including the build-out schedule, must also be 
approved by the Commission.
    Thus, a D Block licensee will not be free to build its broadband 
network unilaterally along the lines suggested in the maps, but must 
move forward with the agreement of the PSBL and subject to additional 
coverage requirements. As a result, we would expect that the actual 
areas within a PSR that will be built out would in fact differ from the 
coverage depicted.\23\
---------------------------------------------------------------------------
    \23\ Second Report and Order, 22 FCC Rcd 15289 (2007) at  453; 
Third Further Notice of Proposed Rulemaking at para. 163.
---------------------------------------------------------------------------
    Question 4c. In your charts, please distinguish how the coverage 
would differ under a regional license as compared to a national 
license.
    Answer. As noted above, within each PSR, the coverage requirements 
are the same regardless of whether that PSR has been licensed as a 
regional PSR license or as part of a single Nation-wide license. 
Regardless of whether the license is Nation-wide or regional (PRS)-
based, coverage requirements must be met on a PSR basis. In other 
words, a Nation-wide licensee must cover the specified percentage of 
the population within each of the 58 PSRs in its license area, while a 
PSR licensee must cover the specified population percentage in the PSR 
in which it is licensed.
    Question 5. Has the FCC considered providing early deployment and 
operation of interoperable broadband networks in the 700 MHz broadband 
spectrum prior to the auction and build-out of the network?
    How will early deployments positively and negatively impact the 
benchmarks that the FCC has proposed in the 15-year build-out?
    Answer. In the 700 MHz Second Report and Order, the Commission 
adopted rules to provide public safety entities with options for early 
build-out of broadband networks in advance or in lieu of build-out of 
the Nation-wide broadband network. In general, these rules allow a 
local public safety entity to deploy a network early, provided that the 
network uses a technology that is fully interoperable with the Nation-
wide broadband network so that the local network can be integrated into 
the Nation-wide network when the latter is deployed.
    In the Third Further Notice, the Commission has proposed to retain 
these early build-out rules, and has sought comment on alternatives. 
The Third Further Notice notes that ``unlike our current rules, which 
only contemplate the early build-out of systems utilizing the same 
technology as the D Block licensee, a public safety entity that engages 
in early deployment risks choosing a technology that is not compatible 
with the technology that will be deployed later by the D Block 
licensee.''\24\ Given the tentative conclusion in the Third Further 
Notice that the Nation-wide interoperable network should have the same 
air interface technology, the Commission has sought comment on ``how we 
can ensure that a public safety entity engaging in such early build-out 
selects a compatible technology that is fully interoperable with the 
Shared Wireless Broadband Network(s), meaning consistent with our 
tentative conclusions elsewhere concerning interoperability 
requirements for all operations in the 700 MHz public safety broadband 
spectrum, and thus not via gateways and bridges.''\25\
---------------------------------------------------------------------------
    \24\ Id. at  302.
    \25\ Id.

         GEOGRAPHICAL BOUNDARIES OF THE 58 PUBLIC SAFETY REGIONS
------------------------------------------------------------------------
                                          States, Counties & Territories
                 Number                        Included In Regions
------------------------------------------------------------------------
1......................................  ALABAMA
2......................................  ALASKA
3......................................  ARIZONA
4......................................  ARKANSAS
5......................................  CALIFORNIA--SOUTH (to the
                                          northernmost borders of San
                                          Luis Obispo, Kern, and San
                                          Bernardino Counties)
6......................................  CALIFORNIA--NORTH (that part of
                                          California not included in
                                          California--South)
7......................................  COLORADO
8......................................  NEW YORK--METROPOLITAN--NEW
                                          YORK: Bronx, Kings, Nassau,
                                          New York, Orange, Putnam,
                                          Queens, Richmond, Rockland,
                                          Suffolk, Sullivan, Ulster,
                                          Dutchess, and Westchester
                                          Counties; NEW JERSEY: Bergen,
                                          Essex, Hudson, Morris,
                                          Passaic, Sussex, Union,
                                          Warren, Middlesex, Somerset,
                                          Hunterdon, Mercer, and
                                          Monmouth Counties
9......................................  FLORIDA
10.....................................  GEORGIA
11.....................................  HAWAII
12.....................................  IDAHO
13.....................................  ILLINOIS (all except area in
                                          Region 54)
14.....................................  INDIANA (all except area in
                                          Region 54)
15.....................................  IOWA
16.....................................  KANSAS
17.....................................  KENTUCKY
18.....................................  LOUISIANA
19.....................................  NEW ENGLAND--MAINE; NEW
                                          HAMPSHIRE; VERMONT;
                                          MASSACHUSETTS; RHODE ISLAND;
                                          CONNECTICUT
20.....................................  MARYLAND; WASHINGTON, DC;
                                          VIRGINIA--NORTHERN (Arlington,
                                          Fairfax, Fauquier, Loudoun,
                                          Prince William and Stafford
                                          Counties; and Alexandria,
                                          Fairfax, Falls Church,
                                          Manassas and Manassas Park
                                          Cities)
21.....................................  MICHIGAN
22.....................................  MINNESOTA
23.....................................  MISSISSIPPI
24.....................................  MISSOURI
25.....................................  MONTANA
26.....................................  NEBRASKA
27.....................................  NEVADA
28.....................................  NEW JERSEY (except for counties
                                          included in the New York--
                                          Metropolitan, Region 8, above)
                                          PENNSYLVANIA (Bucks, Chester,
                                          Montgomery, Philadelphia,
                                          Berks, Delaware, Lehigh,
                                          Northampton, Bradford, Carbon,
                                          Columbia, Dauphin, Lackawanna,
                                          Lancaster, Lebanon, Luzerne,
                                          Lycoming, Monroe, Montour,
                                          Northumberland, Pike,
                                          Schuylkill, Sullivan,
                                          Susquehanna, Tioga, Wayne,
                                          Wyoming and York Counties);
                                          DELAWARE
29.....................................  NEW MEXICO
30.....................................  NEW YORK--ALBANY (all except
                                          area in New York--
                                          Metropolitan, Region 8, and
                                          New York--Buffalo, Region 55)
31.....................................  NORTH CAROLINA
32.....................................  NORTH DAKOTA
33.....................................  OHIO
34.....................................  OKLAHOMA
35.....................................  OREGON
36.....................................  PENNSYLVANIA (all except area
                                          in Region 28, above)
37.....................................  SOUTH CAROLINA
38.....................................  SOUTH DAKOTA
39.....................................  TENNESSEE
40.....................................  TEXAS--DALLAS (including the
                                          counties of Cooke, Grayson,
                                          Fannin, Lamar, Red River,
                                          Bowie, Wise, Denton, Collin,
                                          Hunt, Delta, Hopkins,
                                          Franklin, Titus, Morris, Cass,
                                          Tarrant, Dallas, Palo Pinto,
                                          Parker, Rockwall, Kaufman,
                                          Rains, VanZandt, Wood, Smith,
                                          Camp, Upshur, Gregg, Marion,
                                          Harrison, Panola, Rusk,
                                          Cherokee, Anderson, Henderson,
                                          Navarro, Ellis, Johnson, Hood,
                                          Somervell and Erath)
41.....................................  UTAH
42.....................................  VIRGINIA (all except area in
                                          Region 20, above)
43.....................................  WASHINGTON
44.....................................  WEST VIRGINIA
45.....................................  WISCONSIN (all except area in
                                          Region 54)
46.....................................  WYOMING
47.....................................  PUERTO RICO
48.....................................  U.S. VIRGIN ISLANDS
49.....................................  TEXAS--AUSTIN (including the
                                          counties of Bosque, Hill,
                                          Hamilton, McLennan, Limestone,
                                          Freestone, Mills, Coryell,
                                          Falls, Robertson, Leon, San
                                          Saba, Lampasas, Bell, Milam,
                                          Brazos, Madison, Grimes,
                                          Llano, Burnet, Williamson,
                                          Burleson, Lee, Washington,
                                          Blanco, Hays, Travis,
                                          Caldwell, Bastrop, and
                                          Fayette)
50.....................................  TEXAS--EL PASO (including the
                                          counties of Knox, Kent,
                                          Stonewall, Haskell,
                                          Throckmorton, Gaines, Dawson,
                                          Borden, Scurry, Fisher, Jones,
                                          Shackelford, Stephens,
                                          Andrews, Martin, Howard,
                                          Mitchell, Nolan, Taylor,
                                          Callahan, Eastland, Loving,
                                          Winkler, Ector, Midland,
                                          Glasscock, Sterling, Coke,
                                          Runnels, Coleman, Brown,
                                          Comanche, Culberson, Reeves,
                                          Ward, Crane, Upton, Reagan,
                                          Irion, Tom Green, Concho,
                                          McCulloch, Jeff Davis,
                                          Hudspeth, El Paso, Pecos,
                                          Crockett, Schleicher, Menard,
                                          Mason, Presidio, Brewster,
                                          Terrell, Sutton, and Kimble)
51.....................................  TEXAS--HOUSTON (including the
                                          counties of Shelby,
                                          Nacogdoches, San Augustine,
                                          Sabine, Houston, Trinity,
                                          Angelina, Walker, San Jacinto,
                                          Polk, Tyler, Jasper, Newton,
                                          Montgomery, Liberty, Hardin,
                                          Orange, Waller, Harris,
                                          Chambers, Jefferson,
                                          Galveston, Brazoria, Fort
                                          Bend, Austin, Colorado,
                                          Wharton, and Matagorda)
52.....................................  TEXAS--LUBBOCK (including the
                                          counties of Dallam, Sherman,
                                          Hansford, Ochiltree, Lipscomb,
                                          Hartley, Moore, Hutchinson,
                                          Roberts, Hemphill, Oldham,
                                          Potter, Carson, Grey, Wheeler,
                                          Deaf Smith, Randall,
                                          Armstrong, Donley,
                                          Collingsworth, Parmer, Castro,
                                          Swisher, Briscoe, Hall,
                                          Childress, Bailey, Lamb, Hale,
                                          Floyd, Motley, Cottle,
                                          Hardeman, Foard, Wilbarger,
                                          Witchita, Clay, Montague,
                                          Jack, Young, Archer, Baylor,
                                          King, Dickens, Crosby,
                                          Lubbock, Kockley, Cochran,
                                          Yoakum, Terry, Lynn, and
                                          Garza)
53.....................................  TEXAS--SAN ANTONIO (including
                                          the counties of Val Verde,
                                          Edwards, Kerr, Gillespie,
                                          Real, Bandera, Kendall,
                                          Kinney, Uvalde, Medina, Bexar,
                                          Comal, Guadalupe, Gonzales,
                                          Lavaca, Dewitt, Karnes,
                                          Wilson, Atascosa, Frio,
                                          Zavala, Maverick, Dimmit,
                                          LaSalle, McMullen, Live Oak,
                                          Bee, Goliad, Victoria,
                                          Jackson, Calhoun, Refugio,
                                          Aransas, San Patricio, Nueces,
                                          Jim Wells, Duval, Webb,
                                          Kleberg, Kenedy, Brooks, Jim
                                          Hogg, Zapata, Starr, Hidalgo,
                                          Willacy, and Cameron)
54.....................................  CHICAGO--METROPOLITAN--ILLINOIS
                                          : Winnebago, McHenry, Cook,
                                          Kane, Kendall, Grundy, Boone,
                                          Lake, DuPage, DeKalb, Will,
                                          and Kankakee Counties;
                                          INDIANA: Lake, LaPorte,
                                          Jasper, Starke, St. Joseph,
                                          Porter, Newton, Pulaski,
                                          Marshall, and Elkart Counties;
                                          WISCONSIN: Kenosha, Milwaukee,
                                          Washington, Dodge, Walworth,
                                          Jefferson, Racine, Ozaukee,
                                          Waukesha, Dane, and Rock
                                          Counties
55.....................................  NEW YORK--BUFFALO (including
                                          the counties of Niagara,
                                          Chemung, Schuyler, Seneca,
                                          Erie, Chautauqua, Cattaraugus,
                                          Allegany, Wyoming, Genesee,
                                          Orleans, Monroe, Livingston,
                                          Steuben, Ontario, Wayne, and
                                          Yates)
56.....................................  GUAM AND THE NORTHERN MARIANA
                                          ISLANDS
57.....................................  AMERICAN SAMOA
58.....................................  GULF OF MEXICO
------------------------------------------------------------------------


                                                        PERFORMANCE TIERS BY PUBLIC SAFETY REGION
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                         Land Area              Coverage Required at End of 15th Year of
                  PSR                               PSR Name              Total Pops*     (SqM)*      Density                 License Term
--------------------------------------------------------------------------------------------------------------------------------------------------------
8......................................  New York--Metropolitan........    19,092,214         9,841    1,940.1  Tier 1: 98 percent coverage required for
                                                                                                                 PSRs with a population density equal to
                                                                                                                 or greater than 500 pops per square
                                                                                                                 mile
47.....................................  Puerto Rico...................     3,808,610         3,425    1,112.1
48.....................................  U.S. Virgin Islands...........       108,612           134      810.5
57.....................................  American Samoa................        57,291            77      744.0
54.....................................  Chicago--Metropolitan.........    12,685,330        17,100      741.8
20.....................................  Maryland; Washington, DC;          7,831,327        12,070      648.8
                                          Virginia--Northern.
56.....................................  Guam and the Northern Mariana        224,026           389      575.9
                                          Islands.
--------------------------------------------------------------------------------------------------------------------------------------------------------
28.....................................  New Jersey, Pennsylvania,         10,526,480        22,729      463.1  Tier 2: 94 percent coverage required for
                                          Delaware.                                                              PSRs with a population density equal to
                                                                                                                 or greater than 100 pops per square
                                                                                                                 mile and less than 500 pops per square
                                                                                                                 mile
5......................................  California--South.............    20,637,512        56,512      365.2
9......................................  Florida.......................    15,982,378        53,927      296.4
33.....................................  Ohio..........................    11,353,140        40,948      277.3
55.....................................  New York--Buffalo.............     2,852,351        11,780      242.1
51.....................................  Texas--Houston................     5,618,958        25,166      223.3
19.....................................  Maine, New Hampshire, Vermont,    13,922,517        62,809      221.7
                                          Massachusetts, Rhode Island,
                                          Connecticut.
40.....................................  Texas--Dallas.................     6,503,125        30,589      212.6
11.....................................  Hawaii........................     1,211,537         6,423      188.6
21.....................................  Michigan......................     9,938,444        56,804      175.0
36.....................................  Pennsylvania..................     4,801,690        27,672      173.5
31.....................................  North Carolina................     8,049,313        48,711      165.2
14.....................................  Indiana.......................     4,763,619        31,283      152.3
10.....................................  Georgia.......................     8,186,453        57,906      141.4
39.....................................  Tennessee.....................     5,689,283        41,217      138.0
42.....................................  Virginia......................     5,115,733        37,360      136.9
37.....................................  South Carolina................     4,012,012        30,109      133.2
6......................................  California--North.............    13,234,136        99,447      133.1
30.....................................  New York--Albany..............     3,182,726        29,379      108.3
18.....................................  Louisiana.....................     4,468,976        43,562      102.6
17.....................................  Kentucky......................     4,041,769        39,728      101.7
--------------------------------------------------------------------------------------------------------------------------------------------------------
49.....................................  Texas--Austin.................     2,254,226        24,263       92.9  Tier 3: 90 percent coverage required for
                                                                                                                 PSRs with a population density less
                                                                                                                 than 100 pops per square mile
43.....................................  Washington....................     5,894,121        66,544       88.6
1......................................  Alabama.......................     4,447,100        50,744       87.6
24.....................................  Missouri......................     5,595,211        68,886       81.2
13.....................................  Illinois......................     3,722,488        49,049       75.9
44.....................................  West Virginia.................     1,808,344        24,078       75.1
53.....................................  Texas--San Antonio............     3,916,309        53,562       73.1
22.....................................  Minnesota.....................     4,919,479        79,610       61.8
23.....................................  Mississippi...................     2,844,658        46,907       60.6
45.....................................  Wisconsin.....................     2,692,016        48,327       55.7
15.....................................  Iowa..........................     2,926,324        55,869       52.4
4......................................  Arkansas......................     2,673,400        52,068       51.3
34.....................................  Oklahoma......................     3,450,654        68,667       50.3
3......................................  Arizona.......................     5,130,632       113,635       45.2
7......................................  Colorado......................     4,301,261       103,718       41.5
35.....................................  Oregon........................     3,421,399        95,997       35.6
16.....................................  Kansas........................     2,688,418        81,815       32.9
41.....................................  Utah..........................     2,233,169        82,144       27.2
26.....................................  Nebraska......................     1,711,263        76,872       22.3
50.....................................  Texas--El Paso................     1,472,545        72,617       20.3
52.....................................  Texas--Lubbock................     1,086,657        55,600       19.5
27.....................................  Nevada........................     1,998,257       109,826       18.2
12.....................................  Idaho.........................     1,293,953        82,747       15.6
29.....................................  New Mexico....................     1,819,046       121,356       15.0
38.....................................  South Dakota..................       754,844        75,885        9.9
32.....................................  North Dakota..................       642,200        68,976        9.3
25.....................................  Montana.......................       902,195       145,552        6.2
46.....................................  Wyoming.......................       493,782        97,100        5.1
2......................................  Alaska........................       626,932       571,951        1.1
58.....................................  Gulf of Mexico................  ............      250,922
--------------------------------------------------------------------------------------------------------------------------------------------------------
* Based on 2000 U.S. Census Data.

Questions From Ranking Member Charles W. Dent of Pennsylvania for Derek 
 K. Poarch, Chief, Public Safety and Homeland Security Bureau, Federal 
                       Communications Commission
    Question 1. If the D Block auction proceeds in auctioning the 
spectrum licenses on a regional basis, how will the FCC ensure that 
there is consistent national guidance to provide uniformity among 
communications systems across the country?
    Answer. If the D Block is licensed on a regional basis, the Third 
Further Notice proposes a number of measures to ensure that all 
regional D Block licensees will deploy their networks in a manner that 
is consistent with the Commission's goal of establishing a fully 
interoperable Nation-wide broadband public safety network.
    First, the Commission has proposed ``to offer simultaneously three 
alternative sets of licenses that vary by geographic license area and 
by conditions regarding the technology platform that must be used by 
the licensee(s). Specifically, under this proposal, the Commission 
would offer: (1) A single license for service Nation-wide with the 
technology platform to be determined by the licensee; (2) a Nation-wide 
set of PSR licenses conditioned on the use of Long Term Evolution (LTE) 
by the licensees; and (3) a Nation-wide set of PSR licenses conditioned 
on the use of Worldwide Interoperability for Microwave Access (WiMAX) 
by the licensees.''\26\ Thus, a regional auction will result in the 
selection of a common air interface technology (either Wi-Max or LTE-
based) that all regional licensees will be required to deploy.
---------------------------------------------------------------------------
    \26\ Id. at  4.
---------------------------------------------------------------------------
    Second, the Commission has proposed detailed performance 
requirements and technical standards that will uniformly govern 
construction and operation of the shared wireless broadband network by 
all regional D Block licensees. These clarifications and revisions 
address: ``(1) the use of spectrum in the shared wireless broadband 
network, including requirements regarding public safety priority access 
to commercial capacity in emergencies; (2) the technical requirements 
of the shared wireless broadband network; (3) the performance 
requirements of the D Block licensee(s); and (4) the respective 
operational roles of the D Block licensee(s) and the Public Safety 
Broadband Licensee.''\27\
---------------------------------------------------------------------------
    \27\ Id. at  5.
---------------------------------------------------------------------------
    With regard to the technical requirements of the network, the 
Commission has stated that ``in addition to our proposal regarding the 
broadband technology platform, we make detailed proposals regarding (1) 
interoperability and public safety roaming; (2) availability, 
robustness, and hardening of the network; (3) capacity, throughput, and 
quality of service; (4) security and encryption; (5) power limits, 
power flux density limits, and related notification and coordination 
requirements; and (6) ensuring the availability of a satellite-capable 
handset.''\28\
---------------------------------------------------------------------------
    \28\ Id. at  6.
---------------------------------------------------------------------------
    Question 2. It is not uncommon for some licenses in an auction to 
remain unsold. If the auction proceeds on a regional basis, how will 
the FCC ensure that all areas of the country are eventually covered by 
the 700 MHz network?
    Answer. In the Third Further Notice, the Commission has proposed a 
series of measures to encourage full Nation-wide coverage and minimize 
the risk that some regions will remain unsold. Specifically, the 
proposed auction rules are designed to favor the bidder or bidders who 
seek to cover the most population. The Commission tentatively 
concluded, ``as an initial matter, that we will not award any licenses 
unless the total population covered by licenses with high bids meets or 
exceeds fifty percent (50 percent) of the U.S. population. Setting the 
requirement at half of the population should help assure that 
sufficient licenses are assigned after the next auction to facilitate 
the ultimate success of a nationwide interoperable broadband network 
for public safety.''\29\
---------------------------------------------------------------------------
    \29\ Id. at  246.
---------------------------------------------------------------------------
    The Commission further tentatively concluded that, ``if the fifty 
percent (50 percent) population threshold is met, winning bidders will 
be determined according to the following criteria. If there is no 
nationwide bid and there are not high bids on all regional licenses in 
either set, the bidder(s) with high bid(s) on the D Block license(s) in 
the technology alternative covering the greatest aggregate population 
will become the winning bidders after the close of bidding. Similarly, 
if there is a nationwide bid but not high bids on all licenses in 
either regional set, the bidder for the nationwide license will become 
the winning bidder by covering the greatest aggregate population. In 
the event that there is a bid on the nationwide license and on all 
licenses in either regional set, the set of licenses with the highest 
aggregate gross bid(s) will become the winning bidder(s). Similarly, in 
the event that there is no nationwide bid and the greatest aggregate 
population is covered equally by the high bids in the two sets of 
regional licenses, the high bidder(s) for license(s) in the set with 
the highest aggregate gross bid(s) will become the winning bidder(s). 
Thus, we will look first to population coverage to determine the 
winning set of licenses, and to the highest aggregate bid amounts only 
if the population coverage is equal.''\30\
---------------------------------------------------------------------------
    \30\ Id. at  247.
---------------------------------------------------------------------------
    The proposed rules also include ``procedures to reduce minimum 
opening bids on unsold regional licenses during bidding. . . . First, 
if there is a bid for the nationwide license, neither alternative set 
of regional licenses has received bids on all 58 licenses, and the sum 
of the provisionally winning bids for either set of regional licenses 
is greater than the amount of the nationwide license bid, then the 
Bureau will lower the minimum opening bids for the regional licenses 
that do not have bids. Second, if there is not a bid for the nationwide 
license and there are bids in either set of regional licenses that 
cover at least half the nation's population, then the Bureau will lower 
the minimum opening bids for the regional licenses that do not have 
bids.''\31\
---------------------------------------------------------------------------
    \31\ Id. at   248-249.
---------------------------------------------------------------------------
    The Commission also proposed ``to take prompt action to assign any 
licenses remaining unsold if an auction meets the minimum coverage 
requirement and yet there is no winning bidder in some regions.''\32\ 
First, ``[i]n order to realize the benefits of a truly nationwide 
network, we propose that under such unique circumstances, . . . the 
Commission should depart from its standard approach of offering 
commercial licenses to the applicant making the highest bid without 
reference to the applicant's particular business plan and instead 
conduct a Request for Proposal (RFP) process, incorporating 
consideration of applicant's proposals together with their bids.''\33\ 
Alternatively, the Third Further Notice seeks comment on whether to 
``re-allocate the spectrum so that it can be assigned to the Public 
Safety Broadband Licensee. The PSBL would then request the submission 
of detailed proposals from would-be licensees regarding how they would 
deploy an interoperable broadband network useable for public safety in 
the applicable region in partnership with the D block licenses won at 
the auction.''\34\
---------------------------------------------------------------------------
    \32\ Id. at  255.
    \33\ Id.
    \34\ Id. at  256.
---------------------------------------------------------------------------
    Question 3. Why did the FCC decide to lower the reserve price for 
the D Block from $1.33 billion to $750 million? How did the FCC 
determine that $750 million is an appropriate price?
    Answer. Because no bidder met the reserve price in Auction 73, 
lowering the total amount that would have to be paid by winning bidders 
in an upcoming auction should increase the likelihood that the next 
auction will attract a winning bidder or bidders to develop an 
interoperable shared broadband network for the public-private 
partnership.
    For Auction 73 the reserve price for the D Block was $1.33 billion, 
and the minimum opening bid for the D Block license was $472,042,000. 
One bid was placed for the D Block license at the minimum opening bid 
amount in the first round, but no higher bids were placed for that 
license.
    The minimum opening bids proposed in the Third Further Notice for 
each D Block regional licenses range from approximately $0.02-$0.45 per 
MHz-pop. In addition, as described above, the Commission tentatively 
concluded that it would substantially reduce minimum opening bids 
during the auction under specific circumstances. Since licenses that 
were won in Auction 73 sold for approximately $0.02-$9.19 per MHz-pop, 
with a weighted average of $1.28 per MHz-pop, the Commission's proposed 
minimum opening bids for the D Block fall at the lower end of this 
range, consistent with the objectives of promoting auction 
participation.
    Question 4. Is the FCC aware of the work that the Office of 
Command, Control, and Interoperability, of the Science and Technology 
Directorate at the Department of Homeland Security, is doing with 
regard to technology development? Is there regular coordination between 
your respective offices?
    Answer. Yes, the FCC is aware of the work that the Office of 
Command, Control, and Interoperability (OCCI) is doing with regard to 
technology development. Bureau staff regularly interacts with staff 
from OCCI as well as with NTIA's Institute for Telecommunication 
Sciences, which the OCCI funds for performing much of the engineering 
and technical work particularly concerning the 700 MHz public safety 
broadband proceeding.
    Question 5. How is the FCC ensuring that its efforts to achieve a 
successful re-auction of the 700 MHz spectrum are adequately 
considering the varied and diverse needs of first responders across the 
country?
    Answer. In developing its proposals for re-auction of the 700 MHz 
spectrum, the Commission has sought extensive input from the public 
safety community at each step in the process. When the Commission 
issued the Second Further Notice, it not only sought comment on a broad 
variety of options for reauctioning the D Block and potentially 
reconfiguring the public/private partnership, but it also committed to 
issue a detailed proposal and request an additional round of comments 
before reaching a final decision. The Commission has followed through 
on that commitment in the Third Further Notice, which proposes a number 
of significant changes to the rules governing the D Block, the Public 
Safety Broadband Licensee, and the public/private partnership based on 
ideas and recommendations received from public safety organizations and 
officials, government representatives, wireless carriers, and 
manufacturers across the country. Based on the final comments it 
receives, the Commission will seek to adopt final rules that further 
the goal of deploying a fully interoperable Nation-wide broadband 
network while remaining responsive to the diverse needs of local first 
responders.
  Questions From Chairman Henry Cuellar of Texas for Mr. Chris Essid, 
 Director, Office of Emergency Communications, Department of Homeland 
                                Security
    Question 1a. What is OEC doing to provide technical assistance to 
assist States who are prepared to implement their State Communications 
Interoperability Plans (SCIPs) and the National Emergency 
Communications Plan (NECP), in a matter consistent with the 700 MHz 
auction?
    Answer. The Office of Emergency Communications (OEC) will continue 
to provide a variety of technical assistance services to help States, 
urban areas, and territories implement the goals and initiatives 
outlined in their Statewide Communications Interoperability Plans 
(SCIPs) and to assist them in aligning their State-wide plans with the 
National Emergency Communications Plan (NECP). OEC's technical 
assistance offerings include governance, engineering services, and 
operational and communications training. As part of its engineering 
offerings, OEC works with the States in supporting land mobile radio 
and provides assistance with system migration, which can include 700 
MHz spectrum.
    Availability of standard operating procedures, governance, 
available funding, usage and technology were just a few of the factors 
taken into consideration during the development of the technical 
assistance prioritization plan. Each State technical assistance request 
was reviewed by OEC, and its impact on the goals and initiatives listed 
in the NECP and the State's SCIP were taken into consideration during 
the prioritization process. Additionally, States with a low level of 
communications capability but a high threat level will receive a 
greater level of support from OEC than those with similar threat levels 
but higher capabilities.
    Question 1b. How does the Department foresee the implementation of 
the NECP, released on July 31, 2008, if the D Block auction is further 
delayed?
    Answer. OEC will continue to maintain the current NECP 
implementation schedule. If there were to be any further delays of the 
D Block auction, OEC does not anticipate a negative impact on the NECP 
implementation given the strategic nature of the plan and its delivery 
schedule, and because the NECP does not set out any specific 
recommendations or milestones for that particular band. The NECP does 
recognize that advanced broadband services and emerging communications 
technologies are tools to aid in cross-jurisdictional communications.
    Question 2. Please detail the specific collaborations and analysis 
that occurred between the Office of Emergency Communications and the 
FCC as it relates to the claim that the 58 FCC public safety regions 
can operate in a manner consistent with the SCIPS and the NECP.
    Answer. The Federal Communications Commission (FCC) participated in 
the development of the National Emergency Communications Plan (NECP) as 
part of its close collaboration with the Office of Emergency 
Communications and other Federal agencies in the Emergency 
Communications Preparedness Center Working Group on the NECP. Going 
forward, one of the challenges in implementing the NECP, building upon 
the work already accomplished through the development of the SCIPs and 
improving emergency communications at all levels of government, is to 
ensure greater coordination on a regional basis. The OEC also worked 
with the National Public Safety Telecommunications Council Spectrum 
Committee to ensure that the FCC issues were addressed from the 
stakeholders' perspective. OEC will continue to work closely with the 
FCC, the Federal Emergency Management Agency (FEMA), and other 
stakeholders to foster such regional coordination in the FCC public 
safety regions, the FEMA-administered Regional Emergency Communications 
Coordination Working Groups, and other regional forums such as the 
National Capitol Region to ensure that such regional efforts align 
consistently with the SCIPs and NECP.
    Question 3a. As you know from the make-up of the PSST board, public 
safety entities are understandably protective of their spectrum.
    How does OEC plan to collaborate with public safety entities to 
turn over control of their spectrum to the PSST?
    Question 3b. How has the OEC coordinated with the PSST in the past 
and what level of collaboration is needed to ensure a successful re-
auction in the future?
    Answer. The Office of Emergency Communications (OEC) has worked 
with the Public Safety Spectrum Trust (PSST), as the public safety 
broadband licensee, in coordination with the Federal Partnership for 
Interoperable Communications to ensure that the PSST was aware of the 
views of Federal user members concerning access to the proposed Nation-
wide broadband public safety network by Federal emergency responders. 
OEC is not aware of any proposed requirements in the Federal 
Communications Commission's pending rulemakings for this band that 
would oblige public safety entities to transfer control of their 
licensed spectrum to the PSST. Instead, the PSST is envisioned to be 
the sole public safety licensee for the Nation-wide broadband public 
safety network, through which public safety access to the network would 
be coordinated.
    As stated at the hearing, OEC stands ready to offer whatever 
assistance it can to ensure the successful conclusion of the FCC's 
rulemaking, the re-auction of the commercial spectrum in that band, and 
any other steps needed to successfully deploy the network.
 Questions From Ranking Member Charles W. Dent of Pennsylvania for Mr. 
 Chris Essid, Director, Office of Emergency Communications, Department 
                          of Homeland Security
    Question 1. What is your perspective on the 700 MHz D Block and how 
do you envision it will assist our Nation's first responders? Do you 
believe the approach being taken by the FCC to auction the spectrum 
(i.e. a national versus regional auction) is consistent with the 
``bottom-up'' approach to first responder communications as advocated 
in the SAFECOM continuum?
    Answer. Response was not provided at the time of publication.
    Question 2. Communications technologies have rapidly evolved over 
the years, and ensuring that first responders have access to state-of-
the-art communications capabilities is critical. The National Emergency 
Communications Plan appears to recognize this fact and established as 
one of its objectives the need to integrate emerging technologies with 
current emergency communications capabilities.
    Does the Department of Homeland Security plan to promote the use of 
``commercialized'' technologies like those widely deployed by the 
wireless industry? What benefits and challenges might this present to 
first responders?
    Answer. The National Emergency Communications Plan (NECP) is a 
technology-neutral strategy--it does not favor a particular 
communications device nor does it identify a preferred swath of 
spectrum for public safety use. It recognizes that technology is just 
one element in the overall ``fix'' to improve interoperability, along 
with standard operating procedures, governance, planning, and training 
and exercises.
    The plan, however, does recognize the benefits of getting advanced 
broadband services, including commercially available technologies, into 
the hands of our Nation's first responders and proposes solutions to 
spur the deployment of emerging communication technologies. In 
addition, the plan recognizes the importance of coordination and 
partnership among the public and private sectors. The NECP also 
encourages the aggregation of emergency response agencies' user 
requirements during the development of emerging technologies to 
increase the effectiveness of the private sector in developing 
standardized products and services.
  Questions From Chairman Henry Cuellar of Texas for Dr. David Boyd, 
Director, Command, Control, and Interoperability Division, Science and 
        Technology Directorate, Department of Homeland Security
    Question 1. Do you believe that the public-private partnership 
network for public safety broadband communications can be successfully 
built and operated as a commercially viable system without some form of 
public subsidy?
    Answer. It is the administration's position that the Federal 
Communications Commission's (FCC) proposed public-private partnership 
is a unique framework for balancing public safety and commercial 
broadband capabilities. There are many factors that will determine the 
commercial viability of this model. To aid its prospects for success, 
we understand that the FCC is seeking to clarify through a rulemaking 
the terms of the partnership in advance of a re-auction of the 700 MHz 
``D block''. We understand that no explicit public subsidy has been 
proposed, therefore, commercial viability is central to ensuring that 
the potential benefits of this model are realized. Of course, bid 
prices for the spectrum being auctioned reflect the value to the 
private sector under the partnership model and, to the extent they are 
below prices for spectrum that is solely used for commercial purposes, 
represent an implicit form of taxpayer support for the partnership. 
Furthermore, the FCC notes that the comment period in question closed 
on November 12, 2008, and that a number of commercial entities filed 
comments expressing interest in bidding on the D block.
    Question 2. As you know from the make-up of the PSST board, public 
safety entities are understandably protective of their spectrum.
    How does DHS plan to collaborate with public safety entities to 
turn over control of their spectrum to the PSST? In your response 
please list the public safety entities, discuss timetables, identify 
milestones and goals, and share corresponding charts that illustrate 
the ``turn-over'' of the spectrum to the PSST.
    Answer. The congressionally mandated digital television transition 
will free vital spectrum for use by the emergency response community as 
television broadcasters return the analog broadcast spectrum they 
currently occupy. Through this transition, which is to occur no later 
than February 17, 2009, the FCC has proposed that a single Nation-wide 
license be issued for 10 MHz of the 700 MHz public safety band that has 
been designed for broadband use. The FCC has issued a single Nation-
wide license for the public safety 700 MHz broadband allocation to the 
Public Safety Broadband Licensee (PSBL). This transition does not 
affect any existing public safety spectrum currently being used by 
emergency responders across the Nation, nor does it affect that part of 
the 700 MHz band that will be directly licensed to public safety 
agencies. To be clear, while some 700 MHz narrowband public safety 
operations will be relocated due to a change in the band plan for this 
spectrum, these licensees will retain the same number of channels they 
currently hold once relocated. The FCC has proposed to require the D 
Block licensee to fund this relocation. The Department of Homeland 
Security does not have jurisdiction over this process; the FCC is the 
lead on this transition.
    The Office of Emergency Communications has worked with the Public 
Safety Spectrum Trust (PSST) in coordination with the Federal 
Partnership for Interoperable Communications to ensure that the PSST 
was aware of the views of Federal user members concerning access to the 
proposed Nation-wide broadband public safety network by Federal 
emergency responders. DHS is not aware of any proposed requirements in 
the Federal Communications Commission's pending rulemakings for this 
band that would oblige public safety entities to transfer control of 
their licensed spectrum to the PSST. Instead, the PSST is envisioned to 
be the sole public safety licensee for the Nation-wide broadband public 
safety network, through which public safety access to the network would 
be coordinated.
    As stated at the hearing, DHS stands ready to offer whatever 
assistance it can to ensure the successful conclusion of the FCC's 
rulemaking, the re-auction of the commercial spectrum in that band, and 
any other steps needed to successfully deploy the network.
    Question 3. What are the biggest technological impediments to 
achieving full coverage of a jurisdiction under a national network and 
regional network?
    Answer. There are no unsolvable technological impediments to 
achieving full coverage of a jurisdiction under either a national or a 
regional network. The overarching impediment is cost. The central 
question on whether we use a national or a regional network depends 
upon whether there will be enough subscribers to pay for the 
infrastructure required to provide coverage in a given area. 
Furthermore, the FCC docket considering the issues raised remains open 
and the commission has sought comment on the costs of either approach.
 Questions From Ranking Member Charles W. Dent of Pennsylvania for Dr. 
David Boyd, Director, Command, Control, and Interoperability Division, 
  Science and Technology Directorate, Department of Homeland Security
    Question 1. Are there certain technologies that would function more 
efficiently if the 700 MHz network were to be built on a national 
versus a regional basis?
    Answer. It is the administration's position that in the context of 
a regional system approach in the 700 MHz band, common standards would 
be beneficial to the interoperability of the network during incidents 
that cross regional licensing boundaries. The DHS Science and 
Technology Directorate's Office for Interoperability and Compatibility 
has supported a system of systems approach whereby each regional system 
would work as part of a larger national system. The system of systems 
approach allows separate agencies to join together using interface 
standards, compatible procedures, and training exercises without having 
to discard major investments in their existing systems.
    Question 2. Will most of the communication devices currently used 
by first responders work on a future 700 MHz network or will 
jurisdictions be required to purchase new devices?
    Answer. It is the administration's position that most communication 
devices currently in use in the field were never intended for broadband 
use on the 700 MHz band. Therefore, very few of the current 
communication devices will be functional on the 700 MHz band. To the 
extent that public safety agencies desire to use the 700 MHz band and 
do not possess devices that operate on those frequencies, they will 
need to consider purchasing new equipment, using patching technologies, 
or possibly modifying their existing equipment. Investment decisions 
will vary depending on circumstances, and DHS will work with its State 
and local partners to evaluate equipment needs and cost-effective 
investment approaches. It is worth noting that the National Baseline 
Survey on Interoperability found that agencies tend to be more 
developed in technology than in other areas of interoperability, such 
as standard operating procedures. DHS is using these findings to focus 
its grant funding in areas that will bring about effective approaches 
toward advancing interoperability.
    Question 3. The National Capitol Region received a waiver from the 
FCC in order to develop its 700 MHz network. Do you believe that the 
FCC should grant a similar waiver to New York City which would allow 
the city to build a network on its own but within the guidelines 
established by the FCC?
    Answer. The National Capitol Region was granted a temporary waiver 
to operate on the 700 MHz band. The FCC has continued to grant 
renewable Special Temporary Authority for the operations of the 
National Capitol Region in the 700 MHz band, consistent with its Second 
Report and Order, which will allow this network to operate until such 
time as the Nation-wide network is deployed in the area. The FCC has 
also sought comment on permitting early local public safety broadband 
build out, so long as such networks would be fully interoperable with, 
and ultimately fully integrated into, the Nation-wide public safety 
network. It is the administration's position that the public-private 
partnership proposed by the FCC represents a potential means to enhance 
public safety interoperability and broadband capability. It would be 
premature to recommend waivers for local jurisdictions until the 
viability of the proposed partnership model is fully assessed.
    Question 4. What is your perspective on the 700 MHz D Block and how 
do you envision it will assist our Nation's first responders? Do you 
believe the approach being taken by the FCC to auction the spectrum 
(i.e. a national versus regional auction) is consistent with the 
``bottom-up'' approach to first responder communications as advocated 
in the SAFECOM continuum?
    Answer. The emergency response community has long sought additional 
spectrum for mission-critical activities. The additional 700 MHz 
spectrum is essential to the emergency response community and helps to 
satisfy these needs. The public safety broadband spectrum in the 700 
MHz band, which has the ability to support voice, text, imagery, 
schematics, video, and other broadband applications, has already been 
licensed to the Public Safety Spectrum Trust on a Nation-wide basis. 
Additional 700 MHz narrowband spectrum is available for local licensing 
and use. The Commission has also proposed licensing the commercial 
spectrum as part of the public/private partnership to be paired with 
the public safety broadband allocation either on a Nation-wide basis, 
or on the basis of 58 regions. The Commission has proposed to assess 
the winning set of licenses based first on the greatest population 
coverage, followed by the highest aggregate bid(s). Emergency 
responders have a compelling interest in broadband communications on 
the 700 MHz band. Whatever decision is made on the broadband network, 
it is essential that spectrum remain available to emergency responders.
Questions From Chairman Henry Cuellar of Texas for Mr. Richard Mirgon, 
   First Vice President, Association of Public-Safety Communications 
                               Officials
    Question 1. Do you believe that the public-private partnership 
network for public safety broadband communications can be successfully 
built and operated as a commercially viable system without some form of 
public subsidy? Please detail the supporting argument for APCO's 
position.
    Answer. Response was not provided at the time of publication.
    Question 2a. As you know from the make-up of the PSST board, public 
safety entities are understandably protective of their spectrum.
    What is APCO's plan to collaborate with public safety entities to 
turn over control of their spectrum to the PSST? In your response 
please list the public safety entities, discuss timetables, identify 
milestones and goals, and share corresponding charts that illustrate 
the ``turn-over'' of the spectrum to the PSST.
    Answer. Response was not provided at the time of publication.
    Question 3. Please state clearly for the record, whether APCO 
supports a national or regional deployment of a public safety 
communications network. In your response, please detail the policy 
reasons that support APCO's position.
    Answer. Response was not provided at the time of publication.
 Questions From Ranking Member Charles W. Dent of Pennsylvania for Mr. 
  Richard Mirgon, First Vice President, Association of Public-Safety 
                        Communications Officials
    Question 1. Several months ago there were reports that the 
Association of Public-Safety Communications Officials (APCO) was 
threatening to cut ties with the current Public Safety Spectrum Trust 
(PSST) over discussions regarding the on-going 700 MHz auction. What is 
APCO's position with regard to the Public Safety Spectrum Trust's 
handling of the 700 MHz D Block auction?
    Answer. Response was not provided at the time of publication.
    Question 2a. In August, APCO suggested changes to the FCC rules 
that would significantly enhance the incentive for potential bidders by 
doubling the spectrum available from a 10-MHz block to a 20-MHz block.
    Please discuss why APCO believed this proposal would increase the 
likelihood of success in a second D Block auction.
    Answer. Response was not provided at the time of publication.
    Question 2b. Is this still the stance of APCO?
    Answer. Response was not provided at the time of publication.
    Questions From Chairman Henry Cuellar of Texas for Mr. John M. 
        Contestabile, Board Member, Public Safety Spectrum Trust
    Question 1. Please state clearly for the record, whether the Public 
Safety Spectrum Trust (PSST) advocates a national or regional 
deployment of a public safety communications network. In your response, 
please detail the policy reasons that support the PSST's position.
    Answer. Although the PSST, the Public Safety Broadband Licensee 
(PSBL), retains a preference for a single, Nation-wide ``D Block'' 
spectrum (D Block) license, it has begun exploring the merits of a 
State or regional licensing approach for the commercial D Block 
spectrum that will be paired with the PSBL spectrum to create the 
public safety-commercial partnership for the shared wireless broadband 
network (SWBN). The PSST strongly believes that the country's first 
responders need a Nation-wide, interoperable broadband network. 
However, the PSST also believes that goal can be achieved under a 
regional licensing approach for the D Block, as long as the Federal 
Communications Commission (FCC) mandates a single air interface 
technology to be used throughout the Nation-wide network and a legally 
binding governance structure among any multiple regional D Block 
licensees to facilitate the interactions among the D Block licensees 
and the PSBL, and to ensure interoperability and Nation-wide roaming. 
Although deployment of a single air interface technology and the need 
to work with a single D Block licensee would be a given if a single 
bidder were to acquire a Nation-wide D Block license, the PSST believes 
that since such a result cannot be assured, it is prudent--with the 
requirement of a single technology and common commercial licensee 
governance structure noted above--to offer to prospective D Block 
regional license bidders an alternate route to reach the PSST's desired 
Nation-wide interoperable broadband network goal.
    The PSST believes assigning the D Block spectrum to local or 
regional entities without the provisions stated above would be a 
serious mistake. Without a requirement for a common air interface, 
different localities or regions could opt for technologies that would 
be incompatible with each other. As noted above, a legally binding 
governance structure among multiple regional D Block licensees provides 
an effective mechanism for communications with the PSBL and would 
facilitate roaming for first responders among the regions.
    Question 2. As you know from the make-up of the PSST board, public 
safety entities are understandably protective of their spectrum. In 
your response please list the public safety entities, discuss 
timetables, identify milestones and goals, and share corresponding 
charts that illustrate the ``turn-over'' of the spectrum to the PSST.
    Answer. In 1997 Congress passed the Balanced Budget Act of 1997, 
and the President signed into law, legislation designating 24 MHz of 
spectrum in the upper 700 MHz band to public safety. The FCC designated 
12 MHz of this spectrum for narrowband voice communications channels 
and 12 MHz of the spectrum for wideband communications. With the gains 
in technology over the next 10 years which introduced broadband 
technologies, the FCC re-designated the 12 MHz of wideband spectrum for 
broadband use and subsequently issued a Nation-wide license for that 12 
MHz broadband spectrum to the PSST for use in a public-private 
partnership. Specifically, the partnership would combine the PSST's 
license with an adjoining 10 MHz of spectrum (the D Block) in which to 
build a Nation-wide mobile broadband network and enable Nation-wide 
public safety communications interoperability. This 12 MHz of broadband 
spectrum was originally licensed by the FCC directly to the PSST on 
November 19, 2007, and has never been licensed to any other public 
safety entity or entities. The FCC is completing its rulemaking 
concerning the build-out requirements and other requirements for this 
spectrum, and the PSST will begin planning its deployment timetables 
and milestones once the FCC releases its final order and rules and 
consistent with a subsequent Network Services Agreement to be 
negotiated with the D Block winner[s].
    Question 3. In several instances--at a hearing before the Energy 
and Commerce Committee in March 2008, in several publications, and in 
the second D Block notice of the FCC--there have been calls for the 
PSST to improve its transparency with regard to organizational 
structure. There have also been calls for the PSST to clarify its 
position regarding the D Block.
    Please identify the specific steps that the PSST has taken to 
demonstrate transparency. In your response, please demonstrate how 
those specific steps have improved the auction process.
    Answer. Only incorporated in June 2007, the PSST took many steps to 
demonstrate transparency well before the March 2008 hearing. Even 
before the PSST became an FCC licensee, it launched a robust public web 
site (found at www.psst.org) on or about November 13, 2007 (within days 
of it becoming the PSBL upon formal award of the Nation-wide public 
safety broadband license in accordance with an open application and 
qualification process as prescribed in a public rulemaking process by 
the FCC) that contained extensive information about the PSST and the 
contemplated public safety network. Under the ``About the PSST'' link 
on that web site, the PSST posted a description of the PSST, a list of 
its 15 member organizations, the names of the board representatives of 
those member organizations, the names and bios of the members of its 
Executive Committee, its Articles of Incorporation and its Bylaws. The 
PSST web site also set forth a history of public safety communications 
leading up to the FCC decision to create a public safety-commercial 
partnership to establish a Nation-wide, interoperable public safety 
broadband network as well as a summary of that FCC decision and a 
description of the PSST's vision of such a public safety broadband 
network. In addition to providing contact information and a link to all 
the PSST's news releases, the PSST web site also included much 
additional information on the future public safety broadband network.
    Per the FCC's 2nd Report and Order adopted in July 2007 (2nd Report 
and Order), the FCC required the envisioned Nation-wide D Block auction 
winner to negotiate an NSA with the PSBL. In response to requests from 
potential D Block bidders,\1\ but without any FCC requirement to do so, 
the PSST also demonstrated great transparency by devoting significant 
resources to create and post on its public web site a detailed Bidder 
Information Document (BID). The BID set forth the PSST's expectations 
and preferences for the SWBN, subject to negotiation of the NSA. The 
PSST released BID version 1.0 on the PSST web site on November 15, 2007 
so all interested parties would understand public safety's expectations 
and preferences prior to the filing deadline to participate in the 
auction.\2\
---------------------------------------------------------------------------
    \1\ Potential bidders requesting guidance on public safety 
expectations for the SWBN included AT&T, Frontline Wireless and 
Verizon.
    \2\ After further input from potential bidders, the PSST released 
version 2.0 (the final version) of the BID on its web site on November 
30, 2007.
---------------------------------------------------------------------------
    The PSST initiated the BID process in a transparent way by asking 
the National Public Safety Telecommunications Council (NPSTC) to create 
a draft set of technical expectations. Many public safety and industry 
representatives contributed to the NPSTC work product, including 
industry representatives of potential bidders.\3\ NPSTC published its 
set of technical specifications on its own web site. In addition, the 
PSST sought--and held--numerous meetings with potential bidders in 
connection with the development of the BID.
---------------------------------------------------------------------------
    \3\ NPSTC published a list of more than 50 public safety 
contributors and more than 20 industry contributors to its technical 
expectations document available at http://www.npstc.org/documents/
700%20SoR%20Participants%20v2.pdf. The industry participant list 
includes wireless vendors and carriers such as Airvana, Alcatel-Lucent, 
AT&T, Ericsson, Frontline Wireless, Inmarsat, Motorola, Nortel, 
Northrop Grumman, Tyco Electronics, Qualcomm and Verizon.
---------------------------------------------------------------------------
    All of the above demonstrations of transparency by the PSST helped 
the initial auction process by giving potential bidders information 
about the PSST, the entity with whom the D Block auction winner would 
negotiate the NSA, to reduce uncertainty about its negotiating partner. 
The PSST actions also assisted the auction process by providing very 
specific information regarding the PSST's expectations and preferences 
regarding the SWBN in advance of the auction so potential bidders could 
consider those factors when they analyzed the business case for a 
possible D Block bid.
    After the auction, the PSST continued to demonstrate further 
transparency by considering enhancements to its corporate governance 
procedures despite the fact that it had been in existence only a few 
calendar quarters. Those changes under consideration by the PSST board 
include opening board meetings to the public, making minutes of board 
meetings available to the public and posting annual financial 
statements on-line. Such changes would provide additional transparency 
that could help a future auction by providing additional information 
about the PSST to potential bidders.
    Of course, transparency must be balanced against the reality that 
the PSST also must consider the interests of the prospective public 
safety users on the contemplated Nation-wide network, some of which may 
be safeguarded by FCC rules, and some of which may be protected in the 
process of arms' length negotiation to reach an NSA between the PSST 
and the D Block licensee(s). So, the PSST should not be compelled to 
disclose all of its deliberations, negotiating strategies and potential 
areas of compromise or tradeoff publicly--thereby making that 
information available to bidders that the PSST might find ``on the 
other side of the negotiating table'', any more than such bidders 
should be required to disclose their true minimally acceptable 
positions on all important issues to participate in the D Block 
auction. The PSST believes that it has provided and continues to 
provide guidance and relevant reasoning as to its positions and has 
made those publicly available, both in its publicly filed comments in 
FCC proceedings and through the materials posted on its web site, and 
has earnestly solicited and received equally candid and helpful input 
from potential D Block bidders.
    Question 4. Do you believe the public-private partnership network 
for public safety broadband communications can be successfully built 
and operated as a commercially viable system without some form of 
public subsidy?
    Answer. To answer the question, it is useful to look at the SWBN as 
what it is--a commercial network and a public safety network using a 
common infrastructure. I will defer to others with more expertise on 
the economics of a commercial network, but I have no reason to believe 
that the commercial network portion of the SWBN would require any 
public subsidy to be successfully built and operated. The public safety 
network, however, will require public expenditures. At a minimum, State 
and local government first responders will need public funds to buy 
wireless broadband equipment for the network \4\ and pay monthly access 
charges.\5\ Further governmental assistance would be welcome in other 
areas such as: for PSST operating expenses, subsidization of public 
safety devices, subsidization of public safety service access charges 
and assistance for network construction in places where such 
construction may not be otherwise economically viable.
---------------------------------------------------------------------------
    \4\ Given the potential economies of scale (see, e.g.,  370 of 2nd 
Report and Order) of a Nation-wide public safety system using 
commercial hardware, the costs of SWBN devices should compare favorably 
to public safety devices used today on balkanized largely local 
networks.
    \5\ In the 2nd Report and Order, the FCC stated it believed the 
public safety service fees ``will in fact be lower than typical 
commercial rates for analogous services.'' 2nd Report and Order at  
451.
---------------------------------------------------------------------------
 Questions From Ranking Member Charles W. Dent of Pennsylvania for Mr. 
    John M. Contestabile, Board Member, Public Safety Spectrum Trust
    Question 1. How does the PSST ensure that its policy 
recommendations represent all public safety concerns, including those 
of the major cities like New York?
    Answer. The PSST is a nonprofit corporation established to provide 
public safety leadership an organizational structure through which 
decisions can be made to guide the construction and operation of a 
Nation-wide wireless broadband network for public safety. The PSST 
works hard to represent all State and local public safety concerns. One 
way the PSST represents the broad array of State and local public 
safety organizations, such as those serving in a major city like New 
York, is through the membership of its board of directors. The PSST 
board of directors consists of representatives of organizations 
representing local, county and State public safety organizations and 
the local, county and State governments who employ them. Through its 
rulemaking process, the FCC mandated the representation of each such 
organization on the PSST board. The organizations represented on the 
PSST board are:
    1. American Association of State Highway and Transportation 
        Officials (AASHTO)
    2. American Hospital Association (AHA)
    3. Association of Public-Safety Communications Officials--
        International (APCO)
    4. Forestry Conservation Communications Association (FCCA)
    5. International Association of Chiefs of Police (IACP)
    6. International Association of Fire Chiefs (IAFC)
    7. International City/County Management Association (ICMA)
    8. International Municipal Signal Association (IMSA)
    9. National Association of State Emergency Medical Services 
        Officials (NASEMSO)
    10. National Association of State 9-1-1 Administrators (NASNA)
    11. National Emergency Management Association (NEMA)
    12. National Emergency Number Association (NENA)
    13. National Fraternal Order of Police (NFOP)
    14. National Governors Association (NGA)
    15. National Sheriffs' Association (NSA)
    As demonstrated by the nature of the above organizations, the 
directors represent groups with thousands of first responders and local 
government officials in major cities.
    Another way the PSST seeks to represent varied public safety 
concerns is through the expertise and job experience of its board 
members. Members of the PSST board bring decades of critical and 
directly relevant experience in many types of public safety 
organizations to their PSST assignment and, through that experience, 
have a keen understanding of public safety needs. That understanding 
provides the PSST with essential tools to help direct policy 
recommendations.
    Yet another way the PSST works to represent all public safety 
concerns is through its outreach activity in general and communications 
with State and local public safety groups in particular. PSST board 
members and service providers to the PSST have attended and spoken at 
dozens of public safety conferences and meetings during the last 12 
months. At these events, PSST board members and its service providers 
have sought input from conference and meeting leaders--and rank-and-
file members--to inform them on current needs, trends and opinions from 
the public safety community. Furthermore, the PSST board members and 
its service providers have been speakers and members of presentation 
panels to help explain the proposed Nation-wide public safety broadband 
system and the opportunities it presents.
    Apart from conferences and meetings, PSST board members communicate 
directly with Federal, State and local public safety officials to help 
PSST board members understand the needs of those officials.\6\ For 
example, the PSST Chairman recently traveled to New York City to 
discuss New York City's public safety needs directly.
---------------------------------------------------------------------------
    \6\ To help communicate with public safety organizations, the PSST 
also established a robust web site (found at www.psst.org) to provide 
background information on the PSST, to explain further the proposed 
Nation-wide, interoperable broadband public safety network and to 
identify PSST contact information.
---------------------------------------------------------------------------
    As hard as the PSST works to represent all public safety, however, 
it of course cannot guarantee unanimous support among all public safety 
entities on a PSST policy decision any more than a congressional 
representative can count on 100 percent agreement among his or her 
constituents on any given issue or vote. To that end, I realize my 
fellow hearing witness from New York city offered a different view from 
the PSST on the need for a Nation-wide interoperable public safety 
broadband network even though that network has received wide and strong 
support from public safety organizations around the country. At the 
hearing, I specifically commended the city of New York for putting 
together the essential ingredients that have permitted it to deploy an 
advanced broadband network. As I also said at the hearing, however, if 
New York's access to funding could be replicated throughout the rest of 
the country, we would be facing a much less challenging future. 
Unfortunately, funding for comparable dedicated public safety-only 
networks is lacking for almost all other State and local jurisdictions 
and history has proven it will take a national effort to create Nation-
wide seamless interoperability. The PSST therefore respectfully 
disagrees with the city of New York's current position on the Nation-
wide, interoperable public safety broadband network.
    Question 2. If the FCC proceeds with the spectrum auction based on 
58 regions, how would the PSST manage its relationship with these 
regional licensees?
    Answer. Subsequent to the hearing, the FCC adopted its 3rd FNPRM 
concerning the Nation-wide public safety broadband network on September 
25, 2008. In that 3rd FNPRM, the FCC proposed offering the D Block at 
auction as both a single, Nation-wide license and as regional licenses 
covering 58 regions.\7\ If the D Block spectrum is licensed on a 
regional basis, no one of course can know at this time the number of 
distinct regional licensees that would result from such an auction. 
But, I would expect that the number of D Block licensees will be fewer 
than the number of regions since it seems likely that an entity or 
entities will win more than one region if they are interested in this 
spectrum. That said, managing the PSST's relationship with multiple 
regional licensees will be challenging and frankly will likely require 
more PSST resources than just interfacing with one national licensee.
---------------------------------------------------------------------------
    \7\ 3rd FNPRM at  63.
---------------------------------------------------------------------------
    The PSST notes that the FCC's 3rd FNPRM seeks comment on a proposal 
that if the D Block is licensed on a regional basis to multiple 
entities, the FCC adopt a ``legally binding governance structure'' 
among the multiple regional D Block licensees ``to facilitate 
interactions among multiple D Block licensees and the PSST, and to 
ensure interoperability and nationwide roaming.''\8\ If the FCC grants 
regional D Block licenses to multiple entities, the PSST believes that 
such a governance structure will be essential to help it manage its 
relationship with such licensees in an effective and efficient manner.
---------------------------------------------------------------------------
    \8\ 3rd FNPRM at  173.
---------------------------------------------------------------------------
    Question 3. Would public safety communications benefit if the FCC 
were to grant more spectrum waivers similar to the waiver issued to the 
National Capital Region? Provided that these 700 MHz networks are 
eventually amalgamated into the national network, would these waivers 
facilitate faster network deployment?
    Answer. FCC authority to permit interim temporary deployments 
similar to the system built by the National Capital Region may or may 
not benefit public safety communications and/or facilitate a faster 
rollout of a Nation-wide, interoperable public safety broadband 
network. Such grants of special temporary authority by the FCC will 
only benefit public safety communications if the jurisdiction seeking 
such authority has sufficient resources to design, build, maintain and 
hopefully upgrade a network that will effectively work and will allow 
first responders to talk and share data on that network. That is, until 
the shared commercial-public safety network replaces that interim, 
temporary network. In other words, FCC permission itself without a 
funded and workable follow-through plan will not itself benefit public 
safety communications. Moreover, if the jurisdiction wishes to recover 
a substantial part of the cost of its early network deployment--
consistent with the PSST's preference for a smooth and rapid transition 
from that network to a shared commercial-public safety network--there 
would need to be close coordination and agreement between the 
jurisdiction and the relevant D Block licensee. In particular, the 
relevant D Block licensee needs to ensure that network design and 
construction in the affected area is done in such a way as to allow for 
easy integration into the Nation-wide, interoperable broadband network 
that the D Block Licensee(s) deploys in other areas. [Network design 
and construction--particularly in large, urban areas--is not a rapid 
process, but funding is more readily available for such construction in 
the largest markets. It is worth noting that while it is very likely 
that only major metropolitan areas could assemble the funding needed to 
construct a modern, commercial open standard broadband network, it is 
in precisely those same markets where the commercial D Block 
licensee(s) would have strong economic incentives to deploy the shared 
commercial-public safety network the earliest.]
    Therefore, the capability to fund and implement a system under a 
waiver would also be essential for such FCC authority to facilitate 
faster network deployment. In addition, such FCC authority would only 
help quicken network deployment if the local system is built with an 
air interface compatible with the system used by the D Block 
licensee(s)--such that it is therefore later able to be part of the 
larger Nation-wide, interoperable network. If the local system is built 
with an incompatible technology, or with a customized public safety-
specific operating system, it will do little to hasten the Nation-wide 
interoperable broadband network's deployment.
    Thank you for the opportunity to answer your questions and please 
contact me if you need any additional information regarding these 
matters.
    Questions From Chairman Henry Cuellar of Texas for Mr. LeRoy T. 
             Carlson, Chairman of the Board, U.S. Cellular
    Question 1. On page 4 of your testimony, you recommend that the FCC 
rule for the D Block address issues such as ``reliability, coverage, 
public safety preemption, back-up power, security, and major service 
features.'' You argue that if the rules are commercially reasonable, 
then companies will be inclined to invest in the partnership.
    As a representative of the private sector, please provide the 
subcommittee with specific examples of what would attract a company to 
invest in a regional plan as compared to a national model.
    Answer. A company would be more likely to make operating a D Block 
license commercially viable if the company can leverage its existing 
network infrastructure and operations in the area covered by the 
license. Such geographic overlap will yield cost efficiencies and speed 
network and service deployment.
    United States Cellular Corporation (``USCC'') operates wireless 
systems covering about 15 percent of the Nation's population. It would 
have substantial efficiencies in the areas covered by its existing 
systems and in some adjacent areas. In contrast, it would have much 
higher network construction and operating costs outside these areas, 
including in about 85 percent of the broad geography covered by a 
national license. In addition to lacking existing infrastructure to 
leverage in geographic areas distant from its existing service areas, 
USCC simply could not finance the much larger acquisition, construction 
and operating costs for a national license. Accordingly, selected 
regional licenses (for example, some of the 58 public safety regions) 
would be much more likely to attract investments from a company like 
USCC than would a national license.
    There are many other regional wireless operators with systems 
covering certain metropolitan or rural service areas, but far less than 
the entire Nation. Moreover, there are many other potential bidders 
that could finance the costs of selected regional systems but not a 
national system. One expert, Dr. Coleman Bazelon, testified before the 
House Committee on Energy and Commerce, Subcommittee on 
Telecommunications and the Internet, on April 15, 2008 that he 
estimated the unfilled demand for regional licenses in the A and Blocks 
of the 700 MHz auction held in early 2008 (Auction 73) at $9.346 
billion.
    Question 2. On page 3 of your testimony, you state that smaller 
area licenses will attract more bidders.
    How would this approach avoid uneven investments in various 
jurisdictions?
    Answer. I anticipate that each area will attract one or more bids. 
Each area has existing wireless operators who would be candidates to 
acquire additional spectrum at a reasonable price and could leverage 
their networks and operations to satisfy efficiently the requirements 
of the shared broadband wireless network. Also, new entrants and 
operators serving other areas of the Nation may be attracted to bid on 
area licenses that have low minimum opening bids.
    For the areas that are likely to be less economically attractive, 
the FCC has proposed a slightly lower coverage requirement that would 
have to be achieved by the end of the license term. This approach would 
decrease the costs of serving low-density areas and help attract 
bidders to them, while still achieving very high coverage levels. Also, 
the FCC has recently proposed an auction mechanism that would, during 
the auction, decrease the minimum bid on areas that have not attracted 
bids prior to a certain point in the auction. USCC supports these 
proposals and expects that they will help avoid unsold area licenses.
    Once a license is sold at auction, the winning bidder will be 
required to build a network that will interoperate with the other 
networks in the public/private partnership, with aggressive coverage 
requirements. Each licensee will be required to make investments in its 
areas that are necessary to provide uniform Nation-wide high levels of 
network service features, quality of service and reliability for public 
safety users.
    Question 3. Do you believe that the public-private partnership 
network for public safety broadband communications can be successfully 
built and operated as a commercially viable system without some form of 
public subsidy?
    Answer. Yes, because the shared broadband network will yield 
substantial economies. With reasonable auction rules, technical 
requirements, pricing and spectrum lease obligations, this network can 
be built and operated without congressional funding. Many public safety 
users will find the shared broadband network attractive and affordable, 
and the systems will be commercially viable for the licensees. Yet, 
many public safety entities operate under limited budgets and some form 
of public support or subsidy may help them afford conversion to, 
handsets for and services on the shared broadband network. 
Additionally, public support or subsidies could help public safety 
entities order upgrades to the network features and services that the 
licensees would be required to provide. Spectrum lease payments from 
the commercial operators for use of the spectrum assigned to the Public 
Safety Spectrum Trust (PSST) could represent one source of such support 
or subsidy.
    Question 4. Please provide the committee with a detailed chart that 
explains the U.S. Cellular coverage proposal for each subcommittee 
Member's State (including Chairman Bennie G. Thompson of Mississippi). 
In your charts, please identify the percentage and scope of the 
coverage area.
    Answer. In the pages that follow, we have provided maps for each of 
the States requested, based on the State-level licensing approach and 
population coverage tiers proposed by U.S. Cellular. As you review 
these maps, it is important to realize that it is impossible to predict 
in advance the specific coverage design that a winning licensee would 
adopt to satisfy the population coverage requirement. In preparing 
these maps to show one way the coverage requirement could be satisfied, 
we have taken the approach of assuming that the more dense counties 
would be covered before the less dense counties. We recognize that this 
is a simplification and deployments wouldn't likely be ``all or 
nothing'' at the county level. Actual coverage plans would result from 
negotiations between public safety and each D Block licensee and would 
likely be based on local public safety priorities as well as 
opportunities for the licensee to leverage its existing network assets 
(e.g. towers) in the areas to be covered. Our maps have also noted 
major highways and communities with greater than 3,000 population. In 
addition to satisfying the population coverage requirement, our 
proposal (and the FCC's) includes a requirement to provide coverage to 
these communities and to the most heavily traveled interstate and State 
highways.
    Please feel free to contact me if you or your colleagues require 
any further information or clarification concerning U.S. Cellular's 
proposals.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Questions From Chairman Henry Cuellar of Texas for Mr. Robert LeGrande, 
       II, Former Chief Technology Officer, District of Columbia
    Question 1. You are to be commended for moving out ahead of the 
Federal Government and building out the National Capitol Region's 
broadband, interoperable network.
    Do you think the FCC should set specific transmission standards or 
simply require that broadband public safety networks have the ability 
to interoperate?
    Answer. Chairmen Thompson and Cuellar, thank you for your kind 
acknowledgment of our efforts in the National Capitol Region. I'm very 
proud of how our 19 jurisdictions came together and solved voice 
interoperability and also attempted to avoid the same problems with 
video and data interoperability. I believe it is critical that we set 
standards for broadband data networks immediately. Many States and 
local jurisdictions lack direction on how to provide their public 
safety users with wireless data communications. As a result, they are 
choosing non-interoperable solutions. Many will argue that in an IP-
based world, we can more easily tie together networks. This is true, 
but short-sighted. First Responders and all other users carry devices, 
not networks. Once they roam out of a coverage area, it will be 
critical that the area in which they are roaming has the same 
technology using the same frequency. The easiest and most efficient way 
to achieve this level of interoperability is standards. The second and 
obviously the most difficult, is to try to fund and build a national 
network. We should try both and what is the worse we will do? Build 
several ``interoperable'' networks in our most targeted jurisdictions. 
This is far better than nothing which is what we have done to date.
    Question 2. Why did the National Capitol Region (NCR) stop building 
its regional broadband network and what lessons does it hold for the 
Nation as we contemplate a regional or national approach?
    Answer. In my opinion, the NCR officials stopped investing in the 
regional wireless broadband network because they were promised that the 
national network would finish the job. With many other competing 
priorities, it was an easy decision not to invest if a third party was 
going to build it for ``free''. Obviously, there was over-commitment 
and now each jurisdiction is using a different form of wireless data 
communications.
    It is important to note that the regional plan being considered by 
the FCC is not the same as the plan developed in the NCR. The FCC's 
plan would merely auction the spectrum in smaller chunks and not cover 
many of the rural areas in the country. The NCR network would be built 
and operated by the jurisdictions who agreed to use the same technology 
and frequencies. I think the most significant lesson from the NCR is 
that jurisdictions can work together for the greater good. We 
established a standard and were well on our way to achieving the 
highest level of communications interoperability in the country.
    Question 3. Do you believe that the public-private partnership 
network for public safety broadband communications can be successfully 
built and operated as a commercially viable system without some form of 
public subsidy?
    Answer. I think that if a public-private network is built, there 
will be a public subsidy in one form or the other. If the Federal 
Government does not help the winning bidder with the up-front costs of 
building the network(s) to public safety standards, then the State and 
local jurisdictions will have to pay a high user fee. If neither of 
these happens, I do not believe the bidders will have a viable business 
model, especially since they will have to compete with the existing 
commercial carriers for public safety's business.
    Question 4. On page 5 of your testimony, you state that ``we should 
fully fund the public safety spectrum trust.'' Why do you advocate for 
the Federal Government to fund the PSST?
    Answer. As mentioned in my testimony, finding funding (even if it 
is just for start-up costs) is time-consuming and takes away time that 
should be spent finding the best possible solution. The PSST has to 
remain void of the appearance of improprieties. This past year has been 
difficult for the PSST and many questions of conflicts of interest 
placed a dark cloud over their efforts. The best way to remove that 
cloud is to fund the PSST.
 Questions From Ranking Member Charles W. Dent of Pennsylvania for Mr. 
   Robert LeGrande, II, Former Chief Technology Officer, District of 
                                Columbia
    Question 1. As the Former Chief Technology Officer for the District 
of Columbia Government, does the National Capitol Region's 700 MHz 
network meet the necessary requirements for first responders or are 
there any areas that fell short of expectations or warrant further 
improvement?
    Answer. The NCR's network leverages the best and most widely-used 
commercial technology today (EVDO Rev A). Many first responders 
throughout the country are already leveraging this technology through 
their Verizon and Sprint wireless broadband services. I believe that 
public safety should start deploying commercially proven technology 
today (3G) versus deploying and operating new emerging technologies 
(4G) tomorrow (2012). The good news is that migration path to the 4G 
technology is not difficult and is going to be made easier by the 
carrier investment. The longer we wait, the more non-interoperable we 
become and the less prepared we will be when we have to respond.
    Question 2. Would you advocate that other urban areas pursue the 
development of their own 700 MHz network? If so why?
    Answer. As mentioned in my testimony, I'm a strong advocate for 
early deployments by urban areas. I think many have the maturity and 
capabilities to design, procure, deploy, and operate 700 MHz networks 
at a commercially available standard starting today. I also stated that 
the current FCC proposal has many un-answered questions from the 
Commissioners, members of Public Safety associations, as well as States 
and local jurisdictions. Universal support for the plan will take time 
and I'm very concerned that we are focusing on ensuring that the 
spectrum will be auctioned instead of finding a win-win-win solution. 
The FCC should immediately rule to allow States and local jurisdictions 
to build and operate their own 700 MHz broadband networks starting 
today. If and when we reach universal agreement on the national network 
plan, and if it is in best long-term interest for all jurisdictions 
large and small, then the early deployed networks should be integrated 
into the national network and the jurisdictions should be compensated 
for their network assets. As I highlighted above, every day we delay is 
a day we are less prepared to respond.
Questions From Chairman Henry Cuellar of Texas for Mr. Charles F. Dowd, 
           Deputy Chief, City of New York, Police Department
    Question 1. Given the decisions of Philadelphia, San Francisco and 
New York City to build and operate its own public safety network on the 
700 MHz, what assurances can you give this subcommittee that these 
cities will not contribute to the lack of connectivity across regions 
or nationally?
    Answer. Two primary factors contribute to the lack of 
interoperability among public safety first responders: (1) Public 
Safety agencies operate on disparate frequency bands; (2) Public Safety 
agencies use different and sometimes proprietary air interfaces.
    Speaking for New York City, if we are permitted to construct our 
own Public Safety Broadband Network on 700 MHz we will adapt the same 
over-the-air interface as the Nation-wide 700 MHz broadband network. 
Since the frequency band will be the same (700 MHz) and the air 
interface will also be the same, interoperability will be greatly 
enhanced. The New York City network would be connected to the adjacent 
regional networks by linking their respective Network Operations 
Centers. Authorized units roaming to another network would affiliate 
with the local site in a manner similar to cell phones that roam 
between competitive wireless networks. Roaming agreements would be 
established and protocols put into place to allow this level of 
transparency. This is standard practice in the commercial wireless 
industry; the technical issues have long since been resolved. The 
result will be much greater interoperability, Nation-wide.
    Question 2. Do you believe that the public-private partnership 
network for public safety broadband communications can be successfully 
built and operated as a commercially viable system without some form of 
public subsidy?
    Answer. The public subsidy will come in the form of user fees paid 
to the network operator by public safety agencies. Once a national 
network is established, the FCC will not permit it to fail financially. 
It will, in effect, become a regulated monopoly similar to the Bell 
System prior to divestiture. If user fees prove inadequate, they will 
be increased to ensure the continued viability and profitability of the 
network. Public Safety agencies Nation-wide will effectively bear the 
cost of the network deployment and will continue to pay indefinitely to 
access spectrum that has been allocated to them by Congress.
    Question 3a. In your testimony, you state that a national public 
safety network model needs to be done by the ``bottom-up approach.'' 
You also mentioned that every other major city agrees that a commercial 
entity will not build a network to public safety requirements.
    What are the reasons that most major cities disagree with the 
national network that the Public Safety Spectrum Trust supports?
    Answer. Commercial broadband wireless networks already exist in 
large cities. If a public safety agency wished to subscribe to a 
commercial broadband wireless network they could do so today, without 
any action by the Commission. Many large cities also maintain that the 
Commission's proposal would not result in a network built to rigorous 
public safety standards.
    Most large cities would prefer to construct their own broadband 
networks in order to have control of the network and to build the 
network to their standards. In addition many believe that the proposed 
Public Private Partnership will simply result in another commercial 
network deployment, and that the spectrum allocated by Congress to 
Public Safety will effectively be donated to the D Block auction winner 
who will use it to generate profits, subverting the intent of Congress.
    In addition, many large city officials believe that profits gleaned 
in large cities would subsidize the network build-out in less populated 
regions, and although that may be a laudable goal from a national 
perspective, large cities feel that they are being exploited.
    Question 3b. How has the PSST failed to coalesce the public safety 
community and represent them with a single voice?
    Answer. The PSST has made no attempt to build a consensus among 
Public Safety agencies regarding the 700 MHz public private network 
proposal. In fact, there may not be a consensus, as demonstrated by the 
diverse opinions expressed in recent hearings. As to who the PSST 
actually represents, that is a question best answered by the PSST; 
certainly they do not represent the views of the NYPD, the City of New 
York or other large cities who filed comments in opposition to the 
Commission's proposal to mandate that the D Block auction winner 
construct a single Nation-wide public/private broadband network.
 Questions From Ranking Member Charles W. Dent of Pennsylvania for Mr. 
   Charles F. Dowd, Deputy Chief, City of New York, Police Department
    Question 1. Would you please describe efforts underway to ensure 
that New York City agencies are fully interoperable with regional and 
State first responder agencies? What frequency range is being used to 
achieve this level of interoperability?
    Answer. For Public Safety agencies using the UHF band, 
interoperability is conducted on six New York Metropolitan Area 
Committee (NYMAC) channels in the UHF band. These channels are shared 
between New York City, Nassau and Suffolk Counties. New York City is in 
the process of establishing one of these channels as a Regional 
Simulcast Channel which will provide coverage throughout New York City 
and Westchester County.
    Interoperability for public safety agencies that operate radio 
systems on the 800 MHz band is provided through the use of the NPSTC 
national interoperability channels.
    Interoperability is also provided to Federal agencies operating in 
the VHF band through the use of a gateway which, when activated, 
patches the VHF Federal Interoperability channel to the NYPD channel 
most appropriate for the incident.
    Question 2a. Back in June, and again at the September 16 hearing, 
the NYPD stated that the FCC should not attempt to re-auction a piece 
of wireless spectrum that failed to sell, but instead should give that 
spectrum to emergency response agencies.
    If the FCC were to give the 700 MHz spectrum license to New York 
City, how would the city finance the construction of the network, as 
well as its ongoing maintenance and upgrades?
    Answer. The city is already in the position of having to fund the 
NYPD radio system conversion from 25 kHz channels to 12.5 KHz channels 
(or equivalent spectral efficiency) by 2013 due to an FCC mandate. This 
conversion amounts to nothing less than a forklift replacement of the 
existing NYPD radio system that will cost the city hundreds of millions 
of dollars. We believe that we could better spend this money by 
investing in a more modern approach to spectral efficiency, namely an 
integrated broadband voice and data network. We also believe that 
emerging 4G technology such as Long Term Evolution can make this vision 
a reality prior to the 2013 FCC deadline.
    Question 2b. How would surrounding areas participate in a city-
built 700 MHz network?
    Answer. The barriers to interoperability are a lack of a common air 
interface and agencies operating on disparate frequency bands. The FCC 
has chosen a frequency band (700 MHz) for the public safety broadband 
network, and has stated that there will be a common technology deployed 
nationally. The New York City-built 700 MHz broadband network would 
adhere to these standards and therefore be interoperable with 
surrounding networks built to the same standards. Interoperability 
would be seamless in much the same way as commercial wireless network 
providers provide seamless coverage.
    The ability for users to operate outside of their home network 
requires roaming agreements between networks. Roaming agreements 
between the New York City 700 MHz network and surrounding networks 
would be established to permit public safety users from other 
jurisdictions to use the New York City 700 MHz network, and conversely 
to permit New York City public safety users to use the broadband 700 
MHz network built within their jurisdictions to support public safety. 
These technical issues have been resolved years ago in the commercial 
wireless industry. We would adapt similar technologies and practices.

                                 <all>

</pre></body></html>
